<html>
<title> - THE NATIONAL TRAINING PROGRAM: IS ANTI-TERRORISM TRAINING FOR FIRST RESPONDERS EFFICIENT AND EFFECTIVE?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                     THE NATIONAL TRAINING PROGRAM:
                  IS ANTI-TERRORISM TRAINING FOR FIRST
                  RESPONDERS EFFICIENT AND EFFECTIVE?

=======================================================================

                             JOINT HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                         PREPAREDNESS, SCIENCE,
                             AND TECHNOLOGY

                                with the

         SUBCOMMITTEE ON MANAGEMENT, INTEGRATION, AND OVERSIGHT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 23, 2005

                               __________

                           Serial No. 109-25

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
26-612                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012007


                     COMMITTEE ON HOMELAND SECURITY

                 Christopher Cox, California, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania,           Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
Peter T. King, New York              Jane Harman, California
John Linder, Georgia                 Peter A. DeFazio, Oregon
Mark E. Souder, Indiana              Nita M. Lowey, New York
Tom Davis, Virginia                  Eleanor Holmes Norton, District of 
Daniel E. Lungren, California        Columbia
Jim Gibbons, Nevada                  Zoe Lofgren, California
Rob Simmons, Connecticut             Sheila Jackson-Lee, Texas
Mike Rogers, Alabama                 Bill Pascrell, Jr., New Jersey
Stevan Pearce, New Mexico            Donna M. Christensen, U.S. Virgin 
Katherine Harris, Florida            Islands
Bobby Jindal, Louisiana              Bob Etheridge, North Carolina
Dave G. Reichert, Washington         James R. Langevin, Rhode Island
Michael McCaul, Texas                Kendrick B. Meek, Florida
Charlie Dent, Pennsylvania

                                 ______

    SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, SCIENCE, AND TECHNOLOGY

                   Peter T. King, New York, Chairman

Lamar S. Smith, Texas                Bill Pascrell, Jr., New Jersey
Curt Weldon, Pennsylvania            Loretta Sanchez, California
Rob Simmons, Connecticut             Norman D. Dicks, Washington
Mike Rogers, Alabama                 Jane Harman, California
Stevan Pearce, New Mexico            Nita M. Lowey, New York
Katherine Harris, Florida            Eleanor Holmes Norton, District of 
Dave G. Reichert, Washington         Columbia
Michael McCaul, Texas                Donna M. Christensen, U.S. Virgin 
Charlie Dent, Pennsylvania           Islands
Christopher Cox, California (Ex      Bob Etheridge, North Carolina
Officio)                             Bennie G. Thompson, Mississippi 
                                     (Ex Officio)

                                 ______

         SUBCOMMITTEE ON MANAGEMENT, INTEGRATION AND OVERSIGHT

                     Mike Rogers, Alabama, Chairman

Christopher Shays, Connecticut       Kendrick B. Meek, Florida
John Linder, Georgia                 Edward J. Markey, Massachusetts
Tom Davis, Virginia                  Zoe Lofgren, California
Katherine Harris, Florida            Sheila Jackson-Lee, Texas
Dave G. Reichert, Washington         Bill Pascrell, Jr., New Jersey
Michael McCaul, Texas                Donna M. Christensen, U.S. Virgin 
Charlie Dent, Pennsylvania           Islands
Christopher Cox, California (Ex      Bennie G. Thompson, Mississippi 
Officio)                             (Ex Officio)

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Peter King, a Representative in Congress from the 
  State of New York, and Chairman, Subcommittee on Emergency 
  Preparedness, Science and Technology...........................     1
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  from the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Science and Technology..............     2
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Chairman, Subcommittee on Management, 
  Integration, and Oversight.....................................    18
The Honorable Kendrick B. Meek, a Representative in Congress From 
  the State of Florida, and Ranking Member, Subcommittee on 
  Management, Integration, and Oversight:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Committee on Homeland 
  Security.......................................................    21
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     7
The Honorable Charlie Dent, a Representative in Congress From the 
  State of Pennsylvania..........................................    30
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State Washington...........................................    25
The Honorable Bob Etheridge, a Representative in Congress from 
  the State of North Carolina....................................    28
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas........................................    31
The Honorable Michael McCaul, a Representative in Congress From 
  the State of Texas.............................................    32
The Honorable Dave G. Riechert, a Representative in Congress From 
  the State of Washington........................................    34
The Honorable Christopher Shays, a Representative in Congress 
  From the State Connecticut.....................................    27
The Honorable Rob Simmons, a Representative in Congress from the 
  State of Connecticut...........................................    24

                               WITNESSES
                                Panel I

The Honorable Raymond W. Kelly, Commissioner, Police Department, 
  City of New York:
  Oral Statement.................................................     8
  Prepared Statement.............................................    11

                                Panel II

Mr. Steven Edwards, Director, Maryland Fire and Rescue Institute, 
  Testifying on behalf of: North American Fire Training 
  Directors:
  Oral Statement.................................................    45
  Prepared Statement.............................................    47
Sheriff Patrick D. McGowan, Chairman, Weapons of Mass Destruction 
  Committee, National Sheriff's Association:
  Oral Statement.................................................    49
  Prepared Statement.............................................    51
Captain Jack Reall, National Fire Academy Board of Visitors:
  Oral Statement.................................................    58
  Prepared Statement.............................................    60
Mr. Shawn Reese, Analyst in American National Government, 
  Government and Finance Division, Congressional Research 
  Service:
  Oral Statement.................................................    36
  Prepared Statement.............................................    38
Dr. Van D. Romero, Vice President, Research and Economic 
  Development, New Mexico Institute of Mining and Technology:
  Oral Statement.................................................    62
  Prepared Statement.............................................    65

                             FOR THE RECORD
                 Additional Questions to the Witnesses

Responses From Dr. Van Romero....................................    73
Responses From Mr Raymond W. Kelly...............................    75


                     THE NATIONAL TRAINING PROGRAM:
                  IS ANTI-TERRORISM TRAINING FOR FIRST
                  RESPONDERS EFFICIENT AND EFFECTIVE?

                              ----------                              


                        Thursday, June 23, 2005

                  House of Representatives,
                    Committee on Homeland Security,
                    Subcommittee on Emergency Preparedness,
                                   Science, and Technology,
                                           with the
                   Subcommittee on Management, Integration,
                                             and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2118, Rayburn House Office Building, Hon. Peter King 
[chairman of the subcommittee] presiding.
    Present: Representatives King, Linder, Shays, Cox, Rogers, 
Pearce, Simmons, Davis, Dent, McCaul, Reichert, Pascrell, Meek, 
Thompson, Dicks, Norton, Jackson-Lee, Christensen, and 
Etheridge.
    Mr. King. [Presiding.] The Subcommittee on Emergency 
Preparedness, Science and Technology and the Subcommittee on 
Management, Integration and Oversight will come to order. The 
subcommittees are meeting today in joint session to hear 
testimony on the efficiency and effectiveness of the national 
training programs and terrorism training for first responders.
    Before we start, I would like to commend Bill Pascrell, the 
Ranking Member of the Subcommittee on Emergency Preparedness 
and Mike Rogers and Kendrick Meek, the Chairman and Ranking 
Member, respectively, of the Subcommittee on Management, 
Integration and Oversight for their leadership on homeland 
security issues. Let me again pay a special debt of thanks to 
my Ranking Member, Bill Pascrell, who has really gone out of 
his way to make sure this is a bipartisan, common effort as we 
work toward securing our homeland security.
    I especially want to thank them for the willingness to hold 
a joint hearing to examine the effectiveness of the Department 
of Homeland Security's terrorism preparedness and training for 
first responders.
    Without a doubt, effective antiterrorism training is 
essential to success in the war on terror. It is simply 
imperative that our nation's first responders, both public and 
private, learn to mesh the skills necessary to prevent, to 
prepare for and respond to and recover from acts of terrorism, 
especially those involving weapons of mass destruction. 
Training first responders, estimated to number over three 
million, will be a major feat. At a minimum, these first 
responders need to learn new antiterrorism protocols, 
procedures and nomenclature.
    In March 2004, for example, the Secretary of Homeland 
Security released a national incident management system, NIMS 
as it is commonly referred to, to establish standardized 
processes and procedures that first responders at all levels of 
government must use during emergencies involving multiple 
jurisdictions. To be effective, every first responder at all 
levels of government must learn a common language and set of 
procedures. If training every first responder with respect to 
NIMS isn't daunting enough, how about training every first 
responder to use state-of-the-art radiological protection 
equipment, decontamination tanks, fire hazard suits, and other 
homeland security technologies.
    To address these and other daunting challenges, the 
Homeland Security Act and the President's Homeland Security 
Directive 8 gave the Office of Domestic Preparedness, ODP, 
responsibility for coordinating federal terrorism preparedness 
training of first responders. Again, this is no easy task. 
Besides ODP, other components of the Department of Homeland 
Security such as the Federal Emergency Management Agency and 
other federal departments and agencies, including the 
Departments of Defense, Health and Human Services and Justice 
offer first responder training courses. Is ODP effectively 
coordinating such training both inside and outside the 
departments? Presumably, with so many courses, there must be 
duplication and redundancy. What is ODP doing, if anything, 
about this problem?
    To further complicate this already complicated situation, 
many state and local governments, academic institutions and 
professional organizations also provide training to first 
responders. Because of this fact, ODP has entered into 
strategic partnerships and cooperative agreements with several 
of these training entities. Several of our witnesses can shed 
light on these relationships and these partnership agreements. 
Are the state and local academic and professional training 
entities working with ODP to sufficiently utilize their 
expertise? Is the current national training program training 
enough responders in a timely manner? If not, why and what can 
be done about it?
    So I want to thank the witnesses for being here today. I 
will now recognize the gentleman from New Jersey, the Ranking 
Member, Mr. Pascrell.
    Mr. Pascrell. Thank you very much, Mr. Chairman.
    The mission of the Department of Homeland Security to 
secure the nation from acts of terror obviously gives it 
primary federal jurisdiction for providing counterterrorism 
training to federal, state and local emergency responders. This 
is serious business. But the fact remains that training 
programs are varied and dispersed across the federal realm. 
Numerous federal agencies, among which are the Departments of 
Defense, Health and Human Services, Justice and Transportation 
all maintain terrorism training for state and local personnel. 
Does this result in a confusing terrain for first responders? 
Well, it results in a confusing terrain for us. That does not 
say that first responders are confused.
    Is there potential redundancy in the patchwork of programs 
that exist? And are there diverging concentrations and variable 
competencies in the courses given? The National Strategy for 
Homeland Security issued in July 2002 states that the nation 
must develop interconnected and complementary homeland security 
systems that are reinforcing, rather than duplicative, and that 
ensure essential requirements are met.
    So thank you, Chairman King and Chairman Rogers, for 
holding the hearing on this critical issue. Today's hearing is 
the beginning of a comprehensive review by our subcommittee on 
the nation's varied first responder training programs. We will 
explore whether these programs are at time duplicative in 
nature; whether there exists a lack of coordination and 
possible redundancy; and ultimately if the programs are really 
a truly effective tool for emergency responders and personnel.
    We all know that our first responders, the firefighters, 
the law enforcement, EMS providers, are the first ones to 
arrive at the scene of any major incident and they are the last 
ones to leave, the last ones to leave. Have we met this 
necessary threshold that I spoke of a few moments ago? The 
current system of training may not be the best model for this 
goal.
    Today, we will hear from actual first responders and 
training providers at the state and local level. It is fitting 
that we have actual first responders before us today. I 
compliment our Chairman, and I say this in back of him as well 
as in front of him, because we have committed ourselves, this 
subcommittee, to listen to the first responders first before we 
act. I think that is critical, Mr. Chairman. We cannot have a 
top-heavy situation here because we will blow it in the 
Congress, no question about it. We will waste a lot of money 
doing it.
    I want to take a moment to publicly acknowledge 
Commissioner Kelly for the fine work he has done in New York 
City and for all the courtesies, Commissioner, you extended to 
our team when we came there for the day-long program in New 
York City. First, I want to thank you. We all understand that a 
vast array of vulnerabilities exist on our soil. You have 
spoken to that many times and about that many times. To simply 
put it, our first responders need to receive the proper 
training to respond to any and all possible disaster.
    Earlier this year, the committee approved legislation to 
speed up the flow of funding to local first responders and 
ensure that funding is targeted to those communities most at 
risk.
    So Mr. Chairman, thank you for having the hearing. I am 
anxious to hear from our witness.
    Mr. King. Thank you, Mr. Pascrell.
    The gentleman from Alabama, Chairman of the Subcommittee on 
Management, Integration and Oversight.
    Mr. Rogers. Thank you, Chairman King.
    First of all, I would like to join in welcoming our 
witnesses and thank them for taking time out of their busy 
schedules to be here today.
    Second, Mr. Chairman, I would like to say I appreciate the 
opportunity to join you in co-chairing this series of hearings 
in this subcommittee and the Subcommittee on Management, 
Integration and Oversight.
    Today, we will hear from some of the leading providers of 
terrorism preparedness training for first responders. We will 
discuss the effectiveness of Federal counterterrorism training 
programs and also hopefully discuss ideas as to how we can 
improve these programs.
    At our next meeting, we hope to talk with federal training 
officials themselves and learn more about their ongoing efforts 
to meet our growing training needs. The issue of first 
responder training is of special interest to me. In my home 
town of Anniston, Alabama we have the Center for Domestic 
Preparedness, or CDP, which is operated by the Department of 
Homeland Security. This important facility is one of the 
nation's leading all-hazards training centers for dealing with 
weapons of mass destruction.
    Unlike many other training facilities, CDP provides first 
responders with hands-on specialized training, including the 
use of live agent chemical training. CDP is also a member of 
the National Domestic Preparedness Consortium. I am pleased to 
see one of CDP's partners from the New Mexico Institute of 
Mining and Technology is with us today.
    Just down the road from the CDP is the Noble Training 
Center. This facility is also operated by DHS and is the only 
facility in the United States dedicated to training 
professionals to respond to natural disasters and acts of 
terrorism. The Noble Training Center trains approximately 3,000 
professionals each year in subjects including radiological 
incidents, emergency response and disaster preparedness. We 
need to ensure that vital training centers such as the CDP and 
Noble have the support they need from Washington.
    At the same time, it is important that we coordinate these 
training programs to safeguard taxpayer dollars. Many Federal 
departments and agencies provide counterterrorism training 
programs. The Department of Homeland Security alone has at 
least five agencies that provide training. According to the 
Congressional Research Service, some of these training programs 
cover the same subject matter. This situation raises a number 
of management coordination issues which we hope to address 
today.
    I also hope we will hear from witnesses as to their views 
regarding the Department's training and what more DHS can do to 
improve the coordination and delivery of these programs.
    I thank you, Mr. Chairman, and yield back.
    Mr. King. Thank you, Chairman Rogers.
    The gentleman from Florida, Mr. Meek.
    Mr. Meek. Thank you, Mr. Chairman.
    I want to thank our witnesses also for being here, and my 
colleagues for their leadership in having this important joint 
meeting.
    I will be very brief in my opening statement because I 
believe that it is important that we hear from these first 
responders.
    I would ask all of our panelists, including panel I and 
panel II, to be as truthful and blunt as possible to tell us 
what we need to know versus what we may want to hear as it 
relates to our efforts to make sure you first responders get 
trained. The Management, Integration and Oversight Subcommittee 
is for the first time in the history of the House, compared to 
the last session, in a standing committee to make sure that we 
are hitting the bull's eye or close to bull's eye every time we 
are using federal dollars and making sure the department has 
both the motivation and the direction it needs to make sure 
that we protect every American and make sure every first 
responder has the equipment and training that they need to 
carry out their mission.
    So I look forward to hearing your testimony. I look forward 
to the members asking questions and your response to them to 
the best of your ability, to help us move in the direction we 
need to move in. We most appreciate it.
    Mr. Chairman, I will enter my opening statement and any 
additional comments for the record.

     Prepared Opening Statement of the Honorable Kendrick Meek, a 
   Representative in Congress From the State of Forida, and Ranking 
     Member, Subcommittee on Management, Integration, and Oversight

    In this joint hearing of the Management, Integration and Oversight, 
and the Emergency Preparedness Subcommittees, I want to thank both 
Chairman Rogers and Chairman King, for calling today's hearing to look 
at the effectiveness and efficiency of first responder training 
programs administered and funded by the Department of Homeland 
Security.
    Fire, law enforcement, and emergency medical teams could easily 
find themselves on the front lines after a terrorist incident. They 
need and deserve the most effective and comprehensive training that the 
government can give them. We need to make sure that the kind of 
training they receive before an incident will allow them to save lives, 
restore calm, and reduce losses. I know that in Florida, first 
responders are an important part of holding together communities in the 
wake of natural disasters.
    I also know it is necessary to make sure taxpayer dollars are used 
in the most effective way possible. In our oversight capacity, we must 
make sure that that the hundreds of millions of dollars spent each year 
are spent wisely. What are taxpayers getting for their money? Are first 
responders actually getting the core competencies they need to respond 
to a terrorist attack?
    While the Department of Homeland Security has adopted standards for 
some types of first responder equipment, it has failed to create rules 
and regulations that provide the necessary and basic guidance that 
first responders need to make sure that they are able to operate 
effectively in the event of a terrorist incident. To carry out its 
mission of safety and security to this nation, the Department must 
provide training and support for states and local jurisdictions to 
prevent, plan for, and respond to terrorism. If the Department fails to 
give flexible, comprehensive training guidelines to first responders, 
it can't fulfill that mission.
    Therefore, before we begin to discuss possible duplication, overlap 
or other inefficiencies in current training, we must first ask the 
basic questions: what kind of training is needed? Where are the 
millions of taxpayer dollars being spent? Are jurisdictions duplicating 
efforts? What can be done to streamline training?
    I want to thank the witnesses who will testify today. I look 
forward to hearing from Commissioner Kelly, who will discuss the 
training models used in New York City. I look forward to hearing from 
Mr. Edwards and Mr. Reall. These gentlemen can tell us about the 
training necessary to fulfill their special roles of reducing loss of 
life and lessening property destruction. And of course, as a former 
State Trooper, I look forward to hearing from Sheriff McGowan. I look 
forward to hearing from Mr. Reese of CRS. His work on training programs 
and the issues raised by federal efforts has provided a roadmap for 
this Committee.
    Again, thank you for calling this hearing and I look forward to 
working with you to find the best way to meet the important training 
needs of our first responders.

    Mr. King. Without objection. I thank the gentleman.
    The Chairman of the full committee, Mr. Cox.
    Mr. Cox. Thank you to both Chairmen and both Ranking 
Members for convening this important hearing.
    I would also like to welcome and thank our witnesses for 
appearing today before this joint subcommittee hearing. 
Especially I would like to welcome Ray Kelly, who is already 
seated before us. He is the Commissioner of the New York City 
Policy Department. He has been and remains very much in the 
frontlines of the war on terrorism. I cannot think of anyone 
better prepared to help us address the questions of proper 
training in our battle with terrorists.
    Training is one of the Department of Homeland Security's 
most important missions. Our nation's first responders at all 
levels of government need targeted and effective training to 
develop and hone the specialized skills they need to fulfill 
their new homeland security responsibilities. Anything less is 
simply unacceptable.
    Training our nation's first responders, however, is an 
enormous task. There are more than one million firefighters in 
the country; 800,000 law enforcement officers; and another 
840,000 EMTs, emergency medical technicians and paramedics. As 
a result, when it comes to first responder training, as well as 
so many other Homeland Security responsibilities, we have to 
make choices. We have to focus our resources in this case on 
training those first responders most at risk and on the most 
significant threats that our populations face.
    We also must ensure that to the maximum degree possible, 
terrorism preparedness training includes the prevention of 
terrorism. We must never fail to take advantage of 
opportunities to stop terrorists in the first place, even as we 
rightfully prepare for the worst. We also must make sure our 
federal house is in order when it comes to first responder 
training programs. The Homeland Security Act designates the 
Office for Domestic Preparedness, now the Office of State and 
Local Government Coordination and Preparedness, as the primary 
agency for coordinating federal terrorism preparedness 
training.
    Unfortunately, coordinating federal antiterrorism training 
for first responders is easier said than done. At least seven 
federal departments, including the Department of Defense, the 
Department of Energy, the Department of Health and Human 
Services and the Department of Transportation offer hundreds of 
training courses. Even within DHS itself, the Office of State 
and Local Government Coordination and Preparedness has no 
monopoly on training. The Directorates for Emergency 
Preparedness and Response, Information Analysis and 
Infrastructure Protection, and Border and Transportation 
Security each train first responders.
    This patchwork of programs creates opportunities for 
duplication, inefficiency and confusion. Even with all of these 
federal training programs, state and local governments, 
academic institutions and professional organizations still 
provide the vast majority of training of first responders, 
including in partnership with DHS.
    I look forward, Mr. Chairman, to hearing the testimony of 
these training partners today with respect to the Department of 
Homeland Security's programs. How effective are they? Is the 
department doing enough to leverage the existing state, 
regional and local training infrastructure? Does the department 
certify non-federal training courses in a timely manner? Are we 
training first responders in the most efficient way possible?
    I want to thank all of our witnesses for being with us 
today. I look forward to your answers to these and other 
questions about first responder antiterrorism training.
    Thank you, Mr. Chairman, and I yield back my time.
    Mr. King. Thank you, Chairman Cox.
    The Ranking Member of the full committee, Mr. Thompson from 
Mississippi.
    Mr. Thompson. Thank you very much, Mr. King and the Ranking 
Member.
    I would like to welcome our witnesses to the hearing this 
morning.
    I am very pleased that we are holding this hearing today on 
first responder training programs. So far in Congress, this 
committee has held hearings on and approved legislation to 
reform the grantmaking process for first responder homeland 
security programs. Hopefully, we will soon conference that bill 
with the Senate and funding will start reaching the local 
levels where it is needed most. We now have an opportunity to 
conduct oversight on other aspects of preparing our first 
responders.
    Our nation's first responders, whether they are law 
enforcement, firefighters or EMS providers, are the first line 
of defense in the war on terrorism. We must do all we can to 
ensure that they have the training necessary to prevent, 
prepare for and respond to acts of terrorism.
    Today, we hold the first of two hearings on first responder 
training programs. As we move forward with our oversight, we 
must ensure that the current training programs are meeting the 
needs of our first responders, and that the only way to do that 
is to listen to the first responder training community. There 
are several important issues and questions that must be raised 
about the current composition of our first responder training. 
We must consider whether existing training programs are as 
efficient as they should be in order to get the most bang for 
our buck. We must ensure that the training programs are 
delivering the training that is needed in the most proficient 
way possible.
    Related to the efficiency is the effectiveness of these 
training programs. The first responder community has existing 
training facilities at the state and local level. Our national 
training programs should utilize these state and local 
facilities to the maximum extent possible. I am very concerned 
about the lack of coordination among training programs and 
providers within DHS, as well as other federal training 
partners.
    A final area of concern that I have is the lack of training 
standards. The department has adopted several standards for 
equipment, but none for training. In many cases, these 
standards exist, but the department has not taken the step of 
adopting standards for training. Our witnesses today should be 
able to address these issues and shed light on where there is 
need for improvement in our national training programs for 
first responders.
    Our first responders must have the best training available, 
delivered in the most efficient manner possible. It is the 
least we can do to those who help and put their lives on the 
line to protect us. I look forward to hearing from all our 
witnesses.
    Thank you, Mr. Chairman. I yield back.
    Mr. King. Thank you, Mr. Thompson.
    Other members of the committee are reminded that opening 
statements may be submitted for the record. We are pleased to 
have two distinguished panels of witnesses before us today on 
this topic. Let me remind the witnesses that their entire 
written statements will appear in the record. We also ask that 
you strive to limit your testimony to five minutes. We will 
allow the entire panel to testify before questioning any of the 
witnesses.
    Our first panel today is Ray Kelly, the Commissioner of the 
New York City Police Department. It is a personal privilege to 
have Commissioner Kelly here today because I do not think 
anyone exemplifies the struggle of first responders in the war 
against terrorism than Commissioner Ray Kelly. Ray Kelly was a 
combat veteran of Vietnam. He is a retired Colonel in the 
United States Marine Corps. He was a New York City police 
officer for more than 30 years. He was Under Secretary of the 
Treasury. He was Commissioner of Customs. He was Police 
Commissioner back in the early 1990s and then came back in as 
Police Commissioner in 2002, the first Police Commissioner in 
the history of New York to serve two nonconsecutive terms.
    Ray Kelly has I believe made the New York City Police 
Department a model in the fight against terrorism. As Bill 
Pascrell mentioned, last month the subcommittee went to New 
York. We spent a good amount of time with Commissioner Kelly 
both at his headquarters and also at the antiterrorism unit 
which is set out in one of the outer boroughs which is 
dedicated to fighting terrorism. I am sure Commissioner Kelly 
will detail much of this in his opening statement, but it 
really is I think a model for the rest of the country.
    Also if I could mention on a personal note, Commissioner 
Kelly talks about the fact, actually he does not talk about it, 
but his resume will list the fact that he has degrees from 
Manhattan College, St. John's Law School. He has a master's 
from NYU and a master's from Harvard. What he does not mention 
is that he and I both attended St. Teresa's Grammar School on 
44th Street in Woodside. I think that the Dominican nuns 
probably taught him a lot more than they taught me, as the 
Ranking Member just said, obviously.
    Also on another personal note, not to overpersonalize this, 
but my father was a member of the NYPD for over 30 years. He 
was actually head of the Physical School at the New York Police 
Academy and one of his trainees was Ray Kelly. Again, both the 
Dominican nuns and my father taught Ray Kelly a lot better than 
I was ever taught, which is why he has attained so much.
    With that, let me just ask Commissioner Kelly in 
testifying, thank you for your appearance here today, Ray. It 
is a pleasure and a privilege. Thank you.

   STATEMENT OF HON. RAYMOND W. KELLY, COMMISSIONER, POLICE 
                  DEPARTMENT, CITY OF NEW YORK

    Mr. Kelly. Thank you very much, Chairman King, Chairman 
Cox, Chairman Rogers, members of the subcommittees. Thank you 
for the opportunity to testify.
    I want to also take this opportunity to thank the members 
who visited New York earlier this month to see first-hand the 
extensive counterterrorism training and preparation the Police 
Department and New York City has undertaken. We greatly 
appreciated the time each of you spent with us and your 
constant support of the department's efforts to defend the 
city. That includes the recent House legislation to distribute 
future homeland security funding based on risk.
    Is national antiterrorism training for first responders 
efficient and effective? That is the question posed by this 
hearing. Certainly, that training has benefited the New York 
City Police Department's counterterrorism programs immensely. 
With the help of the training and expertise offered by the 
Department of Homeland Security, we have built up a powerful 
deterrent to terrorism. That includes sending our officers to 
the Center for Domestic Preparedness in your district, Chairman 
Rogers. In fact, they enjoy their time in Anniston quite a bit 
and we have difficulty getting them back.
    Building upon the unmatched size and experience and skill 
of the department's own workforce, we have also expanded upon 
the foundation laid with DHS support to establish one of the 
premier counterterrorism training centers in the nation, in 
Brooklyn which you visited. In addition to our own corps of 
over 36,000 police officers, we have delivered training through 
that center to members of the New York City Fire Department, 
the Metropolitan Transportation Authority Police Department, 
the New York State Police, the Nassau, Suffolk, Westchester and 
Rockland County Police, as well as police departments from 
Connecticut, Maryland, Minnesota, Virginia and even Canada.
    We train members of the U.S. Coast Guard and Park Police. 
We have brought in dozens of private security professionals 
from hotels, banks and other institutions to train them in 
better ways to protect their facilities. In all, over 130,000 
training days have been hosted in our regional training center 
since 2002.
    We have also leveraged DHS support to expand the protection 
of critical infrastructure throughout the region. We have 
created the Threat Reduction and Infrastructure Protection 
Program, or TRIPS, as we call it, based upon the DHS model, and 
applied it to New York. We have divided critical infrastructure 
in to five categories and assigned a team of detectives to 
cover each one. These investigators visit facilities throughout 
the city, identifying vulnerabilities and developing 
comprehensive protection plans with site managers to prevent 
attacks.
    To help us conduct these assessments, we have enlisted the 
support of the Cooper Union, one of the foremost schools of 
engineering in the nation. Its expertise is well known and bomb 
blast analysis and mitigation strategies. We meet with Cooper 
Union experts routinely to help ensure that we devise the most 
secure solutions possible, which we then share with the private 
sector.
    In addition, with DHS support we have trained approximately 
12,000 of our officers in more advanced chemical, biological 
and radiological response. This critical instruction, otherwise 
known as COBRA Cohort training, was made possible thanks to 
close collaboration between the department and the Office of 
Domestic Preparedness. As a result, we were able to take 
immediate steps to better protect New York City from the 
imminent threat of a terrorist attack involving weapons of mass 
destruction.
    The department's Regional Training Center, our TRIPS 
program, and COBRA Cohort training are all prime examples of 
how we have capitalized on DHS initiatives, adopting and 
enhancing national training models to fit New York. The result 
is that New York City has never been better prepared to defend 
itself from a terrorist attack.
    Still, all of our preparations come at a steep price, about 
$178 million per year to maintain our daily counterterrorism 
and intelligence activities. I want to emphasize these are 
ongoing operational costs to defend the city. In addition, 
there are the opportunity costs involved in our reassignment of 
1,000 police officers to counterterrorism duties. While the 
federal government provides vital assistance for training, 
equipment and overtime, we still have huge expenses to cover.
    For example, the government allows us to redirect a portion 
of homeland security funds to offset overtime costs incurred 
during periods of national orange alert. Last year, there was a 
total of 111 national orange alert days, an unusually high 
number, most of which came after the discovery that al-Qa'ida 
has targeted key U.S. financial institutions. In 2003 by 
comparison, there were 72 days of orange alert, but for the 
Police Department protecting a city in the crosshairs like New 
York is a year-round venture.
    Even considering an unusual year like 2004, we were still 
left with 254 days during which to maintain a high-visibility 
deterrent, mostly out of our own overtime budget. While today's 
hearing is focused on training for first responders, I also 
believe we need to place equal, if not greater, funding 
emphasis on first preventers. By that, I mean additional 
resources for the analysts and intelligence operatives who can 
alert us to a terrorist attack in the making, and also our 
ongoing operational costs that I mentioned previously.
    Last August, the Police Department foiled a plan by 
hometown Muslim extremists to bomb the Herald Square subway 
station in midtown Manhattan. We arrested those suspects just a 
week before the Republican National Convention, with the help 
of a confidential informant we had developed in the community. 
We continue to put a lot of resources into the field to protect 
New York against another attack. In the future, I believe we 
will require more and better intelligence as we did in the 
Herald Square case to stop terrorist plots in the making.
    The terrorists, too, are working hard to improve their 
operational capability, and we have to stay ahead of them. 
Accordingly, we need federal funding to support a comprehensive 
program of developing investigative skills that includes both 
analytical and operational personnel, certainly for the larger 
U.S. cities that are being targeted.
    What kind of initiative would this include? As is the case 
with first responder training, we need the federal government's 
expertise to train qualified intelligence analysts and 
investigators for the Police Department. We need support to 
sharpen our analysts' skills in conducting link analysis and 
terrorist group identification, improving their ability to 
identify intelligence gaps faster and hone-in quickly on what 
we need to know.
    Instruction of our investigative personnel in debriefing 
skills. The Police Department with its own limited budget has 
already begun to develop these analytical and investigative 
capacities. We have hired a cadre of trained civilian 
intelligence analysts to take raw information gathered from 
informants and undercover agents in the field and translate it 
into valuable real-time reporting for our commanders. Again, we 
are doing all of this out of our own pocket right now. We want 
to do more of it and do it better with the federal government's 
support and expertise.
    Some may question the federal government's obligation to 
support these local activities, or even the Police Department's 
right to carry them out. In response, I would draw an analogy 
to the national fight against the illegal drug trade. With so 
much ground to cover, local police agencies must play an 
integral part in supporting the effort to stem the flow of 
narcotics across national borders and into our cities. That 
includes the development of undercover drug agents and 
intelligence specialists. Far from competing with federal 
counterparts, these local assets are an indispensable force 
multiplier. We must take the same multi-pronged approach when 
it comes to rooting out terrorists.
    One final issue: The Police Department needs the ability to 
self-certify the training courses we develop internally to meet 
the needs to a unique urban environment like New York. Self-
certification would allow us to save valuable time in 
delivering vital new training otherwise spent on the DHS grant 
approval process. I want to emphasize that under self-
certification, the department will continue to work closely 
with DHS and the Office of Domestic Preparedness in upholding 
training standards that are second to none. In fact, the 
precedent already exists in the creation of our advanced COBRA 
Cohort training curriculum.
    Defending a vast nation against terrorism is an infinitely 
complex challenge, yet it is one the Police Department is 
positioned to help our federal government carry out, but we 
must have adequate resources to do the job. We must have 
federal funding for first responders and preventers alike and 
the authority to expedite their training, and we must hurry.
    Thank you again for this opportunity to testify. I look 
forward to any questions you might have.
    [The statement of Mr. Kelly follows:]

                 Prepard Statement of Raymond W. Kelly

    Chairman King, Chairman Rogers, Ranking Member Pascrell, Ranking 
Member Meek and Members of the Committees, thank you for this 
opportunity to testify.
    Before I begin, I want to thank Chairman Cox and Chairman King for 
visiting New York recently to observe some of our facilities first 
hand. I would also like to thank them for shepherding through 
legislation that recently passed in the House. Homeland Security 
funding must be distributed based upon one criterion, and one criterion 
only: the risk posed by terrorism. This legislation would move Homeland 
Security Grant programs in that direction.
    In the meantime, I am encouraged that the House Committee on 
Appropriations has directed that the distribution of State Homeland 
Security Grants be based upon threat, once a minimum distribution has 
been allocated to each state. This, too, is a step in the right 
direction. But I would encourage the Congress to restore the almost 
$400 million cut that was made to homeland security money to be made 
available to state and local governments in the coming year.
    To turn to the topic at hand, ``Is National Anti-Terrorism Training 
for First Responders Efficient and Effective?'' Certainly, that 
training has benefited the Police Department's counter-terrorism 
programs immensely. With the help of the training and expertise offered 
by the Department of Homeland Security, we have built up a powerful 
deterrent to terrorism.
    While today's hearing is focused on training for first responders, 
I also believe we need to place equal, if not greater funding emphasis 
on ``first preventers.'' By that I mean additional resources for the 
analysts and intelligence operatives who can tip us off to a terrorist 
attack in the making.
    Let me start by providing some context. New York City has been the 
prime target of terrorists since the early 1990's. In 1993, Islamic 
militants drove a rental truck packed with explosives into the basement 
garage of the World Trade Center, intent on bringing down at least one 
of the towers. The explosion resulted in the loss of innocent life, 
serious injury and considerable damage to a portion of the tower. 
Between 1993 and 2001 there were conspiracies to destroy the Holland 
and Lincoln Tunnels, the George Washington Bridge, the United Nations 
and the main Federal building in lower Manhattan, as well as a plot to 
bomb the subway system. The subway plot was foiled at the last minute 
by the New York City police officers who broke down the door of two 
Palestinians who were putting the finishing touches on the device. 
Those conspirators are in federal prison.
    After al-Qa'ida failed to bring down the Twin Towers in 1993, they 
waited patiently and tried again eight years later. Their philosophy is 
to return to the same place over and over, until they accomplish their 
evil goal. However, the threat did not stop when the two towers of the 
World Trade Center, and the many other buildings in that complex, came 
crashing down on September 11th. In February of 2003, an al-Qa'ida 
operative named Iyman Faris was in New York City on a mission to 
destroy the Brooklyn Bridge. He is the same man who fought alongside 
Osama Bin Laden, who engaged in a battle which included the wholesale 
slaughter of Russian prisoners, and who helped supply al-Qa'ida 
fighters with sleeping bags, airline tickets, cash and cell phones. 
Nearly two years after the destruction of the World Trade Center, Iyman 
Faris was in New York City conducting surveillance on the bridge. Faris 
abandoned his plan and reported back to his handlers that it was not 
possible to target the bridge because of our increased security 
measures. He, too, is presently serving time in federal prison.
    The highly visible security that the New York City Police 
Department had in place on the Brooklyn Bridge, in addition to the 
unseen protection, paid off in the Faris case. Faris was not the last 
of the militant operatives, however, actively plotting attacks against 
New York City since September 11th. Shortly before the Republican 
National Convention last year in New York City, our detectives arrested 
two, homegrown jihadists who were plotting to attack the Herald Square 
subway station at 34th Street and Sixth Avenue. We arrested those 
suspects with the help of a confidential informant we had developed in 
the community. This heavily traveled, midtown-Manhattan station sits in 
front of the Macy's flagship store and is also located one block away 
from the site of the Republican National Convention at Madison Square 
Garden. These two individuals are awaiting trial.
    We continue to put a lot of resources into the field to protect New 
York against another attack. But in the future, I believe we will 
require intelligence like we did in the Herald Square case to stop 
terrorist plots in the making. We need federal funding to support a 
comprehensive program of intelligence capability that includes both 
analytical and operational personnel, certainly for the larger U.S. 
cities that are being targeted. What kind of initiatives would this 
include?
    As is the case with first responder training, we need the federal 
government's expertise to train qualified intelligence analysts and 
operatives for the Police Department.
    We need that support in the following ways.
    One: Sharpening the analysts' skills in conducting link analysis 
and terrorist group identification.
    Two: Improving their ability to identify intelligence gaps faster 
and hone in quickly on what we need to know. And,
    Three: Instruction of our investigative personnel in debriefing 
skills.
    The Police Department, within its limited budget, has already begun 
to develop these analytical and investigative capacities. For example, 
we are identifying and monitoring extremists who are willing to 
perpetrate or provide material support for acts of terror. We have also 
hired a cadre of trained civilian intelligence analysts to take raw 
information gathered from informants and undercover agents in the field 
and translate it into valuable, real-time reporting for our commanders. 
Again, we are doing all of this out of our own pockets right now. We 
want to do more of it, and do it better, with the federal government's 
support and expertise.
    Some may question the government's obligation to support these 
activities, or even the Police Department's right to carry them out. In 
response, I would draw an analogy to the national fight against the 
illegal drug trade. With so much ground to cover, local police agencies 
must play an integral part in supporting the effort to stem the flow of 
narcotics across national borders and into our cities. That includes 
the development of undercover drug agents and intelligence specialists. 
Far from competing with federal counterparts, these local assets are an 
indispensable force multiplier. We must take the same multi-pronged 
approach when it comes to rooting out terrorists.
    Our measures include dedicating one thousand police officers 
exclusively to counter-terrorism duties. We created a new Counter 
Terrorism Bureau, the first of its kind for a big city police 
department. We assigned over 250 officers to that Bureau, including the 
posting of 120 detectives the Joint Terrorist Task Force (JTTF) with 
the FBI. That compares to 17 detectives assigned to the JTTF on 
September 11th.
    We dramatically expanded the role of our Intelligence Division. We 
are conducting around-the-clock threat assessments, and integrating 
this real-time information into daily decisions about where to place 
resources and personnel. We brought in outstanding individuals from 
outside the Department to lead our intelligence and counter-terrorism 
functions. They have decades of CIA, counter terrorism and national 
security experience.
    Drawing upon the unmatched size, experience, and skill of the 
Police Department's own workforce, we have also expanded upon the 
foundation laid with Department of Homeland Security (DHS) support to 
establish one of the premier counter-terrorism training centers in the 
nation in Brooklyn, which you visited. We staffed that center with 
police officers who speak Farsi, Urdu, Arabic, and Pashto among other 
strategic languages. They help us monitor global intelligence. We also 
hired a cadre of trained civilian analysts to scrutinize and 
investigate intelligence data. We have established a new intelligence 
liaison program, assigning New York City detectives to 7 cities in 5 
foreign countries to enhance our relationships with the police agencies 
of other nations.
    At home, we are engaged in extensive training, and we are 
conducting drills on a daily basis. We send our Hercules teams, 
comprised of specially trained officers with heavy weapons, to make 
unannounced visits to sensitive locations. They are there to respond to 
a terrorist incident and to disrupt the kind of surveillance we know 
al-Qa'ida undertakes. We also regularly conduct something we call 
Sampson drills, involving teams of up to 100 officers at a time, 
including snipers, who can be dispatched quickly to any given location 
in the city.
    Under Operation Nexus, our detectives meet with small business 
owners and suppliers who might unwittingly be used to provide material 
support to terrorists. They include businesses involved in everything 
from selling construction explosives, to laboratory equipment, scuba 
gear, and specialized rental equipment. We ask them to report any 
anomalies in purchases of goods and services. The Police Department has 
also held briefing sessions for various segments of the public who may 
come in contact with terrorist plotters. For example, we briefed real 
estate agents on exactly what al-Qa'ida tells its operatives to look 
for in renting an apartment, and with doormen and building security so 
that they can more keenly observe their surroundings.
    With the commencement of the war in Iraq, we launched a heightened 
security program called ``Operation Atlas'' to protect New York City 
from possible reprisal. Given the ongoing terrorist threat, Operation 
Atlas remains in place today. It brings together all of the core 
elements of the Police Department: patrol, specialized units, Counter 
Terrorism, and our Intelligence Division in a coordinated defense of 
New York City. Checkpoints are established periodically at key 
locations into and out of Manhattan. We have increased our protection 
of subways and commuter ferries, as well as critical infrastructure.
    Looking more closely at our training initiatives: we offer a 
Vehicle Borne Improvised Explosive Device Checkpoint (VBIED/CP) course 
targeted to local, state, and federal law enforcement. This is a four-
day course designed to provide both classroom and hands-on instruction 
concerning vehicle borne explosive recognition. During the first phase 
of instruction, the student is provided with techniques and methods of 
proper vehicle inspection during checkpoints at high profile events 
and/or critical infrastructure locations. The second phase of 
instruction provides hands-on experience in vehicle searches. 
Instruction and training includes the various methods of explosive 
concealment in a variety of vehicles and proper interviewing techniques 
of occupants of suspicious vehicles. Students learn how to use 
technology and assets that are presently available.
    Our Regional Infrastructure Protection Course (RIPC) is an 
introductory level course intended to equip members of the law 
enforcement community with the skills required to deter, detect, and 
identify potential terrorist activity. This course also introduces the 
student to the principles of risk assessment (an examination of the 
vulnerabilities associated with the infrastructure of a facility), 
basic methods of security, and the major components of a municipality's 
critical infrastructure.
    In addition to classroom instruction, two days of field exercises, 
which include an actual assessment of a facility, are conducted at the 
Regional Training Center. After assessing the facility, a written 
assessment is prepared and the class presents their findings in detail. 
Subcourses include the Introduction to Terrorism, Theory of Physical 
Security, Access Control/Biometrics/Closed Circuit Television, Fire 
Protection Systems, Heating-Ventilation-Air Conditioning (HVAC) 
Systems, Physical Barriers, Utilities, and Marine Terminal and Seaport 
Security.
    On the other end of the spectrum, we offer a one-day Weapons of 
Mass Destruction Operations Course. This introductory level course is 
intended to equip members of the law enforcement community with the 
rudimentary skill-set required to identify, detect, and prevent a 
terrorist attack involving a weapon of mass destruction. This course 
also introduces the officer to the concepts associated with operations 
within a hostile chemical or biological environment that result from a 
potential release of a weapon of mass destruction by a terrorist or a 
terrorist organization.
    One of the more extensive courses we provide at our Counter 
Terrorism Division Regional Training Center (RTC) is the Counter 
Terrorism Investigator's course. This is a five-day investigations 
level course intended to equip members of the law enforcement community 
with the skills required to deter, detect, and identify potential 
terrorist activity, and when necessary, respond to a potential 
terrorist attack. Our students do not sit in a classroom all day--we 
provide dynamic field exercises, including simmunitions drills (the use 
of simulated ammunition that looks, feels and sounds like the ``real 
thing''), an ``active shooter'' scenario, room clearing, cornering and 
vehicle stops, which are conducted at our Urban Training Center.
    This training is focused on the tactics employed by terrorist 
organizations so that law enforcement personnel have the tools required 
to address the threat proactively and safely. It includes courses in 
Introduction to Terrorism, Domestic Terrorism, International Terrorism, 
Transnational Crime/Traditional Crimes that Fund Terrorism, Fraudulent 
Documents, Developing Legal Issues, Weapons of Mass Destruction, Crime 
Scene Preservation, Improvised Explosive Devices, Suicide Attacks/Truck 
Bombs, Interview and Interrogation, Introduction to Risk Assessment, 
Case Development and Enhancement, and Cults/Fundamentalism/Extremist 
Behavior.
    We have provided instruction to our executive level staff including 
a course in International Terrorism and the al-Qa'ida Network. It 
provides an introduction to the methods used by a terrorist or a 
terrorist group, specifically focusing on the al-Qa'ida network, 
including the hierarchical structure, an introduction to the methods of 
training, funding, and gathering intelligence, the operational phases 
of a terrorist attack, and the process of target selection. This course 
also examines traditional crimes that have been identified as the means 
of funding terrorist organizations, including narcotics trafficking, 
money laundering, currency counterfeiting, tax fraud, coupon fraud, 
trademark infringement, illegal diamond/mineral smuggling, and 
kidnapping. Finally, the course examines the behavioral indicators and 
methodologies associated with the phenomenon of suicide attacks, 
including self-sacrificing attackers, suicide bombers, and truck bombs. 
Information obtained from a recent visit by NYPD personnel to Israel is 
included in the presentation.
    We have trained about 34,000 officers in Personal Protective 
Equipment. Many of those officers have been trained in one or more of 
our other counterterrorism courses. For example, about 32,000 police 
officers and supervisors have been trained in the Citywide Incident 
Management System (CIMS), which conforms with the National Incident 
Management System (NIMS), and 24,000 have attended our ``In-Tac'' 
training.
    In addition to our own corps of 37,000 police officers, we have 
delivered training through our Regional Training Center in Brooklyn to 
members of the New York City Fire Department; the Metropolitan 
Transportation Authority Police Department; the New York State Police; 
the Nassau, Suffolk, Westchester and Rockland County Police; as well as 
police departments from Connecticut, Maryland, Minnesota, Virginia and 
even Canada. We train members of the U.S. Coast Guard and the Park 
Police. We have brought in dozens of private security professionals 
from hotels, banks, and other institutions to train them in better ways 
to protect their facilities. In all, over 130,000 training days have 
been covered in the Regional Training Center.
    Additionally, we have leveraged DHS support to expand the 
protection of critical infrastructure throughout the region. We have 
created the Threat Reduction and Infrastructure Protection program, or 
TRIPS, based upon a DHS model, and applied it to New York. We have 
divided critical infrastructure into 5 categories, and assigned a team 
of detectives to cover each one. These investigators visit facilities 
throughout the City and identify any vulnerabilities. To help us 
conduct these assessments we have enlisted the support of The Cooper 
Union, one of the foremost schools of engineering in the nation. We 
meet with their experts routinely to help ensure we devise the most 
secure solutions possible.
    In addition, with DHS support, we have trained close to 12,000 of 
our officers in more advanced chemical, biological, and radiological 
response. This critical instruction, otherwise known as COBRA Cohort 
training, was made possible thanks to close collaboration between the 
Department and the Office of Domestic Preparedness. As a result, we 
were able to take immediate steps to better protect New York City from 
the imminent threat of a terrorist attack involving weapons of mass 
destruction.
    The Department's Regional Training Center, our TRIPS program, and 
COBRA Cohort training are all prime examples of how we have capitalized 
on DHS initiatives, adopting and enhancing national training models to 
fit New York. The result is that New York City has never been better 
prepared to defend itself from a terrorist threat. Still, all of our 
preparations come at a steep price: about $176 million per year to 
maintain our daily counter-terrorism and intelligence activities. I 
want to emphasize: these are ongoing operational costs to defend the 
city, not to mention the reassignment of 1000 police officers to 
counter-terrorism duties.
    One final issue. The Police Department needs the ability to self-
certify the training courses we develop internally to meet the needs of 
a unique urban environment like New York. Self-certification would 
allow us to save valuable time in delivering vital new training 
otherwise spent on the DHS grant approval process. I want to emphasize 
that under self-certification, the Department would continue to work 
closely with DHS and the Office of Domestic Preparedness in upholding 
training standards that are second to none. In fact, the precedent 
already exists in the creation of our advanced, COBRA Cohort Training 
curriculum.
    Defending a vast nation against terrorism is an infinitely complex 
challenge. Yet it is one the Police Department is perfectly positioned 
to help our federal government carry out. But we must have adequate 
resources to do the job. We must have federal funding for first 
responders and preventers alike, and the authority to expedite their 
training. And we must hurry.
    Thank you again for this opportunity to testify. I look forward to 
answering your questions.

    Mr. King. Thank you, Commissioner Kelly.
    I just have several questions. One, can you give us any 
more details on the question of the certification as to the 
assistance you are getting or the time which it takes for you 
to get the approval on the certifications?
    Mr. Kelly. The process now is essentially for us to give a 
course in looking for certification. We have to go through the 
state. We go to New York State. We fill out many forms. Those 
forms and the curriculum are then forwarded to the DHS Office 
of Domestic Preparedness. It can take a significant period of 
time to get that certification accomplished.
    What we are looking for is the ability, based on our 
expertise and based on the quality of trainers that we have, we 
would like to go to the state, get that authorization from the 
state, and then commence training without going through the 
Office of Domestic Preparedness process. Obviously, we leave 
ourselves open for inspection and reporting to DHS, but that 
gap or that period of time that it takes for us to go to DHS 
can be very significant and slows down our ability to get 
training out. Again, we have such a large police agency that 
that delay can be significant to us. We want the ability to do 
that training on a more localized basis so we can kind of 
spread it out and get more people in our training universe.
    Mr. King. Commissioner, you often say that besides first 
response, you have to be first preventers. The level of 
training given by the federal government, now adequate would 
you say it is regarding first prevention as opposed to 
responding?
    Mr. Kelly. Well, I think it is minimal as far as prevention 
is concerned, but I think as far as first responders are 
concerned, I think it is good. Certainly all the reports that I 
receive are that the training is very well done. The Consortium 
members give very positive feedback. But as far as prevention 
training is concerned, it really is minimal. It is diffused. As 
I said in my prepared remarks, we would like to have a more 
direct relationship, say, with the investigative agencies that 
will enable to us to get some of this training, and also with 
intelligence-gathering agencies. I think it would be helpful 
certainly for the major cities like New York and four or five 
other large cities in the U.S.
    Mr. King. For the record, can you tell us how many members 
there are on the NYPD?
    Mr. Kelly. How many members?
    Mr. King. Members, yes.
    Mr. Kelly. We have an authorized strength of 37,038 police 
officers. Right now, we are down a little bit below 36,000. We 
will have a major hire in July to bring us up to the 37,000 
number. We have another 15,000 civilian employees.
    Mr. King. And you said I believe up to 1,000 focused on 
antiterrorism?
    Mr. Kelly. Correct. We have redeployed 1,000, or the full-
time equivalent of 1,000 police officers for counterterrorism 
duties. They are in our Intelligence Division, our 
Counterterrorism Division. Plus we take significant numbers of 
officers from our patrol force every day and deploy them at key 
locations, sensitive locations throughout the city. It is a 
major undertaking for us.
    Mr. King. Yesterday, I was at a briefing with Congressman 
Simmons which was given by the Coast Guard. I am going a little 
off-message here, but can you detail your level of cooperation 
with the Coast Guard?
    Mr. Kelly. We have an excellent relationship with the Coast 
Guard. We have our personnel assigned to their Intelligence 
Center in New York. We are very close. I have a very close 
personal relationship with the Captain of the port. They have 
deployed their resources throughout New York Harbor. I do not 
think we could ask for anything more form the Coast Guard. They 
are very responsive. Anytime we need them, they are always 
there. They work very closely with our Harbor Unit.
    Mr. King. As my time is just about up, I think I should 
note for the record the personal stake you have in this, in 
that literally you live at Ground Zero. Your apartment was 
severely damaged at Ground Zero, so you really are literally on 
the frontlines in every sense of the word.
    Mr. Kelly. I live, you are right, about one block away. We 
were out of our home for almost 3 months as a result of 9/11.
    Mr. King. Thank you, Commissioner.
    Mr. Pascrell?
    Mr. Pascrell. Thank you for your service, Commissioner.
    Mr. Kelly. Thank you, sir.
    Mr. Pascrell. I am fascinated by your training of police 
officers in New York in Farsi, Urdu, Arabic, and Pashto. I am 
wondering if the federal agencies have assisted you in training 
in terms of the languages of the folks we have to work with, 
deal with, because this is part of your counter-intelligence 
action. You cannot have counter-intelligence unless you can 
speak the language of folks you are trying to watch and be 
careful of. Are you getting the cooperation from the federal 
government in this endeavor, or are you basically working on 
your own?
    Mr. Kelly. Yes. These are largely native speakers. In the 
members of the department, we have a big and diverse workforce. 
What we have done is taken individuals who claim to be able to 
speak these languages and we have tested them. We sent them to 
a private school. They are certified. So they are not being 
trained by us. They have the ability to speak. What we have 
done is stratify them or categorize what level they are at. We 
have 460 certified linguists, as we call them. We have lent 
them and have a memorandum of understanding with the Defense 
Intelligence Agency. We have lent them to DIA. They have been 
very supportive, but we do not receive any federal funds or 
federal help in this program.
    What we also have done is on our eligible list when someone 
wants to come into the department, they fill out obviously lots 
of forms. One of them is whether or not they have foreign 
language capability. If they do, we have the ability to reach 
down on the list and bring them up and appoint them ahead of 
other people on the list. We have done that as well. So we have 
at least 55 certified Arabic speakers in Pashto, Urdu, Hindi, 
Farsi speakers, and Chinese dialects. And we are continuing to 
mature that program.
    Mr. Pascrell. One of the things that I was most fascinated 
with in New York when we examined all of your operations and 
looked at them carefully is your Counterterrorism Division. I 
was very impressed with Mike Sheehan and his team, 
understanding that your department is trying to sharpen its 
skills in terms of conducting link analysis as we call it with 
terrorist group identification. This is serious business.
    So the New York City Police Department has trained its 
personnel, some of those personnel in basically preventing 
these things from happening, God forbid, and using a word which 
we do not like to use in the Congress, ``espionage.'' I want to 
just have your response to the question of how, what you can 
tell us for the public, how do you see the counterterrorism 
that has been conducted by federal agencies with regard to what 
you are trying to do? Is there a cooperative link? Are you 
doing this on your own? And how significant do you think this 
is in preventing these murderers from having their way?
    Mr. Kelly. It is a cooperative program. We work closely 
with the FBI and with the CIA. We have over 100 investigators 
with the Joint Terrorist Task Force in New York. I just want to 
mention a little bit about Mike Sheehan, because we are very 
fortunate to have him. Mike is our Deputy Commissioner of 
Counterterrorism. He is a West Point graduate, a former Special 
Forces officer and a member of President Bush I and President 
Clinton's national security staff. So he has done a masterful 
job in pulling a lot of these programs together.
    It is a collaborative and cooperative effort. David Cohen, 
who is our Deputy Commissioner for Intelligence, is a 35-year 
veteran of the CIA. David has brought his tremendous expertise 
and experience and contacts to bear on this effort. So it is 
collaborative. We do work with the federal authorities closely. 
We are not looking to supplant in any way what is going on. We 
certainly could not and do not want to. We look to supplement 
their activities. We do have some talented people. Again, I 
think the language skills that you mentioned are a very 
valuable tool for us.
    I believe it has been effective. Just the case that I 
mentioned before about the individuals who were plotting to 
blow up the Herald Square subway station, that case was handled 
by all New York investigators. Certainly, it was prosecuted 
federally, but our Intelligence Division had done it. So I 
think the program is effective. It is getting only more 
effective. In my judgment, we have brought in very talented 
analysts from the top schools, from the Kennedy School, from 
Stanford, from the Fletcher School of Diplomacy. These are 
quality people that we have doing analysis, taking information 
and synthesizing and putting it together.
    So I believe it is working. Again, we are doing it 
certainly not in a vacuum. We are doing it with federal 
authorities.
    Mr. Pascrell. Commissioner, in conclusion, folks should 
know that you are not only protecting New York City. You are 
helping us protect this nation by work and pioneering many of 
the things that we have been talking about here. I want to 
thank you personally.
    Mr. Kelly. Thank you, sir.
    Mr. King. Chairman Rogers?
    Mr. Rogers. I thank the Chairman.
    Commissioner Kelly, you made reference earlier in your 
statement that many of your officers are sent to Anniston, 
Alabama and the Center for Domestic Preparedness for training 
and you have a hard time getting them back home. I can 
understand that. Not only is it beautiful, we have some great 
country cooking in Alabama.
    Do you know how many of your officers you send each year to 
the Center for Domestic Preparedness for training, 
approximately?
    Mr. Kelly. I would say we have sent at least 600.
    Mr. Rogers. Per year?
    Mr. Kelly. No, I would say total. Again, we look at where 
the spots are. There are, as you know, different locations 
throughout the country. It depends on our availability. It 
depends on the availability of the responders. But I would say 
at least 600 cumulatively since those schools opened. Maybe now 
we are averaging about 150 or 200 a year.
    Mr. Rogers. What are some of the techniques that your 
officers find most appealing about training at the Center? Is 
there something in particular that is most effective for you 
and something else that is least effective or interesting to 
you?
    Mr. Kelly. The training is very well done. It is done very 
professionally. As you mentioned in your statement, Mr. 
Chairman, live agents are available at the facility at 
Anniston. I know that in New Mexico, I think the large 
explosive devices are examined closely. I know our bomb squad 
is very impressed with the training that goes on there. In 
Nevada, it seems to be more focused on perhaps dirty bombs or 
radiation challenges for us.
    So I can tell you, though, that everybody who goes, the 
feedback that I have had comes back with very high reviews of 
the quality of the training.
    Mr. Rogers. You made reference in your statement to 
spending $178 million a year on training.
    Mr. Kelly. Yes, sir, on counterterrorism.
    Mr. Rogers. Counterterrorism. One of the problems I have 
found, as you know, is that training at the Center for Domestic 
Preparedness, is free. They pay no tuition. The room and board 
is free. If you can send your officer or your firefighter or 
other first responder, it is free. One of the practical 
problems that we have run into as I have moved around and 
talked with folks in your line of work is, while the training 
is free, you still have to replace that officer while they are 
off on patrol. Many of these officers are the very people who 
are in the Guard and Reserve and are also serving overseas, so 
many of these departments are already short-handed. What are 
the costs to you to participate in these programs that maybe 
you are not having reimbursed?
    Mr. Kelly. There are certainly overtime costs. Many of the 
people that we send are in our emergency service unit. We would 
like to have a bigger emergency service unit. We just cannot 
afford to do it. We are down several thousand police officers 
from where the department was in 2000 because of budgetary 
constraints. So when we send people to training, we oftentimes 
have to backfill with an officer on overtime. For us being a 
big department, the largest in the country, it amounts to 
several million dollars over a year.
    Mr. Rogers. Is that reimbursable?
    Mr. Kelly. No, that is not reimbursable.
    Mr. Rogers. There are no Federal funds?
    Mr. Kelly. Not for that cost, no, sir.
    Mr. Rogers. Okay. You talked a little bit about self-
certification. I would like to know more about what you are 
looking for. Is this a certification that you would like to get 
authority from ODP to do yourself?
    Mr. Kelly. We would like to do it in certain areas that are 
perhaps not trained at the Consortium level, we would like to 
get the ability to do self-certification. As I mentioned to 
Chairman King before, we may want to train, let's say on 
surveillance techniques. We have people coming in from other 
agencies, as well as our own people, in order for us to get 
funding to do that we go through the state. We apply to the 
state. The state then takes our paperwork and sends it to the 
Office of Domestic Preparedness and it can be a long period of 
time. We think that certain things that we do and do well, that 
we would like to be able to certify that training and avoid the 
long delay that results from the process.
    Mr. Rogers. These are programs outside the Consortium's 
areas?
    Mr. Kelly. Yes.
    Mr. Rogers. For example at CDP, we have train-the-trainer.
    Mr. Kelly. Right.
    Mr. Rogers. So you are talking about something separate 
from that?
    Mr. Kelly. Yes. I am talking about something separate.
    Mr. Rogers. Thanks very much. I appreciate it.
    Mr. King. Mr. Meek?
    Mr. Meek. Thank you, Mr. Chairman.
    Commissioner, thank you for your testimony.
    We do have a bill that we have passed already out of the 
House, which was this first responder bill, H.R. 1544. We asked 
the General Accounting Office to really look at are we getting 
what we need to get out of training. The Department of Homeland 
Security does not have a set curriculum to where their goals 
and objectives as they relate to overall security of the 
homeland. We spent about $180 million in first responder 
training in the 2005 year. Without a system of tracking and 
evaluating first responder training, I am trying to figure out 
and I know this committee would like to know, how do we know 
that we are training the men and women we need to train to be 
able to, as the Chairman speaks of, prevent, but to also 
respond?
    You have a regional training location I believe and we know 
that there is one in Alabama and there are a couple more around 
the country. Do you believe that the Department of Homeland 
Security should have training standards? That is one question.
    Two, you know that you have basic law enforcement standards 
that have to be met for an individual to be a sworn law 
enforcement officer. We send federal agents to Georgia to get 
that, and then they train them, specializing in their 
department. I would like to hear your response to that.
    Mr. Kelly. I believe we should have standards. The 
Department of Homeland Security should have standards and 
attempt to have a consistency in training throughout the 
country. I can tell you that we use many of the skills that our 
officers receive on a very regular basis in New York City 
because of the size of the city and the activities that go on 
there. So we are using a lot of the skills, so in a way we are 
able to judge the effectiveness of the training almost on a 
daily basis in New York.
    But yes, sir, I agree that there should be some consistency 
and there should be some across-the-board standards.
    Mr. Meek. Commissioner, has the department approached you, 
the Office of Domestic Preparedness, about what they should be 
doing and how they should be training first responders 
throughout the country? Have you been a part of an advisory 
group with the department to have such a thing that you have 
heard of?
    Mr. Kelly. I am not aware of any formal group that performs 
that function, but we have a lot of interaction with ODP, so I 
believe on an informal basis there is a lot of give and take 
and a lot of discussion as to what the training should be.
    Mr. Meek. I personally believe that this is important 
because as we start to look at the Department of Homeland 
Security, as we start to build the Department of Homeland 
Security, 22 legacy agencies coming together under one mission 
to protect the homeland, it is very, very important that we 
have outcome measures. I am hoping that our leadership here, 
even though we have sent a bill over to the Senate, that 
possibly that we can just as members of this committee, hearing 
what the Commissioner has said, to move forth in sending a 
letter to the GAO to hopefully get them started on giving us 
some direction.
    Because what they would do is go out to speak with first 
responders, speak with the department, talk about where we have 
duplication. Training is good, but duplication and not 
expanding the minds and the skills of our first responders 
could end up hurting us in the long run and we could very well 
skim over something.
    One other question as it relates to sharing and mutual aid. 
Is there any training going on here in the United States as far 
as you are concerned about how agencies of other jurisdictions 
can work together, not only in the prevention of a terrorist 
attack, but post-terrorist attack? Do we have the kind of what 
you may call cross-pollination among leadership of these 
special units to be able to respond to an attack? Have you seen 
or heard of, or do you provide that in your regional training 
facility?
    Mr. Kelly. On the law enforcement level, we have a lot of 
interaction with surrounding jurisdictions, but we are the 
biggest jurisdiction around and we have 8.1 million people in 
New York City. Regionally, we work with Nassau County, Suffolk 
County. They are part of our Joint Terrorist Task Force. We 
work with New Jersey, Westchester County and Bergen County on 
law enforcement issues.
    Now, as far as first responder and mutual aid, in the Fire 
Department I know they have a very active program as well. I am 
not really equipped to speak about it, but I know that that is 
something that they work on. But law enforcement, the regional 
approach is something that perhaps we need more work on in the 
New York area, but we do have a fair amount of integration on 
the Joint Terrorist Task Force and communication with the 
surrounding jurisdictions.
    Mr. Meek. Thank you, Commissioner.
    Mr. King. Chairman Cox?
    Mr. Cox. Thank you very much. Again, welcome.
    Mr. Kelly. Thank you, sir.
    Mr. Cox. We really enjoyed the time that we spent with you 
as a committee up in New York City. I want to join everyone 
here once again in commending you and the city and the Mayor 
for all that you are doing in every single one of these areas.
    The training, of course, is the piece we are focused on 
today. I want to get my arms around this problem of multiple, 
potentially redundant and inconsistent training programs that 
are operated directly or indirectly by the federal government. 
What we in this committee look at in terms of funding levels 
for the federal piece is about $195 million a year for the 
training. We want to make sure that we are getting our money's 
worth.
    I have heard you testify and respond to questions thus far 
that from your standpoint it is not efficient to always ship 
your people off to some other distant locale. You have to find 
a way to pay for their replacement, and sometimes that is 
overtime, so it is a very expensive way of doing business. I 
would like to explore whether or not there isn't some way to 
tap into expertise that New York City already possesses or is 
in the process of acquiring so that the trainers' concept can 
be taken still further and we can train a lot more men and 
women without making them all leave their duty posts, or at 
least leave the city.
    How much of that do you think that we can do? I just look 
at the FEMA compendium of federal terrorism training for state 
and local audiences. It lists over 200 courses. There has got 
to be a lot of duplication or inconsistency in there. We have 
the trade group, the Training Resources and Data Exchange 
focused on trying to identify those. From your standpoint, are 
we spending our money wisely or are we in some ways causing 
duplication and overlap and inefficiency by making people 
travel to other places and a lot of different places to get 
training that maybe could be consolidated?
    Mr. Kelly. Yes, I think there probably is potential there 
for consolidation. It is difficult for me to talk about it 
because, as I say, the feedback that we have had has been all 
positive as far as sending people out to the Consortium 
schools, but most likely there is a possibility of 
consolidation as to the way you send people.
    The point that you made, Mr. Chairman, about being able to 
do some regional training, I certainly support that. I like the 
concept of training the trainers, sending the trainers back, 
and having us do it on a local level. It saves us time and it 
is going to enable us to reach more people more quickly.
    To a certain extent, we do that. We would like to do more 
of it. Any way that we can do that on perhaps on the 
certification level, where we can do even some of the core 
training that is going on in some of these other locations, I 
think that should be explored. But in terms of quality, we like 
the quality that we are getting at the Consortium schools. I 
want to emphasize that, but perhaps there is potential there 
for us to take that structure and do it at a more local level.
    Mr. Cox. What has been your experience with certification, 
with trying to get your own courses certified?
    Mr. Kelly. As I said before, ultimately we can do it, but 
it takes a long time.
    Mr. Cox. Specifically, have you had anything approved by 
DHS?
    Mr. Kelly. We have had approvals. Again, I spoke about the 
Cohort COBRA training which worked very well for us. We wanted 
to do that before the Republican National Convention. DHS was 
very cooperative in that regard. We had that course certified 
and they worked with us and we were able to train 12,000 of our 
police officers. COBRA stands for chemical, biological and 
radiological response training. We did that in a smoke 
environment. We did it with a subway car. They were very 
helpful in that regard, and we did receive federal funding to 
enable us to do it. That is an example that worked very well as 
far as collaboratively and cooperatively getting a 
certification done quickly.
    Mr. Cox. The reason I ask this question is I am looking at 
data that tells me that there have been 23 requests to ODP for 
additions to the list of eligible federal terrorism training 
courses. Of those requests nationwide, thus far only three have 
been approved. There have been 115 requests for 
institutionalization by state administrative agencies or state 
training point of contacts. Of those 115 requests received for 
institutionalization, three have been approved.
    So I do not know why there are so many denials or so much 
work in progress, but I just want to find out from your 
standpoint where the city has a lot more that it wants to do 
here that it is looking forward to.
    Mr. Kelly. Those numbers surprise me. My belief is that we 
had several certifications that were granted, but it just took 
an extended period of time. So those numbers are a surprise to 
me.
    Mr. Cox. I am actually happy to hear that. I am glad that 
this experience that seems to be described by these statistics 
is not New York City's experience.
    Thank you, Mr. Chairman.
    Mr. King. Thank you, Mr. Cox.
    Mr. Thompson?
    Mr. Thompson. Thank you very much.
    Mr. Commissioner, you gave us significant food for thought 
on how to do it right. I just wish we could get DHS to adopt 
the New York model and we would be further along.
    Do you agree that while DHS provides standards for 
equipment, that they should promulgate the standards for 
training?
    Mr. Kelly. I think that would be helpful. I think to a 
certain extent they do, but perhaps it has to be better 
clarified and more clearly published.
    Mr. Thompson. So you see the need to have some national 
standard for training?
    Mr. Kelly. Yes, sir.
    Mr. Thompson. Thank you.
    In your experience with DHS on getting reimbursed for funds 
expended in whatever program, do you have any knowledge of how 
long that normally takes to get reimbursed for any eligible 
program that is under DHS?
    Mr. Kelly. Well, the reimbursement process is a protracted 
one. We have to go through the state, which is problematic as 
well. We are applying through the state. The money comes 
through the state. It is both a federal and a state issue. I 
think for us sometimes the money is held up with the state as 
well. But reimbursement seems to take sometimes a significant 
period.
    Mr. Thompson. Do you have a guesstimate of how long that 
normally takes?
    Mr. Kelly. I hear that from our Office of Management and 
Budget, outside of the Police Department, because the 
reimbursement does not come directly to the department. It 
comes through the City of New York. So I do not have a specific 
time, but there is kind of a steady lament that it takes an 
extended period of time to get reimbursed. There is a belief 
that there is money in the pipeline that is not spent, when in 
actuality what it is is money that just simply has not been 
reimbursed in a timely fashion. But that is what our budget 
people say.
    Mr. Thompson. One of the comments we hear quite often is 
that if cities without the resource capacity perhaps as New 
York, expend the money, if there is an inordinate amount of 
time between when the money comes back, it puts them in a bind.
    Mr. Kelly. Yes, sir.
    Mr. Thompson. Obviously, New York might have enough reserve 
to make up the difference. Call the Congressman, right? I hope 
you understand my question.
    Mr. Kelly. I do. I understand it. Yes, sir. Certainly, for 
smaller cities, it can be an issue. I believe it is an issue 
for New York as well, but as I say it does not impact directly 
on the Police Department. It is the overall budget of the city.
    Mr. Thompson. To what extent have you utilized the federal 
training facilities for your department?
    Mr. Kelly. When you say ``federal training,'' again we 
talked about the Consortium located in Anniston, New Mexico, in 
Nevada, LSU and Texas. We send most of our people to either 
Anniston, New Mexico or to Nevada. I believe we have sent a few 
people, a small number to FLETC in Georgia, but generally 
speaking those are the facilities that are people use.
    Mr. Thompson. Your comment to us is that you are satisfied 
with the training they receive at those facilities?
    Mr. Kelly. Yes, sir. I am satisfied with the quality of the 
training, yes, sir.
    Mr. Thompson. Thank you.
    Mr. King. Mr. Simmons?
    Mr. Simmons. Thank you, Mr. Chairman.
    Thank you, Commissioner.
    Mr. Kelly. Yes, sir.
    Mr. Simmons. As somebody who was born and raised in New 
York City, but then moved to Connecticut, I want to tell you 
what a great job you are doing. It makes me proud to see what 
the NYPD is doing before, during and after 9/11. I think the 
challenges you face are extraordinary, as are the challenges of 
probably half a dozen of our biggest cities, but New York in 
particular because New York is a target. New York is a city of 
diverse population, massive diverse population, so there are 
many challenges there.
    I want to focus on three parts of your testimony. The first 
part was your reference to first preventers as opposed to first 
responders. We tend to think in terms of what do we do if. That 
is after the fact. The concept of a first preventer is how do 
we prevent the incident from taking place in the first place. 
If we could have prevented 9/11, 3,000 people would be alive 
today.
    Secondly, your reference to the Intelligence Division and 
all the terrific things that your Intelligence Division is 
doing. I support that and I share the views of some of my 
colleagues who think that the New York Police Department has 
moved faster to respond in this area than certain components of 
our federal government. I congratulate you on that.
    And then the third piece has to do with vehicle-borne 
improved explosive devices, to which I would add ship-borne 
because New York City is surrounded by substantial bodies of 
water.
    What I would like to do is back up a little bit and tell 
you something that I did about a year ago when I was in New 
York City. I went to the New York Public Library. I know there 
is a lot of controversy over libraries. I went to the New York 
Public Library and asked for their records on the subway system 
and underground railroads. I discovered after a few minutes of 
inquiry that I could access very substantial documents in the 
New York Public Library detailing particularly the underground 
railroad system. I think their collection there is probably one 
of the best in the city, but also substantial engineering 
records and documentation on the subway system.
    So my question is this. New York is an old city. It is a 
city with historic structures like the Brooklyn Bridge. Many of 
the documents relative to those structures, which can be 
targets, are available to the public in public places like 
libraries. What mechanism do you use to tip off the 
Intelligence Division is somebody is accessing those records, 
if any? Do you have a mechanism for that at all?
    Mr. Kelly. We do not.
    Mr. Simmons. Should we consider that? I know this is a 
difficult question and you may want to postpone your response, 
but it certainly bothers me. If we are going to be first 
preventers, we have to use a little imagination to figure out 
what the bad guys are after. We know they are after the 
Brooklyn Bridge. That has been demonstrated. There may be some 
other targets. And then where are they going to learn about 
those targets? What I am suggesting is there is a lot of 
information publicly available in public places like public 
libraries. How do you intersect with those entities, if at all?
    Mr. Kelly. I guess the answer is with great difficulty. We 
do not, and again there is so much information available on the 
Internet where there really is no potential way of keeping 
records of who gets certain information. So I guess it is just 
the free and open society that we live in that causes us this 
concern. I cannot think of any reasonable, practical way of 
controlling flows of information.
    I know that we looked at information on the transit system. 
We looked at it on the Internet, I should say. We looked it up 
when this issue surfaced a few years ago, and actually, it is 
interesting you should mention, on the Brooklyn Bridge, because 
there is an awful lot of specific information that is just 
publicly available and you can get it on the Internet without 
going into a library, without someone seeing your face or 
presenting a card. So I think it is just a reality of the world 
that we live in. I cannot think of a practical way, quite 
frankly, of addressing it.
    Mr. Simmons. I will just follow on with an additional 
comment or question. As the Chairman of the Intelligence and 
Information Sharing Subcommittee, this is an issue that we 
wrestle with as well. We certainly support civil liberties and 
civil rights, but my daughter lives in Brooklyn. She crosses 
the bridge twice a day. I would hate to think that she might 
die because somebody got some details on the bridge to blow it 
up out of a public place and we had no way of knowing that.
    Information sharing, you say you are getting no money from 
the feds, at least not directly. Are you getting intelligence 
or other types of information sharing from the federal 
government?
    Mr. Kelly. Yes, we are. We are getting it through our 
presence on the Joint Terrorism Task Force. We are getting it 
directly with the Central Intelligence Agency on appropriate 
matters. So we are sharing information. We would always like 
more. There is always that little jousting that goes around 
about certain issues, but generally speaking we are sharing 
information. I want to stress that it is a two-way flow. We are 
gathering information and we are forwarding it to the federal 
government as well.
    Mr. Simmons. Thank you for your testimony and your service.
    Thank you, Mr. Chairman, for holding this hearing.
    Mr. Kelly. Thank you, sir.
    Mr. King. Mr. Dicks?
    Mr. Dicks. Commissioner, I want to welcome you and commend 
you on your efforts to create this Intelligence Division. When 
did this happen? When did you do it actually?
    Mr. Kelly. We have always had an Intelligence Division, 
``always'' being for many, many years in the New York City 
Police Department. What we did was focus a part of the 
Intelligence Division on the issue of terrorism.
    Mr. Dicks. When did that happen?
    Mr. Kelly. It happened post-9/11. It happened at the 
beginning of this Administration, Mayor Bloomberg's 
Administration, starting in January of 2002.
    Mr. Dicks. Again, how many people do you have in the 
counterterrorism part of the Intelligence Division?
    Mr. Kelly. We have a Counterterrorism Bureau which has 250 
people, and we have an Intelligence Division that has about 500 
people in it. We have in each of our precincts and subunits we 
have an intelligence officer who is part of that Intelligence 
Division. And then we have part of the Intelligence Division 
that focuses just on counterterrorism issues.
    Mr. Dicks. This has been pretty successful? In your 
testimony, you point out several situations where your people 
found information, acted on it, and were able to be first 
preventers.
    Mr. Kelly. Yes, sir.
    Mr. Dicks. How many other police departments? I mean, you 
know pretty much what is going on around the country. Do any 
other police departments have a similar counterterrorism 
entity?
    Mr. Kelly. I think similar in concept, not in size, of 
course. We are the largest police department by far in the 
country, but there are efforts in this area in other major 
police departments throughout the country.
    Mr. Dicks. Now, as you said, you got no money from the 
federal government in creating this counterterrorism entity. Is 
that correct?
    Mr. Kelly. That is correct, yes, sir.
    Mr. Dicks. Do you think you should have gotten some 
support? Do you think that would be helpful if the federal 
government provided help in this area?
    Mr. Kelly. Sure. We would appreciate it, but again this is 
kind of new territory. Police departments have not done this in 
the past, so I understand there may be some lag I this regard. 
But I think it is worthy of examination for the federal 
government to come in and see where they might help.
    Mr. Dicks. I think this is a big force multiplier for our 
intelligence effort. I spent 8 years on the Intelligence 
Committee here in the House of Representatives and one of the 
things we worried about was the fact that down at the state and 
local level, you need to get this information, but if you do 
not have an entity that is out there working to gather this 
information, and I am glad you brought in some top intelligence 
people and are working on the language issues. To me, I think 
this is something that would help our entire intelligence 
effort in our major cities. We already have the Urban Areas 
Program, of some special concern, but it would seem to me that 
this is a way to help prevent an incident from occurring.
    There is no doubt in my mind that the FBI, the 
Counterterrorism Center, all these different entities would 
benefit by having your professional people who are in 
coordination with them, giving them information. It seems to me 
this is something we ought to really look at as a way to 
enhance our intelligence side of the equation.
    Mr. Kelly. Yes, sir. I agree.
    Mr. Dicks. But it gets down to money, as we found out in 
this homeland security issue. There is never enough money to do 
all these things, but this one, it seems to me, if you can 
prevent these incidents from happening, this is something that 
we ought to really seriously consider doing.
    Thank you, Mr. Chairman.
    Mr. King. Thank you, Mr. Dicks.
    Mr. Shays from Connecticut?
    Mr. Shays. Thank you.
    Mr. Kelly, your folks during the Republican Convention did 
an awesome job. They were polite. They were courteous. They 
were extraordinarily competent, the firemen and-women as well. 
It was one of the more impressive times that I have felt and 
seen public officials do their job in what was a really 
difficult and challenging circumstance.
    Mr. Kelly. Thank you, sir.
    Mr. Shays. I would like to know what you feel the public 
has a right to know and how you decide that. For instance, if 
you have been told by the federal government that there is a 
possible terrorist threat in your city; you have been told to 
look out for radiological material, that there might be a so-
called ``dirty'' bomb. And you have been told in what venue it 
might occur. What responsibility do you have? How do you 
decide? And who decides? Does the Mayor decide? Do you decide? 
Is it a combination?
    Mr. Kelly. That is a difficult question. I think we have a 
bias towards informing the public, putting information out, but 
you can do great harm. You can make a high-regret decision, as 
it is called, by putting out information when it lacks 
specificity. So I think you have to look at the source, if you 
can determine the source, the general credibility of the 
threat; the specificity of the threat; and make a determination 
as to when this information goes forward. Ultimately, the Mayor 
would be the one who would make a decision on something very 
serious and widespread.
    Mr. Shays. This committee has weighed-in in I think a very 
constructive way. It has weighed-in in saying that the 
allocation of dollars should be based on risk and need, rather 
than based on population. You have answered obviously to the 
question that you agree.
    I would be interested if you would pass judgment on 
something else this committee weighed-in on. We basically have 
said that we want the warning system to be more than just 
colors; that we want it to be more specific; we want it to be 
able to say when it can where the risk is; and we also want 
there to be information provided to people as to how they might 
respond to that risk. I am not talking in great specific 
detail, but in other words instead of saying we are at code 
orange or we are code yellow, we want to define ``yellow'' and 
we want to define ``orange'' to folks so they have a better 
idea of what it means.
    What is your sense of that?
    Mr. Kelly. Yes, I think I would agree. The problem is that 
intelligence does not come in neat packages and it lacks 
specificity. As I say, we usually do not know the credibility 
of the source. So you get information that says something bad 
is going to happen. It lacks specificity.
    Mr. Shays. Let me ask you this, then. What is the value of 
telling someone that we are in code orange when they do not 
know what the heck it means?
    Mr. Kelly. Well, this is something that I think is being 
debated now by the Department of Homeland Security. I think 
they are trying to come up with a system that is more specific, 
is more helpful. But this was done early on, after 9/11. I 
think it was a valid attempt to have a system in place to alert 
the public and it may have outlived its usefulness now. I think 
it is an emerging belief that you can feel in government. But 
we do not have as yet, as far as I know, on the drawing board a 
system that is more effective.
    Mr. Shays. But what we did do more recently is we, the 
federal government in conjunction with the communities, for 
instance when we thought there was a threat to financial 
institutions, instead of making this broad, sweeping warning, 
we said financial institutions appear to be a target and we are 
paying closer attention to that. That makes sense, does it not?
    Mr. Kelly. Yes. Last August, that is what happened and I 
think that was the appropriate thing to do then.
    Mr. Shays. Thank you, sir.
    Thank you, Mr. Chairman.
    Mr. King. Mr. Kelly, isn't New York City always in code 
orange?
    Mr. Kelly. We are at higher level of alert. The system came 
in after we went to a higher level and we maintain that higher 
level, so it is kind of a shorthand way of saying that is what 
we are doing. But after 9/11, New York put in a lot of 
additional security and we have maintained that. So saying we 
are at code orange is a shorthand way of saying that is what we 
are doing.
    Mr. King. The gentleman from North Carolina, Mr. Etheridge?
    Mr. Etheridge. Thank you, Mr. Chairman.
    Commissioner, thank you for being here with us this 
morning.
    Let me follow that one up for just a moment because I 
think, only for just a follow-up, because I think in terms of 
many of us who have been somewhat concerned about the codes 
because if you live in rural North Carolina or rural mid-
America and the code goes up, what it tends to do, I think, and 
I would be interested in your comments, is to develop a level 
of cynicism. Pretty soon, people pay no attention to what the 
codes are because, number one, it does not affect them; and 
number two, they are not moving around. I think it bleeds into 
other areas.
    I think the example of the banking institutions or 
financial institutions are a good example that we probably 
ought to pay a lot more attention to as we look at this code. I 
would be interested in your additional comments on that, 
because you are out there where the rubber meets the road.
    Mr. Kelly. I agree, but the intelligence information was 
such that it focused directly on financial institutions. So you 
are able to do that. That is what I said, most of this 
information when it comes down the pike lacks specificity. In 
this case, we had very specific information focusing on 
financial institutions, so I think it was done in an 
appropriate fashion last August. I think we now need a more 
sophisticated way of doing it.
    Mr. Etheridge. Having said about the information coming 
down, let me ask a little different way a question that was 
asked by Congressman Dicks a little earlier. You have talked 
about, and I commend you for what you are doing in New York 
because I do think New York and some of our major cities are 
still on a high level of targeting.
    You mentioned in your testimony that you would like for the 
federal government to support, to train qualified intelligence 
analysts and operatives for the police department. My question 
is this, do you think other cities ought to be doing some of 
the same things, and in the process of that, as you do it in 
New York?
    Mr. Kelly. I think major cities, large cities.
    Mr. Etheridge. As you do it in New York, are you sharing 
that with other jurisdictions, your fire, your rescue, the 
other first responders who are part of that? As you gather that 
data, how does that get to them?
    Mr. Kelly. When it is appropriate, yes we do.
    Mr. Etheridge. And it goes up the line to Homeland Security 
and back to you, and you share that data?
    Mr. Kelly. Yes. Yes, sir. Are you talking about 
intelligence information we gather?
    Mr. Etheridge. Yes.
    Mr. Kelly. We have a process, a system where we would go to 
the FBI or to Homeland Security when appropriate.
    Mr. Etheridge. Okay. And then that is shared with local 
jurisdictions within the New York region?
    Mr. Kelly. When it is appropriate, yes, sir.
    Mr. Etheridge. Okay. Let me shift to another question, if I 
may. You talked about, and I think it is impressive that you 
talk about training the trainer. I think that is one that I 
first ran into in education that works very effectively when it 
is followed with guidelines and procedures. Given the vastness 
of America and the differences from New York to other rural 
areas across this country, as people and things move, the risk 
to America can be different, but it can be the same because 
many of the people who wound up creating all the problems on 9/
11 came to New York from areas that were not anywhere near as 
well-occupied as the city.
    My question is, as we provide the oversight, I would be 
interested in your comments on how Homeland Security overall 
training integrates with the smaller departments where you only 
have one, two, three, four, five or a lot of volunteers in some 
cases, because that is just as important in some cases to New 
York City where you have an awful lot of people in place, and a 
sophisticated system. To me, that is where I think a lot of our 
vulnerabilities still lie. I would be interested in your 
comments.
    Mr. Kelly. I think in that case, you are talking about 
training, it has to be done on the state level. The states have 
to make a determination as to who is appropriate in the state 
to receive that sort of training. I hear what you are saying is 
we need listening posts everywhere because any piece of 
information can prove of value gathered in North Carolina, and 
of value to New York, for instance. We understand that. So we 
need a system to get that information.
    I think to a certain extent the FBI has created that. We 
now have a Joint Terrorist Task Force component in every one of 
their offices, ever SAC office in the country, and 56 of them 
have a Joint Terrorist Task Force. They are certainly in North 
Carolina as well. But in terms of training, I think the 
training for that has to be done at a state level and the state 
is going to have to make a determination as to who should be 
involved in it because there are finite resources.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Mr. King. Thank you, Mr. Etheridge.
    The gentleman from Pennsylvania, Mr. Dent?
    Mr. Dent. Thank you, Mr. Chairman.
    Good morning, Mr. Commissioner.
    I am fascinated by your Intelligence Division and what you 
have done up there in New York. I guess my principal question 
is this. What is it that your detectives are doing in those 
cities overseas? I am pleased that you have them over there. 
What are they able to discover or learn that we are maybe not 
receiving from our federal intelligence officials who may be 
based overseas? I would like to learn a little bit more about 
that.
    Mr. Kelly. Again, as I said before, we are not looking to 
supplant anybody. We are looking to supplement.
    Mr. Dent. I understand.
    Mr. Kelly. New York, of course, has been attacked 
successfully twice in the last 12 years. We are looking for any 
bit of information we can get that gives a leg up in New York. 
They have gotten some front row seats to major investigations 
that are ongoing. For instance, our detective in Tel Aviv, if 
there is an event, a suicide bombing, he is there within the 
hour. He gives us very specific information. He works very 
closely with the Israeli authorities. We have real-time 
information that comes back to New York that day. You are not 
getting that from other agencies.
    In the Madrid bombing case, it took place on March 11, 
2004. That day, we had, and it happened to be the same 
investigator from Tel Aviv, we had him in Madrid. We found out 
how the bombs had been constructed, where they were put 
together. We put a tactical approach in place that same day or 
12 hours later around our transit facilities, at our subway 
stops for instance, to be on the lookout for that type of 
activity.
    That is the kind of real-time information that we are 
getting from our people overseas.
    Mr. King. Will the gentleman yield for a moment?
    Commissioner Kelly, were you there before or after the FBI 
in Madrid?
    Mr. Kelly. We happened to be there that day. We dispatched 
someone that day. We also had a team there the next day from 
the U.S. that we sent. But we feel we are in the crosshairs, so 
as I say we are looking for any bit of information. These 
detectives, they are charged with the responsibility of asking 
the New York question. Is New York somehow involved directly or 
indirectly in the event that happened there or an investigation 
that is ongoing there?
    Mr. Dent. Okay. And how do you determine what cities you 
selected to place your detectives?
    Mr. Kelly. Obviously, we need a receptive environment. We 
need a law enforcement entity that is going to accept us and 
have us work closely with them. So that is part of it. There 
are certain locations we are concerned about, obviously Canada 
being our neighbor to the north. We have the famous case of 
Ahmed Ressam who came through the State of Washington in 1999. 
He was in Montreal and then went over there. He as the 
Millennium bomber. So Canada is an area that we look to get 
information from. The UK, we have detectives there. They have 
been very supportive and worked very, very closely with us. 
That is an area of concern. London looks an awful lot like New 
York in many ways. It has a very complex, big underground 
transit system. We want to be there. Tel Aviv, of course, is an 
area of concern to us.
    So we look at locations where we think it is going to be 
helpful for us and then we talk to those governments, and if 
they are receptive, then so be it.
    Mr. Dent. Thank you, Mr. Commissioner. I do understand what 
you are doing there is supplemental, complementary to what our 
intelligence agencies are doing. I just am very, very impressed 
by your department and have been for many, many years, by the 
level of sophistication and preparedness that you have provided 
to the citizens of your city and to this country over the 
years. Thank you.
    Mr. Kelly. Thank you, sir.
    Mr. King. Ms. Jackson-Lee, a former New Yorker.
    Ms. Jackson-Lee. Mr. Chairman, thank you very much.
    With that spirit, I want to thank Commissioner Kelly. We 
have found opportunity to work together over a number of years 
in the capacities that you have served the nation. Might I add 
my appreciation for your service and the hard knocks that you 
have taken in the course of that service. There are many of us 
that appreciate very much what you are doing.
    And this hearing, let me thank the Ranking Members and the 
Chairman of this committee and as well the Ranking and Chairman 
of the full committee.
    I am going to offer some anecdotal stories and really going 
to focus on law enforcement.
    Mr. King. Would the gentlelady just yield for one moment. 
The procedure we are going to follow, Mr. Rogers is going to go 
over and vote now. There is only one vote on, so we can try and 
keep the hearing going.
    The gentlelady from Texas?
    Ms. Jackson-Lee. I thank the Chairman very much.
    Texas has a unique situation, so let me pose these 
questions quickly. One, I would like just a general question of 
are we doing enough. You may have answered it, but I would like 
to hear, are we doing enough, particularly in light of the plan 
that we are supposed to offer about interrelatedness in terms 
of a plan of the first responders, this 2002 reported plan that 
the Homeland Security is supposed to have in terms of the 
interrelatedness of first responders having a plan of how they 
work together.
    The other question is that you spoke earlier of your wish 
to authorize self-certification by states in certain emergency 
preparedness disciplines. If all states are able to self-
certify, how would you address the need for coordination of a 
nationwide methodology?
    My last point, down on the southern border, you may have 
heard of the intense violence around Nuevo Laredo, which is on 
the Mexican side, and Laredo. A lot of that has to do with drug 
trafficking and drug cartels, but I always know that where 
there are drugs and money there is the potential for terrorism. 
So law enforcement that may be dealing with drugs needs to 
understand terrorism.
    The other component is self-law enforcement. I mean that by 
groups like the Minutemen, who are intruding themselves into 
the process that may cause some difficulties. Would you comment 
on the need for enhanced training in light of the frustration 
of Americans that generate the creation of groups like the 
Minutemen and do you find them necessary and effective, if we 
can be more effective in our training and our resources for our 
law enforcement and our firefighters, of course, who are not in 
the midst of fighting battles, but they are certainly in the 
midst of saving lives.
    Mr. Kelly. I think it is a question of resources. Having 
been the Customs Commissioner, I have some experience with the 
border. We were short of resources, certainly, when I was there 
and I think that is probably still an issue, although I think 
it has gone up somewhat in head count. There is no longer a 
Customs Service. There is Customs and Border Protection now. It 
has merged with Border Patrol.
    But I think it probably still is an issue of resources. 
There are probably not enough people down there and that is why 
you get the frustration of the public trying to get involved. I 
think we need a major investment in protecting our borders. You 
need the people to do it. There are no gimmicks involved. You 
need an investment in having sufficient resources to do it.
    Ms. Jackson-Lee. And you would substitute the people for 
the Minutemen?
    Mr. Kelly. Yes, absolutely. You substitute professional 
full-time employees for volunteers.
    As far as the self-certification and coordination is 
concerned, by asking for self-certification I certainly do not 
want to diminish the role of the Department of Homeland 
Security. That is where the coordination comes in. That is 
where the oversight comes in. As was mentioned before, national 
training standards are perhaps needed. So I think that is how 
you address the issue of having some overarching coordination 
and control of what is going on.
    Ms. Jackson-Lee. With that, I yield back.
    I thank you very much.
    Mr. King. The gentleman from Texas, Mr. McCaul?
    Mr. McCaul. Thank you, Mr. Chairman.
    First, I want to say how much I enjoyed the visit up to 
Ground Zero and the visit with you personally. I thank the 
Chairman for setting up that codel up to New York. I learned a 
lot about the impressive operation that you have up there, that 
first and foremost.
    Mr. Kelly. Thank you.
    Mr. McCaul. Since we have votes, I am going to get right to 
the questions. That is, I worked in the Justice Department with 
the Joint Terrorism Task Force. I know the model. I am not a 
believer that one size fits all in the federal government; that 
you can use a cookie cutter approach to everything across the 
nation.
    I want to get your thoughts on how that is operating in New 
York. I know we talked a little bit about that, the model in 
general; that there may be some elements of discussion with 
regard to how it applies in New York.
    Secondly, your coordination with the National 
Counterterrorism Center, is it working effectively and if not 
what needs to be done to make this work so that we get that 
information to the state and local level?
    Mr. Kelly. We do have coordination with the National 
Center. Again, it has been changing. It had some different 
configurations in there, but we do have coordination. We get it 
through the FBI. We also have it directly through our 
Intelligence Division. So I do not see a major issue there. We 
are all learning as we go along. I think there are certainly 
people of goodwill there who want to cooperate with us; see us 
as a value-added; that we are getting information and 
information should go upstream and we are doing that. We are 
working to improve that.
    Mr. McCaul. Okay. And with respect to the Joint Terrorism 
Task Forces, is that model working in New York or how can that 
be improved?
    Mr. Kelly. We have a discussion up there. I think ideally 
we should have a model that looks like the Drug Enforcement 
Task Forces, where you have a marbleized approach where 
everyone is in one entity, where you have supervisors, if you 
recognize supervisors, they are in supervisory positions 
irrespective of their agencies.
    What you have now is in essence an FBI entity with members 
of the Joint Terrorist Task Force appended to it, added on in 
their own structure, unlike the Drug Enforcement Task Force 
where you have integration, where you have supervisors from 
various agencies supervising personnel from different agencies.
    Mr. McCaul. Are you talking about the HIDA program, is that 
what you are referring to?
    Mr. Kelly. HIDA is obviously information sharing, but HIDA 
does have a more integrated approach. I point to the Drug 
Enforcement Task Force, I think it has worked. It is a model 
that has worked for many years and works well in New York. The 
Joint Terrorist Task Force I think is effective, but ideally we 
should have more integration.
    Mr. McCaul. I think that is something that this committee 
should take a look at. I appreciate your time here today.
    Thank you, Mr. Chairman.
    Mr. King. Commissioner Kelly, if we can impose on you, I 
believe there is only one more member on our side who has 
question to ask, Sheriff Reichert, who had been the Sheriff of 
King County in the State of Washington. He went over to vote, 
so he can come back to ask questions.
    I am going to call the committee to be in recess until 
Chairman Rogers comes back, and then it will be Congressman 
Reichert and then you will be excused.
    Mr. Kelly. Yes, sir.
    Mr. King. If you could just hang on for another 10 or 15 
minutes.
    The committee stands in recess.
    [Recess.]
    Mr. Rogers. [Presiding.] If I could reconvene this.
    At this time, the Chair recognizes the gentleman from 
Washington, Mr. Reichert, for any questions he may have.
    Mr. Reichert. Thank you, Mr. Chairman.
    First of all, thank you for your service. I was the sheriff 
of King County in Seattle up until January 3rd, so I am missing 
the role that you play in a much larger scale.
    I have to say that I had the opportunity to attend national 
executive classes over my 8 years as sheriff in Seattle with 
some members of the New York Police Department. And I would, 
again, echo my colleague's comments about the professionalism, 
commitment to duty and compassion they have to serve the 
public. And they are just the highest caliber people. So I 
thought you might appreciate hearing that.
    I just want to touch on a couple of quick things and not 
hold you too much longer. I know you have a busy schedule also.
    When you talk about national standards, national training 
standards, how do you see those standards being developed 
across the nation? What kind of a process, in your opinion, 
might be used to help develop those standards?
    Mr. Kelly. I think a process would have to be driven by the 
Department of Homeland Security. I don't think it is that 
complicated. I think you can reach general consensus on best 
practices, but it has to be controlled and you have to have 
kind of a coalescing entity. And I would say Homeland Security 
can do that. You might have a conference of first responders?I 
think it would be easy to pick out the appropriate people to go 
to a conference like that. I don't think it is difficult to do, 
put it that way. And I think you kind of know them when you see 
them. It is just a question of doing it.
    Mr. Reichert. So you see the National Sheriffs' Association 
having a role in helping to set those standards?
    Mr. Kelly. Sure. I think certainly it would be appropriate 
to ask them to participate, yes.
    Mr. Reichert. We, in Seattle, participated in TOPOFF, which 
was quite an expensive exercise, and I know that you have 
participated in similar training exercises. What is the role of 
the federal government as far as their financial role, I should 
say. I know what their role is in helping to come in and 
develop the scenario, et cetera. But financially, how does it 
impact your police department, your city, your police 
department's budget and do you get any financial help from the 
federal agencies in pulling off one of these exercises?
    Mr. Kelly. Well, we do not get financial help, quite 
frankly. Let me take that back. There are some. TOPOFF 
obviously is the major one mandated by Congress. We do get some 
money through our Office of Emergency Management to run some 
exercises, but we do a lot of our own training and a lot of our 
own exercises, our own agency exercises without any federal 
funding.
    So we are doing it. Would we like money? Sure, but we are 
still getting it done. But there are major exercises in New 
York City, multi-agency exercises in which we do get federal 
money. I think there is money from FEMA that helps in that 
regard. That money for the most part comes through our Office 
of Emergency Management.
    Mr. Reichert. What percentage of your budget do you suppose 
that you now spend on homeland security efforts?
    Mr. Kelly. We spend about $178 million a year. That is our 
estimate for counterterrorism. That would be both overtime and 
straight time, you might say opportunity costs, salary of 
people who are doing that sort of work. We have about a $3.5 
billion a year budget.
    Mr. Reichert. Did the city give you an increase of $178 
million in your budget to address these issues?
    Mr. Kelly. No, sir.
    Mr. Reichert. I knew that would be your answer.
    [Laughter.]
    We had a similar experience in Seattle.
    So the $178 million came from somewhere. What did you have 
to give up with your Police Department? What services did you 
have to cut in order to come up with $178 million?
    Mr. Kelly. That is a good question. Obviously, if you have 
people doing a certain function, they are not doing the normal 
patrol function or investigative function. We are down, as a 
snapshot of where we are now in the department, we are down 
5,000 police officers from where we were in October, 2000, plus 
we have this 1,000 redeployed for counterterrorism. So when you 
say ``where does it come from,'' the 5,000 of course comes from 
all over the organization, as the 1,000 does as well. You have 
fewer people on patrol, fewer people doing normal 
investigations, fewer people doing traffic control.
    Mr. Reichert. So some of it is paid because of salary 
savings through the 5,000 vacancies that you have.
    Mr. Kelly. The 5,000 vacancies that we have are not 
vacancies. The headcount has been reduced, the authorized 
strength, but not by 5,000. It was reduced less than that. We 
have attrition, significant attrition. It is complicated, but 
we had a lot of hires in the mid-1980s. We had those hires 
because of layoffs in the 1970s. We waited until the 1980s to 
do it. But now you can retire in 20 years in the New York City 
Police Department, so we have historically consistent 
attrition, but it is large numbers. So we attrition down and we 
hire up.
    We have right now in the Police Academy, we have 1,700 
recruits in our Police Academy class. They will graduate next 
month. We will hire another 1,600, well actually we are going 
to hire them before they graduate. So we are meeting the needs 
of the department based on a 37,038 authorized headcount. When 
you look back to October of 2000, the headcount was over 
40,000. So the authorized headcount was reduced because of the 
budget problems that the city is facing.
    Mr. Reichert. I have follow-up questions, but I see my time 
has expired, Mr. Chairman.
    Mr. King. [Presiding.] Thank you, Mr. Reichert.
    Mr. Kelly, thank you very much for your testimony today. It 
is, as always, a tremendous addition to the committee.
    Any further comment, Mr. Rogers?
    Mr. Rogers. I would just say that the City of New York is 
fortunate, and our nation is fortunate, to have you in this 
capacity, and I appreciate your making the time to be here. It 
has been a great benefit to me, and I know the rest of the 
committee as well.
    Mr. Kelly. Thank you very much, sir.
    Mr. King. The witness is excused. Thank you.
    Mr. Kelly. Thank you, sir.
    Mr. King. I will call the second panel please.
    I thank each of the witnesses on panel two for being here 
today. In the interest of time, we will get right to the 
testimony.
    I recognize Shawn Reese, Analyst in American National 
Government and Government Finance Division of the Congressional 
Research Service. Mr. Reese?

                    STATEMENT OF SHAWN REESE

    Mr. Reese. Chairman King, Chairman Rogers, and members of 
the subcommittees, I would like to thank you for this 
opportunity to appear before you today to discuss federal 
counterterrorism training.
    My summary presents a brief overview of federal 
counterterrorism training aimed at illustrating the range of 
such training offered by the federal government. My summary 
also presents areas that may merit oversight to assess whether 
such training programs are appropriate in scope or possibly 
redundant. I also have two visual aids that I think they are 
going to set up now to present, which are examples of DHS and 
federal government counterterrorism entities. It is not 
comprehensive.
    Federal counterterrorism training programs are varied and 
are provided by numerous federal agencies, among which are the 
Departments of Defense, Energy, Homeland Security, Health and 
Human Services, Justice, and Transportation, and the 
Environmental Protection Agency. Each department or agency 
provides counterterrorism training, targeting specific 
categories of recipients such as federal, state and local 
government personnel, emergency responders, and private and 
public critical infrastructure personnel.
    The mission of the Department of Homeland Security to 
secure the nation from terrorist attacks gives it primary 
federal responsibility for providing counterterrorism training 
to federal, state and local emergency responders. Additionally, 
Homeland Security Presidential Directive 8, National 
Preparedness, requires the DHS Secretary, in coordination with 
appropriate federal departments and agencies, to establish and 
maintain a comprehensive national training program. The 
national program is to identify standards and maximize the 
effectiveness of existing federal preparedness programs.
    The Department of Homeland Security comprises numerous 
agencies, offices, institutes and partners that provide 
counterterrorism training. DHS training is provided by such 
facilities as the Federal Law Enforcement Training Center, the 
National Fire Academy, the Noble Training Center and the 
Emergency Management Institute. Additionally, DHS administers 
training programs provided by the National Domestic 
Preparedness Consortium and the Training Resources and Data 
Exchange Group.
    The Office for Domestic Preparedness, which has primary 
responsibility within DHS for preparing for potential terrorist 
attacks against the United States, is the principal DHS agency 
providing counterterrorism training to states and localities.
    Now I would like to briefly discuss possible policy 
questions concerning counterterrorism training for 
congressional oversight. In the evolution of counterterrorism 
training, a number of questions have arisen with regard to 
possible duplication of training programs. The questions and 
possible approaches might be of interest as you continue your 
oversight of counterterrorism training. As you know, CRS takes 
no position with respect to any of the possible approaches 
mentioned.
    The first question is the potential duplication of DHS 
training. Within DHS, the Office for Domestic Preparedness and 
the Federal Emergency Management Agency administer training 
programs at the state and local level and at national training 
institutes such as the Emergency Management Institute and the 
National Fire Academy. The Office for Domestic Preparedness 
administers training through such entities as the National 
Domestic Preparedness Consortium.
    Some training programs offered by the Emergency Management 
Institute, the National Fire Academy and the Consortium have 
subject matter that is similar such as incident management, 
homeland security planning, hazardous material response, 
emergency operations and weapons of mass destruction response. 
Because of the possible similarity of the training programs, 
some might argue for the need to consolidate or coordinate 
training offered by DHS.
    Section six of H.R. 1544, Faster and Smarter Funding for 
First Responders, proposes an evaluation by the Government 
Accountability Office. If Congress were to find undesirable 
redundancy in DHS training, it could require DHS to establish a 
board or task force to review training and recommend 
coordination or other steps to reduce potential duplication. If 
Congress were to determine a need to consolidate DHS training, 
it could require the Department of Homeland Security to conduct 
a review of its counterterrorism training and develop a plan to 
consolidate it. This approach, however, might be seen as 
impractical due to the training FEMA provides state and local 
emergency managers that is specific to natural disasters; the 
specific training the National Fire Academy provides 
firefighters; and the training that the Office for Domestic 
Preparedness provides to law enforcement personnel.
    The second and final policy question I would like to 
address is the potential duplication of federal 
counterterrorism training. Again because of rapid evolution of 
training programs offered by different federal departments and 
agencies, there may be a duplication of certain types of 
training. For example, the Departments of Homeland Security and 
Health and Human Services and the Environmental Protection 
Agency all offer training related to responding to hazardous 
material incidents. Congress could ask the Government 
Accountability Office to undertake an evaluation of all federal 
counterterrorism training programs, similar to its request to 
GAO to evaluate DHS training.
    Finally, Congress might direct the federal departments and 
agencies that provide counterterrorism training to establish an 
interagency task force or board to review their training. 
Presently, Homeland Security Presidential Directive 8 requires 
DHS to coordinate training with other federal departments and 
agencies as part of its administration of the national training 
program. This approach, however, could result in turf disputes 
and federal agencies attempting to protect training programs 
and the funding associated with them.
    In summary, federal counterterrorism training programs are 
varied and are provided by numerous federal agencies. Because 
of this, there may be a potential for duplication among the 
federal government or specifically within DHS.
    Thank you, Chairman King and Chairman Rogers. I would 
welcome any questions you or the subcommittee may have.
    [The statement of Mr. Reese follows:]

                   Prepared Statement of Shawn Reese

    Chairmen King and Rogers, and the Members of the Subcommittees, I 
would like to thank you for this opportunity to appear before you today 
to discuss federal counter-terrorism training. My statement presents a 
brief overview of federal counter-terrorism training aimed at 
illustrating the range of such training offered by the federal 
government. The statement also presents areas that may merit oversight 
to assess whether such training programs are appropriate in scope or 
possibly redundant.

Overview
    Federal counter-terrorism training programs are varied and are 
provided by numerous federal agencies, among which are the Departments 
of Defense, Energy, Homeland Security, Health and Human Services, 
Justice, and Transportation, and the Environmental Protection Agency. 
Each department or agency provides counter-terrorism training targeted 
to such specific categories of recipients as federal, state, and local 
government personnel, emergency responders, and private and public 
critical infrastructure personnel.
    The programs train individuals to prepare for, respond to, and 
recover from terrorist attacks. Some of the training programs, such as 
those of the Departments of Transportation (DOT) and Energy (DOE), and 
the Environmental Protection Agency (EPA), are designed for personnel 
working in critical infrastructure sectors. Other programs, such as 
those of the Departments of Defense (DOD) and Homeland Security (DHS), 
are intended for personnel who are not identified with specific 
critical infrastructure. Instead, DOD and DHS provide training for 
government personnel, emergency responders, and medical professionals 
who would respond to a terrorist attack, regardless of location or 
target. The Department of Health and Human Services (HHS) provides 
training specifically to medical personnel, but this training is not 
targeted to specific critical infrastructure. Instead, HHS provides 
training that prepares medical personnel to respond to any disaster, 
but especially to terrorist attacks using biological, chemical, and 
radiological weapons of mass destruction (WMD). The Department of 
Justice (DOJ) provides training specifically for federal, state, and 
local law enforcement personnel. Most of these federal departments and 
agencies provide training in conjunction with private and public 
educational institutions, federal laboratories, and federal research 
and development centers.
    The mission of DHS to secure the nation from terrorist attacks 
gives it primary federal responsibility for providing counter-terrorism 
training to federal, state, and local emergency responders.\1\ Other 
departments and agencies provide counter-terrorism training, but their 
programs focus either on specific critical infrastructure sectors, such 
as energy and transportation, or on specific emergency responders, such 
as HHS training for medical personnel and DOJ training for law 
enforcement personnel. DHS provides training to a wide range of 
critical infrastructure personnel, law enforcement and other emergency 
responders, government (federal, state, and local) personnel, and 
medical personnel.
---------------------------------------------------------------------------
    \1\ P.L. 107-296, Sec. 101(b).
---------------------------------------------------------------------------
    Homeland Security Presidential Directive--8 (HSPD8), issued 
December 17, 2003, requires the DHS Secretary, in coordination with the 
HHS Secretary, the Attorney General, and other appropriate federal 
departments and agencies, and in consultation with state and local 
governments, to establish and maintain a comprehensive national 
training program. The national training program is to assist federal, 
state, and local governments in meeting the Interim National 
Preparedness Goal,\2\ which was released in March 2005.\3\ The national 
training program is to identify standards and maximize the 
effectiveness of existing federal preparedness programs. Additionally, 
HSPD-8 directs federal departments and agencies to include private 
organizations and entities in the accreditation and delivery of 
preparedness training.\4\
---------------------------------------------------------------------------
    \2\ U.S. Department of Homeland Security, The Interim National 
Preparedness Goal (Washington: Mar. 2005), available at [http://
www.dhs.gov/dhspublic/display?content=4420], visited June 20, 2005.
    \3\ Office of the President, Homeland Security Presidential 
Directive--8: National Preparedness, (Washington: Dec. 2003), available 
at [http://www.whitehouse.gov/news/releases/2003/12/20031217-6.html], 
visited June 20, 2005.
    \4\ Ibid.
---------------------------------------------------------------------------
    HSPD-8 also requires the DHS Secretary to develop and maintain a 
system to collect, analyze, and disseminate lessons learned, best 
practices, and information from exercises and training events, and 
establish procedures to improve national preparedness. DHS has 
developed what it calls the Lessons Learned Information System (LLIS), 
which provides best practices and information from exercises and 
training. LLIS, however, does not provide information on how training 
is coordinated within DHS, or among federal departments and 
agencies.\5\
---------------------------------------------------------------------------
    \5\ For further information on LLIS, see [http://www.llis.gov].

Department of Homeland Security
    DHS comprises numerous agencies, offices, institutes, and partners 
\6\ that provide counter-terrorism training for federal, state, and 
local government personnel. DHS training is provided at such facilities 
as the Federal Law Enforcement Training Center (FLETC), National Fire 
Academy (NFA), Nobel Training Center (NTC), and Emergency Management 
Institute (EMI). FLETC is an interagency law enforcement center that 
provides training for federal law enforcement agencies. The Federal 
Emergency Management Agency (FEMA) administers EMI, NTC, and NFA 
training activities. NFA trains fire and emergency response personnel 
to enhance their abilities to respond to fires and related emergencies. 
EMI is a training program consisting of resident and non-resident 
courses aimed at enhancing emergency management practices. NTC is the 
national center for health and medical education in disaster, including 
acts of terrorism.\7\
---------------------------------------------------------------------------
    \6\ See the list later in the statement.
    \7\ U.S. Department of Homeland Security, ``Working with DHS,'' 
available at [http://www.dhs.gov/dhspublic/display?theme=82], visited 
Oct. 27, 2004.

    Office for Domestic Preparedness. The Office for Domestic 
Preparedness (ODP), which has the primary responsibility within DHS for 
preparing for potential terrorist attacks against the United States,\8\ 
is the principal DHS agency providing counter-terrorism and WMD 
training to states and localities. ODP provides terrorism and WMD 
training through DHS training institutions and partners. ODP training 
partners include the Training and Data Exchange Group (TRADE), the 
National Domestic Preparedness Consortium (NDPC), federal departments, 
and private and professional organizations.\9\
---------------------------------------------------------------------------
    \8\ P.L. 107-296 (Homeland Security Act of 2002), Sec. 430(d).
    \9\ Department of Homeland Security, Office for Domestic 
Preparedness, ``Training Overview,'' available at [http://
www.ojp.usdoj.gov/odp/training.htm], visited Oct. 27, 2004.
---------------------------------------------------------------------------
    ODP training is designed to meet the varying needs of its training 
audiences. It includes reaching multiple emergency responder 
disciplines through training at the awareness, performance, planning, 
and management levels. ODP uses a variety of approaches that include 
traditional classroom methods, train-the-trainer, Web-based training, 
and video tele-conferencing.\10\
---------------------------------------------------------------------------
    \10\ Ibid.
---------------------------------------------------------------------------
    Trade. TRADE is a federal interagency group that provides training 
to state and local emergency responders and reviews member courses for 
consistency, avoidance of training duplication, and the use of up-to-
date training methods. TRADE members include the following:
        <bullet> United States Fire Administration's (USFDA) National 
        Fire Academy (NFA);
        <bullet> Federal Bureau of Investigation (FBI);
        <bullet> Department of Justice (DOJ);
        <bullet> Federal Emergency Management Agency (FEMA);
        <bullet> Environmental Protection Agency (EPA);
        <bullet> Department of Energy (DOE);
        <bullet> Department of Health and Human Services (HHS);
        <bullet> Centers for Disease Control and Prevention (CDC);
        <bullet> Emergency Management Institute (EMI); and
        <bullet> Federal Law Enforcement Training Center (FLETC).\11\
---------------------------------------------------------------------------
    \11\ Ibid.

    National Domestic Preparedness Consortium. NDPC is composed of 
federal training facilities and academic institutions which provide 
training to emergency responders in different locations in the United 
States. NDPC members include:
        <bullet> Center for Domestic Preparedness (CDP), at Anniston, 
        Alabama;
        <bullet> Academy of Counter-Terrorist Education (ACE), at 
        Louisiana State University (LSU);
        <bullet> National Emergency Response and Rescue Training Center 
        (NERRTC), at the Texas Engineering Extension Service (TEEX), 
        Texas A&M University (TAMU);
        <bullet> Energetic Materials Research and Testing Center 
        (EMRTC), at New Mexico Institute of Mining and Technology 
        (NMIMT); and
        <bullet> National Center for Exercise Excellence (NCEE), at 
        Nevada Test Site (NTS).\12\
---------------------------------------------------------------------------
    \12\ Ibid.

    Office for Domestic Preparedness Training Partners. In addition to 
TRADE and NDPC, ODP has cooperative agreements with other federal 
agencies, private industry, academic institutions, and professional 
organizations that provide training to federal, state, and local 
emergency responders. These partners include the following:
        <bullet> Community Research Associates;
        <bullet> U.S. Army Dugway Proving Ground;
        <bullet> International Association of Fire Fighters;
        <bullet> U.S. Navy's Naval Postgraduate School;
        <bullet> National Sheriff's Association;
        <bullet> General Physics Corporation at Pine Bluff Arsenal;
        <bullet> Science Applications International Corporation;
        <bullet> George Washington University;
        <bullet> Michigan State University;
        <bullet> International Association of Campus Law Enforcement 
        Administrators; and
        <bullet> International Association of Chiefs of Police.\13\
---------------------------------------------------------------------------
    \13\ U.S. Department of Homeland Security, Office for Domestic 
Preparedness, ``Training Overview,'' available at [http://
www.ojp.usdoj.gov/odp/training.htm], visited Oct. 27, 2004.

Department of Defense
    The majority of the Department of Defense's (DOD) terrorism-related 
training courses are dedicated to military personnel. DOD's expertise 
and range of training facilities related to chemical, biological, 
radiological, and nuclear (CBRN) weapons, however, offer a limited 
selection of training programs that are available to non-DOD personnel. 
Most of these programs are intended for medical and technical personnel 
who could be called upon to respond and treat casualties following an 
incident involving CBRN weapons. Several of the training courses are 
provided with the joint sponsorship of the American Red Cross. DOD 
provides counter-terrorism training to non-DOD personnel at the 
following:
        <bullet> U.S. Army Medical Research Institutes for Chemical and 
        Infectious Diseases, Aberdeen Proving Ground in Maryland, and 
        Dugway Proving Ground in Utah;
        <bullet> Clara Barton Center for Domestic Preparedness,\14\ 
        U.S. Army Pine Bluff Arsenal in Arkansas;
---------------------------------------------------------------------------
    14 Aministered by the American Red Cross and funded through the 
Department of Defense.
---------------------------------------------------------------------------
        <bullet> Armed Forces Radiobiology Research Institute, in 
        Bethesda, Maryland; and
        <bullet> Joint Interagency Training Center, in San Diego, 
        California.

Department of Energy
    The Department of Energy (DOE) provides technical assistance and 
training to states for public safety officials of appropriate units of 
local government and Indian tribes through whose jurisdictions DOE 
plans to transport spent nuclear fuel or high-level radioactive 
waste.\15\ DOE's Office of Environmental Management trains emergency 
responders for shipments to the Waste Isolation Pilot Plant (WIPP), and 
also provides training through the Transportation Emergency 
Preparedness Program (TEPP). Twenty-three states \16\ have received 
approximately $30 million in training since 1988 to prepare for 
radioactive waste shipments to the WIPP near Carlsbad, New Mexico. The 
TEPP has provided technical assistance and training to emergency 
responders in 34 states \17\ in the past two years. In FY2002, DOE 
provided $5.8 million for training to the states along its major 
transportation corridors. DOE estimates that it has trained 16,200 
responders since FY1999.\18\
---------------------------------------------------------------------------
    \15\ Section 180(c) of the Nuclear Waste Policy Act, 42 U.S.C. 
10101.
    \16\ AL, AZ, CA, CO, GA, ID, IL, IN, IA, KY, LA, MI, NE, NV, NM, 
OH, OR, SC, TN, TX, UT, WA, WY.
    \17\ AL, AR, AZ, CA, CT, DE, GA, ID, IL, IN, IA, KY, LA, MD, MI, 
MO, NE, NV, NJ, NM, NH, NY, NC, OH, OR, PA, SC, TN, TX, UT, VA, WA, WV, 
WY.
    \18\ U.S. Department of Transportation, Office of National 
Transportation, Corrine Macaluso, ``Office of Civilian Radioactive 
Waste Management,'' memorandum, Feb. 5, 2004.

Environmental Protection Agency
    To carry out its water sector responsibilities, EPA has established 
a Water Security Division within the Office of Ground Water and 
Drinking Water. This division works with drinking water and wastewater 
utilities, states, tribes, and other stakeholders to improve the 
security of these utilities and improve their ability to respond to 
security threats and breaches. Among its responsibilities and 
activities, the Water Security Division provides security and anti-
terrorism-related technical assistance and training to the water 
sector.
    EPA's Water Security Division generally does not perform the 
training itself; it delivers training at locations across the country 
through stakeholder organizations and other federal partners.\19\ EPA 
has sponsored training on a variety of security topics, including 
courses to help community water systems prepare vulnerability 
assessments and emergency response plans, as required by the 
Bioterrorism Act (P.L. 107-188).\20\ EPA has entered into an 
interagency agreement with the Office of Domestic Preparedness (ODP) 
within DHS, under which ODP has provided emergency response training 
for medium and large drinking water utilities, first responders, and 
local elected officials.\21\ To assist smaller drinking water utilities 
not covered by the Bioterrorism Act, EPA has provided funding to the 
National Rural Water Association to deliver security training.
---------------------------------------------------------------------------
    \19\ Organizations that provide security training include 
professional associations, such as the American Water Works Association 
(AWWA), the Water Environment Federation (WEF), and the National Rural 
Water Association (NRWA). Congress has provided some grant funds to 
these organizations, through EPA, to support their water security 
training activities.
    \20\ Title IV of the Bioterrorism Act (42 U.S.C. 300i) amended the 
Safe Drinking Water Act to require each community water system serving 
more than 3,300 individuals to conduct an assessment of the system's 
vulnerability to terrorist attacks or other intentional acts to disrupt 
the provision of a safe and reliable drinking water supply. These 
drinking water systems must submit a copy of the assessment to EPA. The 
act also requires these systems to prepare emergency response plans 
incorporating the results of the vulnerability assessments no later 
than six months after completing the assessments. All utilities covered 
by the act were to have completed vulnerability assessments by June 30, 
2004. The last statutory deadline for systems to complete emergency 
response plans was December 31, 2004.
    \21\ Because most water and wastewater utilities are municipally 
owned, EPA has made an effort to involve locally elected officials in 
first responder training courses.

Department of Health and Human Services
    Counter-terrorism training programs supported by the Department of 
Health and Human Services (HHS) are aimed at a variety of public health 
and health care providers, individuals who provide ancillary health 
services such as laboratory testing, and researchers who study health 
effects from, or countermeasures to, biological, chemical and 
radiological agents. Training programs have a variety of intended 
purposes, including assuring the ability to recognize and treat victims 
of terrorist events, protecting workers and others from infection or 
contamination while care is rendered, protecting critical health care 
assets and maintaining electronic and other lines of communication 
during catastrophic events, assuring competent laboratory services, and 
assuring that certain assets such as radioactive materials or 
biological organisms are secured against potential misuse.
    All of the HHS agencies listed below have responsibility for 
funding and administering specific training programs and assets.

    Centers for Disease Control and Prevention. CDC is the agency 
primarily responsible for the public health response to terrorism and 
other public health emergencies. Most extramural training programs at 
CDC have been coordinated across centers and offices by the CDC Public 
Health Practice Program Office (PHPPO). CDC also supports intramural 
training of public health professionals through its Epidemiology 
Program Office (EPO). According to a reorganization called the CDC 
Futures Initiative, existing PHPPO and EPO training activities are 
redistributed to several new organizational units within CDC.\22\ CDC-
funded training programs are developed and delivered in a variety of 
ways. CDC is entirely responsible for some programs. Others are 
developed and delivered in conjunction with state and local health 
departments and academic centers, although some are developed by these 
entities with CDC funding but little direct input otherwise.
---------------------------------------------------------------------------
    \22\ See U.S. Department of Health and Human Services, Centers for 
Disease Control and Prevention, Futures Initiative Home Page, at 
[http://www.cdc.gov/futures/default.htm].

    Health Resources Services Administration. The Health Resources and 
Services Administration (HRSA), through its Bureau of Health 
Professions, provides support for training and placement of health care 
and public health workers in order to alleviate shortages and 
maldistributions of these workers.
    HRSA also administers the National Bioterrorism Hospital 
Preparedness Program, a program of grants to states to prepare 
hospitals and supporting health care systems to deliver coordinated and 
effective care to victims of terrorism and other public health 
emergencies. As part of their application for funding, states must 
include a written proposal for providing relevant training for hospital 
and health care personnel to assure readiness in their states.\23\
---------------------------------------------------------------------------
    \23\ For more information on education and training components of 
the HRSA National Bioterrorism Hospital Preparedness Program, see 
presentation of Teri Spear before the meeting of the HHS Secretary's 
Council on Public Health Preparedness, May 3-4, 2004, available at 
[http://www.hhs.gov/asphep/presentation/040503presentationlist.html].
---------------------------------------------------------------------------
    Following the terrorist attacks of 2001, HRSA has provided annual 
grants to academic institutions through a new Bioterrorism Training and 
Curriculum Development Program for training in recognition and 
treatment of diseases related to bioterrorism for health care providers 
in training and on the job.

    Food and Drug Administration. The Food and Drug Administration 
(FDA) assures the safety and efficacy of human drugs and vaccines, 
medical devices, and animal drugs, and the safety of certain foods and 
cosmetics.
    FDA provides training for its own employees and for state, local, 
and tribal regulatory personnel at no cost through its Office of 
Regulatory Affairs ``ORA University.'' \24\ Relevant training courses 
for terrorism preparedness include those geared toward implementation 
of new regulations for food and drug safety in the Public Health 
Security and Bioterrorism Preparedness and Response Act of 2002, P.L. 
107-188. Formats include Web-based and classroom instruction, video 
tele-conferences, and a library of training materials.
---------------------------------------------------------------------------
    \24\ FDA, ORAU Home Page at [http://www.fda.gov/ora/training/
course_ora.html].

Department of Justice
    The Department of Justice (DOJ) enforces the law to help ensure 
public safety against foreign and domestic terrorist threats, by 
conducting federal investigations and prosecutions of persons suspected 
of unlawful activities. DOJ also sponsors and provides assistance to 
state and local law enforcement agencies. Listed below are several of 
these training programs.\25\ While some of them are not directly 
related to counter-terrorism, they are listed because they may convey 
the knowledge and skills to law enforcement personnel that could 
advance investigations of terrorist activities and responses to 
terrorist incidents. Among the programs are those related to special 
weapons and tactics, criminal intelligence, money laundering, computer 
crime, and crisis response and management. Some programs are provided 
directly by DOJ entities--the Federal Bureau of Investigation; the 
Bureau of Alcohol, Tobacco, Firearms and Explosives; and the National 
White Collar Crime Center. Others are sponsored by DOJ, through the 
Bureau of Justice Assistance, and provided by nonprofit law enforcement 
organizations.\26\ DOJ training includes:
---------------------------------------------------------------------------
    \25\ Short descriptions of these programs and courses are available 
on a Web-accessible ``law enforcement training database'' and search 
engine maintained by the Bureau of Justice Assistance. See [http://
bjatraining.aspensys.com].
    \26\ The nonprofit law enforcement organizations include the 
Institute for Intergovernmental Research, the International Association 
of Chiefs of Police, the Oklahoma Regional Community Policing 
Institute, and SEARCH (a multi-state consortium dedicated to improving 
criminal justice record systems).
---------------------------------------------------------------------------
        <bullet> State and Local Anti-Terrorism Training;
        <bullet> WMD Hazardous Material Evidence Collection;
        <bullet> Crisis Management;
        <bullet> Crisis Negotiation;
        <bullet> Law Enforcement Response to Terrorism;
        <bullet> Multi-Agency Incident Management for Law Enforcement 
        and Fire Service;
        <bullet> Tactics, Techniques, and Procedures for Terrorists;
        <bullet> Terrorism and Explosive Seminars;
        <bullet> Criminal Intelligence Systems;
        <bullet> Foundations of Intelligence Analysis;
        <bullet> White Collar Crime and Terrorism;
        <bullet> Cyber and Computer Crime; and
        <bullet> Basic LAN and Advanced Internet Investigations.

Department of Transportation
    Rail and bus transit systems are identified as critical 
infrastructure because they provide transportation for many Americans 
in densely populated urban areas and serve key economic, financial, and 
governmental centers of the nation. They move over 14 million 
passengers daily, and in one month they transport more passengers than 
U.S. airlines move in a year. Since these systems are operated in an 
open environment, they are high-risk, high-consequence targets for 
terrorists. Rail transit subways travel under key government buildings, 
business centers, and harbors.\27\ Rail and bus transit systems travel 
along fixed routes with frequent scheduled stops, and aviation-type 
passenger screening procedures may not be practical because of the 
large volume of daily passengers.
---------------------------------------------------------------------------
    \27\ U.S. Department of Transportation, Federal Transit 
Administration, ``Safety and Security: FTA Transit Security,'' 
available at [http://transit-safety.volpe.dot.gov/Security/
Default.asp], visited Nov. 18, 2004.
---------------------------------------------------------------------------
    Federal Transit Administration. Within the Department of 
Transportation, the Federal Transit Administration (FTA) is responsible 
for providing counter-terrorism and homeland security training to 
transit system personnel. FTA provides security guidance to transit 
system operators, and it has instituted a five-point security 
initiative to assist transit systems in preparing for and responding to 
terrorist attacks. In addition to training, FTA provides assistance to 
transit system agencies with on-site readiness assessments, technical 
assistance, and regional forums for emergency responders, and grants 
for terrorism drills.\28\
---------------------------------------------------------------------------
    \28\ Ibid.
---------------------------------------------------------------------------
    FTA is also working with the transit industry to identify critical, 
high-risk assets and operations and to develop security strategies for 
these critical assets. The strategies will address training, providing 
technical assistance, sharing best practices, and testing new security 
technology.\29\ FTA's counter-terrorism training courses are available 
to transit system administrators, operators, managers, and emergency 
responders.
---------------------------------------------------------------------------
    \29\ Ibid.

Possible Questions for Congressional Oversight
    The primary stakeholders in responding to terrorist attacks, and 
thus the recipients of counter-terrorism training, are federal, state, 
and local governments; private and public medical systems; and critical 
infrastructure administrators. In the evolution of counter-terrorism 
training, a number of questions have arisen with regard to possible 
duplication of training programs. The questions and possible approaches 
might be of interest as you continue your oversight of federal counter-
terrorism training. CRS takes no position with respect to any of the 
possible approaches listed.
    Potential Duplication of Department of Homeland Security Training. 
Within DHS, ODP and the Federal Emergency Management Agency (FEMA) 
administer training programs at the state and local levels, and at 
national training institutes. At the national level, FEMA administers 
the Emergency Management Institute (EMI) and the National Fire Academy 
(NFA). ODP does not directly administer any training institute; but it 
provides guidance and funding to training institutes that are part of 
the National Domestic Preparedness Consortium (NDPC), described earlier 
in this statement.
    Some training programs offered by EMI and NFA have subject matter 
similar to training provided by NDPC training institutes, such as 
incident management, homeland security planning, hazardous material 
incident response, emergency operations, and WMD response. Because of 
the possible similarity of these training programs for state and local 
first responders, some might argue for a need to consolidate or 
coordinate training offered by these two separate DHS agencies.
    FEMA's firefighting training provided by the NFA, however, focuses 
primarily on the needs of local fire departments, whereas NDPC provides 
some training primarily focusing on law enforcement. Some of the 
training that is tailored to a specific profession such as law 
enforcement or firefighting would not seem to be redundant. Basic or 
introductory training such as incident management or WMD response, 
however, may not be specifically tailored for a single profession or 
type of first responder. The possible redundancy of training and the 
potential consolidation of training may be policy questions that the 
committee may choose to address through oversight of DHS's role in 
providing assistance to states and localities. Possible approaches 
include:

    Government Accountability Office (GAO) Evaluation of Training. The 
House Committee on Homeland Security could ask GAO to undertake an 
evaluation of DHS counter-terrorism training programs. The evaluation 
could review ODP and FEMA training curricula, individual courses, 
intended and actual trainees, and training facilities. After conducting 
a review of these courses, GAO might be able to identify any 
duplication of training and possible options for consolidating or 
coordinating this training. This option would give the committee 
additional tools for oversight of the programs. H.R. 1544 (as 
reported), Section 6, proposes this evaluation. This option, however, 
would require the committee to work with GAO to set a mutually 
acceptable scope and time for the study.
    Coordination of Department of Homeland Security Training. If the 
committee were to find undesirable redundancy in training programs, it 
could direct DHS to be more attentive to coordinating the counter-
terrorism training programs administered by ODP and FEMA. DHS could 
possibly establish a board to review the ODP and FEMA training 
programs, and to recommend coordination or other steps to reduce 
duplication.
    Consolidation of Department of Homeland Security Training. If the 
committee were to find a need to consolidate DHS training programs, it 
could direct DHS, through statutory or conference language, to conduct 
a review of its training programs and develop a plan to consolidate its 
training. This consolidation might involve the removal of similar 
programs provided by ODP and FEMA to ensure there is no redundancy. If 
Congress did not consider this consolidation adequate to ensure against 
redundant or uncoordinated DHS training, it could also direct DHS to 
consolidate all counter-terrorism training under one agency. ODP might 
be directed to assume the responsibility for administering not only its 
training, but also the training FEMA provides first responders through 
EMI and NFA. Some would argue this is a logical choice since ODP is 
responsible for administering the funding to states and localities that 
assist them in receiving this training. This option, however, might be 
seen as impractical due to the training EMI provides state and local 
emergency managers that is specific to natural disasters, and the 
specific training NFA provides firefighters. FEMA historically has 
administered training programs for emergency managers and firefighters, 
whereas ODP has administered law enforcement focused training.
    Potential Duplication of Federal Counter-Terrorism Training. 
Because of the rapid evolution of counter-terrorism training programs 
offered by different federal departments and agencies, there may be a 
duplication of certain types of training provided to federal, state, 
and local government personnel, emergency responders, and critical 
infrastructure facility personnel. For example, DHS, HHS, and EPA all 
offer training related to responding to hazardous materials incidents.
    It is possible that training provided by DHS, DOD, DOJ, DOT, EPA, 
and HHS to first responders is not coordinated, and that a federal 
effort should be made to ensure these federal entities provide 
coordinated, non-duplicative training. The following possible oversight 
approaches might assist the committee as it continues its oversight 
effort concerning federal counter-terrorism training.
    Government Accountability Office Evaluation of Training. Congress 
could ask GAO to undertake an evaluation of all federal counter-
terrorism training programs, similar to its request for a GAO 
evaluation of DHS training (H.R. 1544, Section 6). GAO could be asked 
to review individual courses, training curricula, training audiences, 
and training facilities. After conducting a review of these courses, 
GAO might be able to identify any duplication of training and possible 
alternatives for consolidating or coordinating this training. This 
option would require Congress to work with GAO to set a mutually 
acceptable scope and time for the evaluation.
    Interagency Task Force. Congress might direct, through statutory 
and conference language, the federal departments and agencies that 
provide counter-terrorism training to establish an interagency task 
force to review their counter-terrorism programs. Because of the lead 
role DHS provides in counter-terrorism training, Congress could 
consider directing DHS to chair the task force. Once the training has 
been reviewed, the task force could be directed to coordinate and 
consolidate the training as necessary. This option, however, could 
result in ``turf'' disputes and federal departments and agencies 
attempting to protect training programs and the funding associated with 
them.

    Mr. King. Thank you, Mr. Reese, for your testimony.
    Actually, before we go on to the other witnesses, I want to 
thank all of you for your patience in sitting here this 
morning. The first panel went on longer, then we had the vote, 
which also further delayed things. So I really want to tell you 
we do appreciate it.
    The Chair now recognizes Mr. Steven Edwards, Director of 
the Maryland Fire and Rescue Institute.
    Mr. Edwards?

                  STATEMENT OF STEVEN EDWARDS

    Mr. Edwards. Good morning. My name is Steven Edwards. I am 
currently the Director of the Maryland Fire and Rescue 
Institute at the University of Maryland, College Park. Thank 
you for listening to my comments this morning, as I welcome the 
opportunity to speak before this committee.
    As an emergency services educator and trainer, the process 
and end result of preparing the nation's first responders to 
deal with weapons of mass destruction and terrorism is 
paramount. Firefighters and emergency medical personnel have to 
be properly trained and equipped to deal with these emerging 
threats, in addition to their regular duties. The core subject 
matter, as well as the delivery system, must ensure that there 
is a comprehensive national strategy that best serves the 
general population, as well as the first responders. 
Unfortunately, this just does not exist.
    Shortly after the events of 9/11, many leaders in the fire 
service organizations and state and local fire training 
academies looked forward to working with the Office of Domestic 
Preparedness to receive guidance as well as national standard 
curriculum to ensure each state and locality was prepared to 
respond as necessary. What we have received to date is little 
or no training curriculum, minimal communication and an 
antiquated training delivery system.
    We sit bewildered as to why ODP would ignore established 
training systems at the state and local level. Prior to the 
events of 9/11, ODP established a Federal Training Consortium 
of five schools to deliver terrorism response-level training. 
Only these selected schools could participate in the system and 
you had to be invited by ODP to be a part of this group. 
Amazingly, after 9/11 when the entire world changed and intense 
training in terrorism response to unprecedented levels was 
required, ODP kept the same system in place.
    An existing network of public safety training academies has 
served the needs of the nation's first responders for decades. 
These academies are found at the state and local level and have 
experienced and highly qualified instructors. Each of the 50 
states has a state fire training organization. Collectively, 
the state fire training academies train over 800,000 students 
each year in an array of emergency services training programs. 
Hundreds of millions of dollars in infrastructure, faculty and 
support personnel have been invested in these academies over 
the years.
    As an example, the Maryland Fire and Rescue Institute has 
trained emergency responders for 75 years. Imagine our dismay 
and the dismay of our entire Fire Service in our state to have 
such a system ignored by the Office of Domestic Preparedness. 
Last year in correspondence to ODP, I requested our state be 
allowed to share in and teach selected ODP terrorist and 
response training courses. This request was denied by ODP.
    Interestingly, at the same time our institute was not 
deemed appropriate to teach ODP courses at the local level, we 
were training the United States Secret Service on fire 
procedures for the protection of the President. DHS and ODP 
have instructed state fire academies they can use federal funds 
to develop terrorism response training curriculum in their own 
respective states. Actually, this makes little sense. What is 
needed is a comprehensive national training strategy for 
terrorism response training courses, not 50 states going their 
own separate directions with training course material.
    Regarding the cost of programs to the taxpayer and the 
efficiency with which they are delivered by ODP, Congress 
should be concerned and examine more closely the ODP 
methodology for administering training programs. For example, 
the ODP Training Consortium can fly in three instructors from 
Texas to teach a course in Maryland, where I can have an 
instructor walk from his or her second-floor office down to our 
classroom at the academy and teach the same course if it was 
available. It does not take an accountant to figure out which 
method is more costly.
    The ODP method of training course delivery simply does not 
take advantage of existing training resources at the state and 
local level. My state and others attempt to deliver training 
courses as close to the students as possible and to reduce 
costs and increase flexibility with regard to class schedules. 
Much of the nation's fire service is volunteer-based, and they 
need to attend training courses on nights and weekends since 
they work their regular jobs during the week. All state fire 
academies understand this and work to provide training when the 
audience is most available. Unfortunately for the hundreds of 
thousands of volunteers who need training, the ODP Consortium 
teaches their programs Monday to Friday during normal work 
hours.
    In February of 2005, the International Association of Fire 
Chiefs at a summit that was conducted in Washington, D.C. and 
attended by 16 major national fire and rescue associations. The 
summit grew out of frustration and concern regarding a number 
of issues at DHS. At this historic summit, five goals were 
agreed upon including ``to ensure the most effective 
utilization of training resources, the Department of Homeland 
Security should be required to work more closely with the 
National Fire Academy, national fire service organizations 
providing fire service-related training, and state and local 
fire training academies regarding the use of curriculum and the 
delivery system for terrorism response training.''
    In April of 2005, the Congressional Fire Service National 
Advisory Council, which includes almost 50 fire service 
organizations, met and approved the summit recommendations by 
way of unanimous resolution. The issue of access to ODP 
training curriculum and delivery of programs is a major concern 
of the entire fire service within the United States. Failure to 
recognize the qualifications of state and local instructors and 
work with such a proven system is a lost opportunity.
    A partnership needs to be developed where ODP works with 
state and local training academies to delivery needed terrorism 
response training in a format best suited for the success of 
the students. The state and local training academies are 
structured to deliver training in an efficient manner and do 
this where the response personnel live and work, in conjunction 
with other training priorities. It is clear that there needs to 
be a better system. State and local fire training academies are 
committed to working with the new leadership in the Department 
of Homeland Security to review current terrorism response 
delivery systems and make improvements where warranted. We 
simply want our students to be prepared to the highest extent 
possible.
    Thank you.
    [The statement of Mr. Edwards follows:]

                Prepared Statement of Steven T. Edwards

    Good Morning, my name is Steven Edwards. I am currently the 
Director of the Maryland Fire and Rescue Institute at the University of 
Maryland at College Park. I also serve as the Chair of the 
Congressional Fire Service Institute National Advisory Committee, 
Chairman of the Board of the Safety Equipment Institute, and I am the 
immediate past President of the North American Fire Training Directors, 
among other state and local appointments. Previous to these positions I 
served with the Prince George's County Fire Department for 25 years, 
retiring as Fire Chief. Thank you for listening to my comments this 
morning as I welcome the opportunity to speak before this committee.
    As an emergency services educator and trainer the process and the 
end result of preparing the nation's first responders to deal with 
weapons of mass destruction and terrorism is paramount. Firefighters 
and emergency medical personnel have to be properly trained and 
equipped to deal with these emerging threats in addition to their 
regular duties. The course subject matter as well as the delivery 
system must ensure that there is a comprehensive national training 
strategy that best serves the general population as well as the first 
responders. Unfortunately, this just does not exist.
    Within the Department of Homeland Security training and 
preparedness for terrorism response has been centralized within the 
Office of Domestic Preparedness (ODP) and the Office of State and Local 
Government Coordination and Preparedness. Shortly after the events of 
9-11 many of the leadership of fire service organizations and state and 
local fire training academies looked forward to working with ODP to 
receive guidance as well as national standard curriculum to ensure that 
each state and locality was prepared to respond if necessary. What we 
have received to date is little or no training curriculum, minimal 
communication, and an antiqued training delivery system. We sit 
bewildered as to why ODP would ignore established training systems at 
the state and local level.
    Prior to the events of 9-11, ODP established a federal training 
consortium of five schools to delivery terrorism response level 
training. Only these selected schools could participate in this system 
and you had to be invited by ODP to be a part of this group. Amazingly, 
after 9-11, when the entire world changed and intense training in 
terrorism response to unprecedented levels was required, ODP keep the 
same system in place. The issue is not with the training programs of 
the ODP consortium schools or the quality of what they present, which 
for the most part is good. The issue is simply that this current system 
is inefficient, ineffective, and does not take advantage of existing 
training systems and networks.
    America's fire service consists of over 30,000 fire departments 
staffed by approximately 1.2 million career and volunteer firefighters. 
The fire service responds to over 22 million emergencies each year and 
provides a number of emergency services to the public. There is no 
question that in the event of a terrorism event that the fire service 
will be called upon to respond in the first critical moments and 
provide valuable life saving services. Fire departments have attempted 
to greatly improve upon their ability to respond to these types of 
events and have made substantial progress since 9-11, in spite of the 
inadequate attempts of ODP to provide essential training services on a 
broad scale.
    An existing network of public safety training academies has served 
the needs of the nation's first responders for decades. These academies 
are found at the state and local level and have experienced and highly 
qualified instructors in fire and rescue, emergency medical services, 
law enforcement, corrections, and others. I will restrict my comments 
to fire and rescue training academies, but I know that other public 
safety disciplines share my concerns.
    Each of the fifty states has a state fire training organization. 
Collectively the state fire training academies train over 800,000 
students each year in an array of emergency response training programs. 
Hundreds of millions of dollars in infrastructure, faculty and support 
personnel have been invested in these academies over the years. The 
state fire training academies are represented by the North American 
Fire Training Directors (NAFTD). This group meets on a regular basis to 
review and discuss issues of concern to them. Over the past four years 
nothing has been discussed more than the issue of how can we get ODP to 
work more effectively with our training systems.
    The Maryland Fire and Rescue Institute (MFRI), instructs over 
30,000 fire, rescue, and emergency medical service students each year. 
Our main training facility is located in College Park and we have six 
regional training centers strategically located throughout the state. 
MFRI has over 60 full time faculty and staff and over 600 field 
instructors who work on a part time basis to instruct classes as 
needed. MFRI has trained emergency responders for 75 years. Imagine our 
dismay and the dismay of the entire fire service in our state to have 
such a system ignored by ODP. Last year in correspondence to ODP, I 
requested that our state be allowed to share in and teach selected ODP 
terrorism response training courses. This request was denied by ODP. 
Interesting that at the same time our Institute was not deemed 
appropriate to teach ODP courses at the local level, we were training 
the U.S. Secret Service, in fire procedures for the protection of the 
President.
    State fire academies have been instructed that they can use federal 
funds to develop terrorism response training curriculum in their state. 
ODP has established a review system to approve these courses. Our 
experience has been that this system is burdensome and a very lengthy 
process. The course reviews are conducted by the consortium schools, 
which in my opinion have no incentive to encounter more courses that 
they may have to compete with. Actually, this process makes little 
sense. What is needed is a comprehensive national training strategy for 
terrorism response training courses, not fifty states going their own 
direction with training course material. ODP could learn from many 
other federal agencies such as the National Fire Academy, the Emergency 
Management Institute, and others. When they develop a training course 
it is immediately handed off to the states to teach in a coordinated 
manner, with results returned for accountability purposes. This is an 
efficient system that serves the best interest of all first responders.
    Regarding the cost of the programs to the taxpayer and the 
efficiency in which they are delivered by ODP, there are many 
questions. For example, the ODP training consortium can fly in three 
instructors from Texas to teach a course in Maryland, or I can have an 
instructor walk from his/her second floor office down to the classroom 
at our academy and teach the same course if it were available. It does 
not take an accountant to figure out which method is more costly. The 
ODP method of training course delivery simply does not take advantage 
of existing training resources at the state and local level.
    My state and others attempt to deliver training courses as close to 
the students as possible to reduce costs and to increase flexibility 
with regard to class schedules. Much of the nation's fire service is 
volunteer based and they need to attend training courses on nights and 
weekends, since they work their regular job during the week. All state 
fire academies understand this and work to provide training when the 
audience is most available. Unfortunately for the hundreds of thousands 
of volunteers who need to be trained, the ODP consortium teaches their 
programs Monday to Friday during normal work hours.
    All state fire training academies keep historical records of who is 
trained within their state. It is important that these records are 
available for certification and legal purposes. Since ODP does not work 
with the state systems we have no way of knowing who has been trained 
by ODP in our various states. Better coordination on this issue would 
improve this system for the benefit of the students and have training 
records maintained in an appropriate data base.
    Most of the state fire academy curriculum and instructors meet 
national certification and accreditation standards reviewed and 
verified by independent third party organizations, such the National 
Professional Qualifications Board, the International Fire Service 
Accreditation Service, and the American Council on Education among 
others. I am not aware of the standard to which ODP instructors and 
contractors are evaluated to in order to maintain quality in their 
instructional process. In the past ODP has stated that their courses 
``address complex subjects and often require specialized facilities or 
equipment'' and therefore cannot be taught at the state and local 
level. I strongly disagree with this assertion and since their system 
for qualifying instructors appears to be less than what the state and 
local fire training academies utilize, I do not see how they came to 
this conclusion. Effective in 2004, ODP does allow state and local 
hazardous materials instructors to teach their awareness level courses 
without further qualification.
    In February of 2005, the International Association of Fire Chiefs 
(IAFC) led a summit that was conducted in Washington DC and attended by 
sixteen of the major national fire and rescue associations. This summit 
grew out of frustration and concern regarding a number of issues at 
DHS. At this historic summit five goals were agreed upon, including:
    ``To ensure the most effective utilization of training resources, 
the Department of Homeland Security should be required to work more 
closely with the National Fire Academy, national fire service 
organizations providing fire service related training, and state and 
local fire training academies regarding the use of curriculum and the 
delivery system for terrorism response training.''
    In April of 2005 the Congressional Fire Service Institute National 
Advisory Committee met and approved the summit recommendations by way 
of a unanimous resolution. The CFSI National Advisory Committee 
consists of over fifty national fire service related organizations. The 
issue of access to ODP training curriculum and delivery of programs is 
a major concern of the entire fire service within the United States.
    The current ODP strategy of having a few limited training schools 
is inefficient and is simply not capable of delivering training courses 
in large volumes. Failure to recognize the qualifications of state and 
local instructors and work with such a proven system is a lost 
opportunity.
    In April of 2005 after a meeting with Mr. Matt Mayer, Acting 
Director of the Office of State and Local Government Coordination and 
Preparedness action was initiated to address some of the above noted 
concerns. He has agreed to develop a process whereby state and local 
academies, with the concurrence of their State Administrative Agency, 
may request standardized curriculum for courses identified by SLGCP for 
institutionalization. This is a good start, but it needs to be followed 
up on and actually implemented. The state and local fire training 
academies anxiously await review of this process.
    A partnership needs to be developed whereby ODP works with the 
state and local training academies to deliver needed terrorism response 
training in a format best suited to the success of the students. The 
state and local training academies are structured to deliver training 
in an efficient manner and can do this where the response personnel 
live and work, in conjunction with other training priorities. It is 
clear that there needs to be a better system. The state and local fire 
training academies are committed to work with the new leadership at the 
Department of Homeland Security to review the current terrorism 
response delivery system and make improvements where warranted. We 
simple want our students to be prepared to the highest extent possible.

    Mr. King. Mr. Edwards, thank you for your testimony. You 
have certainly given us something to think about.
    Now, Sheriff McGowan, Chairman of the National Sheriffs' 
Association, Weapons of Mass Destruction Committee.
    Sheriff McGowan?

                  STATEMENT OF PATRICK McGOWAN

    Sheriff McGowan. Mr. Chairman and members of the committee, 
I would like to thank you for the opportunity to appear today 
to present to you an overview of the National Sheriffs' 
Association contributions to our nation's homeland security.
    I am Sheriff Pat McGowan, Hennepin County Sheriff from 
Minneapolis, Minnesota. I have been in law enforcement for over 
30 years and am currently Chair of the National Sheriffs' 
Association Weapons of Mass Destruction Committee.
    NSA has been providing sheriffs and other criminal justice 
practitioners with resources, technical assistance, information 
and opportunities for professional development since its 
inception in 1940. In 1999, 2 years prior to the 9/11 attacks 
on our nation, the NSA, using funds provided by the Office for 
Domestic Preparedness, initiated an executive-level WMD event 
preparedness prevention and response training program.
    Since that time, NSA and ODP have developed a close working 
relationship to ensure effective training in the areas of 
community partnerships, jail evacuation and first responder 
training. We are pleased with the progress we have made in 
developing appropriate courses and greatly appreciate the 
outreach that ODP has undertaken to ensure that our nation's 
sheriffs receive the training they require to protect our 
country and to prevent terrorist activities.
    I am proud to say NSA has maintained its position at the 
forefront of the War on Terrorism. As a result, sheriffs across 
the country have been able to provide training for their 
command staff, a variety of other first responders, and members 
of their local communities for several years. As each community 
and its responders refine their preparedness skills and their 
response capabilities, our country becomes stronger.
    Each of our programs addresses a critically important 
sector and dramatically enhances the preparedness of our 
citizens and emergency responders. Whether NSA conducts a 
course in a large urban area or in a small rural community, 
participants find that the information and training that they 
receive is both timely and relevant to their circumstances.
    Focus groups composed of individuals according to their 
knowledge and expertise provide initial guidance for course 
structure and content. Their initial input has guided the NSA 
as it has developed a framework for each course. But as the 
scope and direction of national security initiatives have 
changed, the NSA has been equally quick to respond. The 
original WMD executive course, for example, which focused on 
WMD awareness, has been completely updated and now focuses on 
managing the event. This new course focuses more upon 
prevention and preparedness, echoing the requirements of HSPD 
8.
    NSA programs have been developed to have the maximum impact 
possible at both the local and national levels. The executive-
level program was our first program developed to train and 
prepare sheriffs, staff, and executives of other agencies for a 
WMD event. In the period between 1999 and 2003, this training 
was delivered to over 6,000 sheriffs and other members of the 
emergency response community in 38 states. Feedback on this 
course has been extremely positive. This program is unique in 
that it provides opportunity for law enforcement executives to 
examine and then modify their jurisdiction's emergency plan in 
the context of the most up-to-date information across a broad 
range of subjects.
    It directs executives to identify, cultivate and document 
roles and responsibilities within their own agency and in 
cooperation and coordination with other first responder 
agencies. Executives are then able to identify threats, 
vulnerabilities and resources within their own jurisdictions 
more easily. The NSA recognized that whenever a WMD or 
terrorist incident may occur, local first responders, along 
with their citizens, will provide the initial response to this 
event.
    Their level of preparation will dictate the effectiveness 
of the initial response. Later, the degree to which citizens 
and responding agencies are able to mutually support one 
another will shape the successful outcome of any response. The 
NSA community partnership and awareness training develops a 
dynamic partnership between citizens and responding agencies. 
Since its first pilots were completed in 2003, the course has 
trained nearly 1,700 participants from jurisdictions all across 
our nation. This program helps to increase community awareness 
of the risks and hazards posed by weapons of mass destruction.
    The results of this program have been striking. Personnel 
from a variety of public safety agencies have started working 
in cooperation with citizens from all sectors, civic and 
business leaders, teachers, senior citizens and representatives 
of the faith-based community. Thanks to these new partnerships, 
many potential hazards and new resources have been discovered. 
The NSA jail evacuation course has been designed to address the 
needs of small and large jails in rural and urban jurisdictions 
and to prepare them to evacuate in the event of a terrorist 
attack or WMD event, while at the same time ensuring the safety 
of their respective communities.
    The specific challenges posed by jail evacuations have 
attracted the attention of DHS, ODP and out nation's sheriffs. 
Since 2003 when pilots for this program were first developed, 
participants from all regions of the country have received 
training. Forty programs have been conducted over the past 13 
months; participants have included officials from state and 
federal prisons, private detention facilities, police 
departments, fire and rescue and emergency managers. Thirty-two 
more programs are scheduled prior to Thanksgiving, 2005.
    The NSA First Responder Program focuses on actions required 
in the initial phase of a response, that crucial 15 to 30 
minutes that elapses between the occurrence of the event and 
response by the first responder teams. With an emphasis on 
safety and teamwork, participants learn that actions taken in 
the first moments of an incident set the stage for future 
success or failure. This program is currently awaiting final 
approval from ODP, but a long waiting list has already been 
compiled.
    Inquiring agencies include the United States Secret 
Service, TSA, FBI, our country's military, as well as our 
international law enforcement colleagues in Ontario and 
Toronto. In this course, instruction and tabletop exercises, 
coupled with practical exercises, prepare participants to train 
members of their own agencies.
    Members, since NSA began conducting counterterrorism 
training in 1999, we have learned many lessons. Our goal is to 
ensure our training reflects the best practices, incorporates 
national standards where appropriate, is realistic, and is 
flexible to address the various needs of each community.
    In conclusion, I would like to say that the National 
Sheriffs' Association has always taken a leading role in 
providing counterterrorism training across the country and that 
we have been doing so long before 9-ll. The effectiveness and 
relevance of NSA training initiatives can be verified by the 
current demand for our training programs, as well as our course 
evaluation data. The continued level of interest shown by 
agencies and organizations both within the United States and 
from the international community further confirms our success.
    I want to thank the committee for the opportunity to be 
here today and to discuss the effectiveness of antiterrorism 
training and to share NSA's experience and successes. I am 
happy to answer any questions that you may have.
    [The statement of Mr. McGowan follows:]

            Prepared Statement of Sheriff Patrick D. McGowan

    Mr. Chairman and members of the Committee: Thank you for the 
opportunity to appear before this distinguished panel to present to you 
an overview of the National Sheriffs' Association's contributions to 
our nation's homeland security.
    The National Sheriffs' Association (NSA) believes that the Office 
of Sheriff is one of our nation's most vital institutions. Sheriffs 
throughout the country interact with citizens and a wide variety of 
other agencies, at many levels. Their influence and impact upon the 
country cannot be understated.
    There are 3,087 sheriffs across the country representing both rural 
and urban jurisdictions. Many of them have influence over hundreds of 
square miles, while others serve in very densely populated cities.
    The National Sheriffs' Association is a non-profit organization, 
chartered in 1940. Since its inception, the organization has 
consistently dedicated itself to raising the level of professionalism 
among sheriffs, their deputies, and others in the field of criminal 
justice and public safety so that they may perform their jobs in the 
best possible manner, in service to the people of their communities.
    In support of that mission, NSA provides sheriffs and other 
criminal justice practitioners with resources, technical assistance, 
information, and opportunities for professional development. Through 
its annual conferences, NSA also provides valuable opportunities for 
networking and interacting with our fellow criminal justice 
professionals. The NSA is committed to the quest of continually 
enhancing the services it provides to sheriffs, law enforcement 
personnel, and the public safety community.
    In 1999, the NSA using funds provided by the US Department of 
Homeland Security, Office for Domestic Preparedness initiated an 
Executive Level WMD event preparedness, prevention, and response 
training program. In the years that followed, the success of this 
initial course led to the development of additional programs: Community 
Partnership Training, Jail Evacuation Training, and First Responder 
Training were each conceived and designed to fill gaps in our nation's 
preparedness training.
    Since that time, NSA and ODP have developed a close working 
relationship to deliver training to our Nation's first responder 
community. NSA firmly believes that ODP's training program is making 
significant inroads into the training needs of the first responder 
community, particularly the sheriffs. We are pleased with the progress 
that ODP has made in developing appropriate courses and greatly 
appreciate the outreach that ODP has undertaken to ensure that our 
Nation's sheriffs receive the training they require to prevent 
terrorist activities and protecting our country.
    Close, open, and creative communication between ODP and the NSA has 
led to the development of programs that are well suited to the 
challenges facing our country. With collaboration from ODP, NSA has 
been able to ensure that as the nature of the threats evolve and 
change, the training offered by NSA evolves as well, allowing sheriffs 
the opportunity to meet those new challenges head on.
    The support of the federal government through the ODP has allowed 
the NSA to maintain its position at the forefront of the war on terror. 
Sheriffs across the country have been able to train their command 
staff, a variety of first responders, and members of their local 
community for several years. As each community and its responders 
refine their preparedness skills and their response capabilities, our 
country becomes stronger.
    There is more to be done, and the National Sheriffs' Association is 
more than ready to take up the challenge!

                               BACKGROUND

    The National Sheriffs' Association has taken a leading role in the 
nation's fight against terrorism. The Homeland Security and Weapons of 
Mass Destruction programs at NSA have been designed to respond flexibly 
to the needs of jurisdictions and communities across the country.
    The programs developed by the National Sheriffs' Association were 
developed in response to the many requests from sheriffs across the 
nation. The NSA recognized that if specific sectors of the population 
were adequately prepared, then a coordinated and mutually supportive 
response would likely occur, resulting in a more effective and 
efficient outcome.
    Each program addresses a critically important sector and 
dramatically enhances the preparedness of citizens and emergency 
responders, should a terrorist event occur in their community, or in a 
nearby community.
    Whether NSA conducts a course in a large urban area, or in a small 
rural community, participants find that the information and training 
that they receive is both timely and relevant to their circumstances. 
In an ever-changing world, we constantly need to provide new 
information, raise new questions, and address unique circumstances, if 
we are truly going to prepare the Nation.
    The NSA's Homeland Security and WMD training initiatives began in 
April 1999 after the association received a $250,000 grant to develop 
an Executive Level Training Curriculum for Sheriffs, and to conduct 
pilot that training in five locations.
    In May 2000, the Association received another $600,000 award to 
conduct an additional 14 training programs.
    In September 2001, $700,000 was awarded for the continuation of 
this project through October 2002, including funds to conduct an 
additional 10 WMD Incident Risk and Crisis Communication training 
sessions.
    In October 2002, $2 million was awarded, extending the project 
through September 2003.
    In January 2003, the project scope was expanded to include 3 new 
training programs:
        (1) Jail Evacuation Planning Program, which initially conducted 
        4 pilot projects. Predicated on the success of these pilot 
        programs, NSA started delivering regular training in May 2004;
        (2) Community Partnerships & Awareness Program, which also 
        conducted 4 pilot projects and began offering trainings in May 
        2004.
        (3) First Responder: Train-the-Trainer Program, which is 
        currently in the course development stage, with trainings 
        anticipated to begin in June 2005.
    In October 2003, NSA $2 million was awarded to continue the project 
through September 2004. And In October 2004, $3 million was awarded for 
continuation of the WMD training programs through September 2005.

   Introduction to NSA Homeland Security Training Program Initiatives

    NSA training has been developed with the practical needs of law 
enforcement and first responder agencies and personnel in mind. Focus 
groups, composed of individuals invited to participate, according to 
their knowledge and expertise, provided initial guidance for course 
structure and content.
    Focus group input guided the NSA as it developed a framework for 
each course, and then provided a context for its selection of Subject 
Matter Experts (SMEs). The SME team was then tasked with the 
development of course content and delivery strategies.
    The NSA was often fortunate to obtain the services of SMEs, who are 
national and international leaders in their fields. And because of the 
expertise of these individuals, NSA has been able to provide cutting 
edge, up-to-the-minute information in such areas as Explosives and 
Booby Traps (First Responder Course) and NIMS (First Responder, Jail 
Evacuation, and Managing the Event--A Leadership Guide for All-Hazard 
Events) as a direct result of the caliber of SME retained by the NSA.
    Upon completion, each course draft was presented in a series of 
pilot programs, which were utilized to fine-tune program material and 
delivery. The programs were then released, and the NSA began delivering 
training to Sheriffs' jurisdictions across the country began.
    NSA training programs have been specifically designed to provide 
up-to-date information to participants. They demand participation in a 
range of activities, bringing this new information to life, as 
scenarios and table-top exercises tailored for the host jurisdiction 
are undertaken in both cooperative groups and individual settings.
    Cooperative group activities encourage immediate partnering between 
agencies, and foster long-term networking within the jurisdiction. 
Activities designed for the individual demand that each participant 
consider the current status of their agency. Actions necessary to 
improve the prevention and response capabilities of the agency are then 
determined, laying the foundation for focused action once participants 
return to their agencies and communities.
    As the scope and direction of national security initiatives 
changes, the NSA has been quick to respond. The original WMD Executive 
Course for example, which focused on WMD awareness, has been completely 
updated, and now focuses on Managing the Event--A Leadership Guide for 
All-Hazard Events. This new course focuses more upon prevention and 
preparedness, echoing the requirements of HSPD #8.
    The Community Partnerships program has gradually reshaped itself to 
help launch Neighborhood Watch and Citizen Corps programs in 
communities where these initiatives have not yet been implemented.

  Features of the NSA Homeland Security Initiatives Training Programs

    The constituency of the National Sheriffs' Association provides a 
single platform from which training and information initiatives may be 
launched across the country, penetrating every state, and almost all 
jurisdictions. The office of Sheriff serves as a central agency within 
each jurisdiction that is able to marshal the resources of other law 
enforcement and responding agencies, as well as the resources and 
energies of the citizens.
    NSA programs have been developed to have the maximum impact 
possible at both local and national levels.
    Thus, the WMD Executive Program (now Managing the Event--A 
Leadership Guide for All-Hazard Events) was developed first, in order 
to prepare Sheriffs, their command staff, and executives of other 
agencies for a WMD or all-hazard event. This broad-based program 
fosters organization at a local, jurisdictional level. It also provides 
each jurisdiction's leaders with the necessary skills and knowledge to 
move their community's prevention and response programs forward in a 
way that reflects current federal government initiatives (e.g. NIMS 
implementation).
    Armed with new information, our nation's sheriffs soon began asking 
for additional and specialized training which would include the 
handling of jail inmates, and citizen awareness.

Managing the Event--A Leadership Guide for All-Hazard Events provides a 
   solid foundation for specialized training, designed for specific 
    enforcement and community sectors. The Jail Evacuation program, 
 Community Partnerships program, and the First Responders program were 
                              the result.

    Each focused upon a sector of the overall national response plan 
that had thus far been ignored or poorly served. Each was designed to 
mobilize its target audience, leading to new levels of preparedness, 
new awareness directed towards prevention, and a new capacity for 
effective and efficient response in the event of an incident.
    The NSA now provides four training programs for the nation's 
Sheriffs. These programs are:
        1. Managing the Incident--A Leadership Guide to All-Hazard 
        Events
        2. Community Partnerships and Awareness
        3. Jail Evacuation
        4. First Responder Train-the-Trainer

   1. Managing the Incident - A Leadership Guide to All-Hazard Events

    ``I am enthusiastic about this program. Sheriff Oxley of Monmouth 
County, NJ should be commended for taking a proactive approach on this 
important initiative,'' said Sheriff Ferrell.

    ``The bottom line is cooperation and mutual aid which we will talk 
about all day. One person or one agency can't do it all. Sheriff Oxley 
saw the value and importance up front.''

    The National Sheriffs' Association's WMD Executive Course was 
designed to prepare Sheriffs to plan, equip and train their agencies to 
respond effectively to a terrorist incident. In the period between 1999 
and 2003, the training was delivered to over 6,000 Sheriffs and other 
members of the emergency response community, in 38 states.
    IN 2004, the NSA and ODP agreed to completely revise the program. 
The result was Managing the Event--A Leadership Guide for All-Hazard 
Events. Four pilots of the new program have been delivered (training 
225 participants), and the course is now scheduled for ODP review in 
July 2005.
    Feedback on the new course has been extremely positive, and 
numerous demands for this new course are already being received by the 
NSA office.
    Managing the Incident--A Leadership Guide to All-Hazard Events, 
focuses upon the needs of law enforcement executive staff. In 2004, an 
advisory group composed of Sheriffs from large and small jurisdictions 
convened in order to identify shortcomings in existing WMD courses. The 
course which evolved from this beginning took as its primary objective 
the training of law enforcement executives to recognize and effectively 
deal with terrorist and all-hazard events.
    The program is unique. It provides opportunity for law enforcement 
executives to examine and then modify their jurisdiction's emergency 
plan in the context of up-to-date information across a wide range of 
crucial subjects.
    The program includes instruction and activity-based learning 
whereby:
        <bullet> Participants will receive an update on the latest WMD 
        information. This topic is ever-changing, and correct and 
        timely information is crucial to effective planning and 
        response.
        <bullet> It is important, should a terrorist or all-hazard 
        event occur, each responding agency knows its duties, 
        responsibilities, and limitations. The program allows 
        executives to identify, cultivate, and document roles and 
        responsibilities within their agencies, and in cooperation and 
        coordination with other agencies, thus enhancing the efficiency 
        of response.
        <bullet> Executives identify threats, vulnerabilities and 
        resources within their own jurisdictions. The extent to which 
        an agency has completed this task is the extent to which a 
        successful resolution of an all-hazard or terrorist event may 
        be obtained.
        <bullet> Communications, including media issues, are carefully 
        studied by participants. Such subjects as, responding to the 
        media, Public Information Officer (PIO) hiring and training, 
        and communications with citizens, are introduced. Various 
        activities allow participants to actively experience the 
        demands of this element of an overall response, allowing them 
        to better develop a response plan suitable for their 
        jurisdiction's requirements.
        <bullet> Gathering, analyzing and sharing information with the 
        proper agencies is a vital component to the success of our 
        nation's ongoing war on terrorism. Managing the Incident--A 
        Leadership Guide to All-Hazard Events provides information on 
        these processes, and it links law enforcement executives to the 
        nation's network of intelligence agencies.
        <bullet> A regularly updated overview of the National Incident 
        Management System (NIMS) as it applies to law enforcement 
        executives responding to terrorist acts and all-hazards events 
        is provided. Funding options are also discussed, making it 
        possible for law enforcement executives to build upon plans 
        with additional training, and crucial equipment.

            2. Community Partnerships and Awareness Training

    ``This was very informative with regards to the ability of private 
citizens to actually assist with a WMD or just an area wide 
emergency.''
    The NSA recognized that, should an all-hazard or terrorist incident 
occur in a community, local first responders and local citizens will 
have to deal with the situation themselves. Their level of preparation 
will dictate the effectiveness of the initial response. Later, the 
degree to which citizens and responding agencies are able to mutually 
support one another will shape the successful outcome of an event.
    The NSA Community Partnerships and Awareness Training develops a 
dynamic partnership between citizens and responding agencies. The 
program also serves to initiate Neighborhood Watch programs in 
communities where the program may not have been activate. Other 
programs, such as Citizen Corps, VIPS, and CERT, are also introduced as 
important factors in each community's overall preparedness.
    Since its first pilots were completed late in 2003, the course has 
trained almost 1,700 participants from jurisdictions across the nation.
    Unique elements of the program include:
        <bullet> Law enforcement agencies are trained to independently 
        continue this training in their jurisdictions, at future 
        community meetings.
        <bullet> Increased community awareness of the risks and hazards 
        posed by Weapons of Mass Destruction. Training intended to 
        provide sufficient information for citizens to tentatively 
        identify agent types, and to respond accordingly, is also 
        provided.
        <bullet> Building of a Community Resources Database (CRD) is 
        initiated. The CRD may be used as a supplement to existing 
        local emergency databases, or which may serve as the primary 
        community resource or citizen database, and may be utilized in 
        the event of a terrorist attack.
        <bullet> Initiation of collaborative partnerships that can be 
        activated in times of crisis.
        <bullet> Development of a community mobilization plan, to be 
        activated in an emergency situation.
        <bullet> Practical experience of response options possible 
        during an emergency situation via a table-top exercise.
        <bullet> Establishment of an on-going planning and training 
        processes for community preparedness.
        <bullet> All course attendees receive an interactive Weapons of 
        Mass Destruction CD, which may be referenced in order to 
        broaden their knowledge, and which may be used at future 
        community meetings.
        <bullet> The program initiates a community-wide Neighborhood 
        Watch program, which now contains anti-terrorism training as 
        well as anti-crime elements, should this program not exist 
        already within the community.
    The results of this program have been striking. Personnel from a 
variety of law enforcement and response agencies work in cooperation 
with citizens representing a broad cross-section of the community--from 
civic and business leaders, to teachers and senior citizens, to 
representatives of the faith community.
    Arising from these new partnerships were hazards and resources 
previously unrecognized by the Sheriff's office or other response 
agencies. During one program, for example, citizens expressed their 
concern over a large dam, situated in an adjoining state that would 
devastate their community if ruptured. The Sheriff's office and other 
responding agencies were thus able to add this hazard to their list for 
immediate and close attention.
    At another training, a clergyman revealed that, situated below his 
church, there was a fully equipped fall-out shelter, which he was 
currently using for storage. The clergyman, it was discovered, was the 
only person aware of this facility, which had been constructed during 
the Cold War, and then forgotten. He offered the facility to the 
Sheriff for use as a Command Post, should it ever be required.

                           3. Jail Evacuation

    Although we routinely work on evacuation plans for natural 
disasters, we have done virtually nothing in the areas covered by this 
class. It has opened my eyes to a whole new field of concern; we need 
to take extensive preparatory measures.''
    The NSA Jail Evacuation Course has been designed to address the 
needs of small and large jails in rural and urban jurisdictions, 
preparing them to evacuate in the event of a terrorist attack or an 
all-hazards event. The specific challenges posed by jail evacuation 
have attracted the attention of DHS, ODP and the nation's Sheriffs.
    Since 2003, when pilots for the program were first delivered, 2,274 
participants from jurisdictions in all regions of the country have 
received training. 40 programs have been conducted over the past 13 
months. 62 jurisdictions, 241 counties, as well as officials from 
prisons, private detention facilities, and Police Departments, Fire & 
Rescue and Emergency managers have attended. The course has also been 
hosted by the Departments of Corrections in two states. 32 more 
programs are scheduled prior to Thanksgiving 2005.
    When examining the NSA Jail Evacuation program, it should be noted 
that:
        <bullet> This program started due to the numerous requests from 
        sheriffs who had recognized the need to develop plans for 
        evacuating inmates, staff, visitors, etc. from their jails in 
        the event of an all-hazards event, or a direct attack on the 
        facility, or in the event that the jail is close to a primary 
        terrorist target.
        <bullet> Jails meet or exceed terrorist target criteria - They 
        contain high concentrations of people, and they are the most 
        expensive government buildings to construct. An attack or all-
        hazard event could kill or injure many individuals, and destroy 
        or render uninhabitable a crucial facility.
        <bullet> In the event of uncontrolled mass escape or release, 
        dangerous inmates may be freed to again prey upon a vulnerable 
        civilian population. A properly prepared jail evacuation plan, 
        developed as attendees take part in the program, minimizes 
        these effects.
        <bullet> Most inmates currently housed in jails are of a pre-
        trial status, and therefore presumed innocent. Jails without an 
        evacuation plan are vulnerable to legal processes which may 
        result in massive liabilities. In the past, facilities not 
        having planned and practiced for fires have lost large 
        lawsuits. The outcome of this course is that attendees are able 
        to develop an evacuation plan appropriate for the unique 
        requirements of their own facility.
        <bullet> Captured terrorists are often detained in local jails. 
        This taxes existing (and already strained) resources, and also 
        increases the likelihood that the facility itself may become a 
        target for an attack.
        <bullet> The program has also provided the first WMD and all-
        hazard planning and information material to be obtained by some 
        jurisdictions and counties.
    Jails, and the specific challenges that evacuation of a jail 
presents both jail administrators and the general community, have 
received little attention. Currently, the NSA Jail Evacuation program 
is unique, providing essential training that prepares jail personnel to 
respond to a hazardous event. The safety and well-being of each 
community and its citizens are maximized by the training and planning 
guidelines provided by the program.

                           4. First Responder

    ``This was one of the best classes I've attended in a long time.''
    The NSA First Responder Program focuses on the actions required in 
the initial phase of a response--the crucial fifteen to thirty minutes 
that elapses between occurrence of the event, and response by incoming 
emergency teams. With an emphasis on safety and teamwork, participants 
learn that actions taken in the first moments of a CBRNE incident set 
the stage for success.
    The NSA First Responder program recently completed its third and 
final pilot. A total of 79 participants from across the country, 
representing law enforcement personnel as well as such agencies as Fire 
Departments and the military, received training as the pilot programs 
were delivered.
    News of the effectiveness and relevance of this program has begun 
to spread by word of mouth, and the NSA office is currently receiving 
inquiries from a variety of federal and state agencies, as well as from 
NSA members. A waiting list is currently filling, as the program awaits 
final ODP review. Inquiring agencies include the US Secret Service, TSA 
(Transportation Safety Admin), FBI, the US Navy, US Marines, US Air 
Force, and an international inquiry from Canada's Chatham Kent Police 
Service (Ontario), and the Toronto Police Service Intelligence Support.
    This course was specifically designed to rapidly and efficiently 
train a large number of people across the country. Course instruction 
and table-top exercises coupled with practical exercise, prepare 
participants to train the members of their own agency to:
        <bullet> Perform an assessment of the building and perimeter of 
        the building.
        <bullet> Focus on potential facility security vulnerabilities, 
        and prepare a documented pre-planned response. (CIRP mission 
        folder is placed on CD for emergency use.)
        <bullet> Safely approach an incident, take command, and 
        anticipate the needs of a rapidly escalating Hazmat incident 
        using Unified Command.
        <bullet> Set perimeters, set isolation zones, communicate safe 
        routes of travel to other responders, protect evidence, 
        apprehend suspects, and begin protective actions and plan for 
        rescue, mass decontamination, and staging areas.
        <bullet> Identify booby traps, improvised explosive devices 
        (IEDs), & secondary devices.
        <bullet> Implement searches for explosive devices.
        <bullet> Identify and protect evidence for use in prosecutions.
        <bullet> Utilize NIMS-recommended strategies to respond to an 
        all-hazard or terrorist event. Transfer control from one level 
        of command to the next, up to and including a federal response. 
        The course reviews IC100, IC200 (encouraging participants to 
        complete online exams upon return to their agency), and 
        required documentation of the incident at each level of 
        command.
        <bullet> Respond to an all hazards incident, stressing areas of 
        crowd control, perimeters, and evacuations.
        <bullet> Identify resources available through mutual aid, state 
        and federal agencies.
        <bullet> Take care of themselves by teaching stress inoculation 
        and reduction, which is a factor that may affect responders 
        during and/or after a stressful situation or event.
        <bullet> Provide a resource disk with over 600 resource 
        documents, publications, websites, and book titles for the 
        trainer.

                            Lessons Learned

    The NSA has learned that a variety of training approaches maximize 
the ability of any community or agency to respond with efficiency and 
effectiveness to an all-hazard event: The lessons learned may be 
applied by a specific training agency, or they may be considered by 
those responsible for the National Training Program. Lessons learned by 
the NSA include

    1. Train trainers--If the training offered by an organization 
prepares participants to train members of their community or agency, 
then the effect of the training provided is compounded.

    2. Develop courses that involve participants from a variety of 
agencies in activities specific to their own community's unique 
circumstances. The networking that develops from such experiences can 
take on a life of its own, greatly enhancing the partnerships required 
for effective prevention and response.
    3. Specifically target training to address the needs of specific 
groups within law enforcement agencies, response agencies, and within 
the general community.
    4. Use membership organizations as major training partners. These 
organizations are able to readily communicate with their constituents 
across the nation. This provision allows for efficient notification of 
program availability, and it also permits a smooth vehicle for 
participant feedback. The effectiveness of the NSA's communication 
machine provides a model for this approach.
    5. Develop programs using a consultative approach--Initial 
development should be characterized by focus groups composed of 
ultimate participant representatives. This maximizes the ability of 
course developers to provide meaningful and relevant training.
    6. Utilize subject matter experts well-versed in their fields. 
Search out leaders and innovators currently working in and contributing 
to their discipline. This ensures cutting edge and up-to-date content.
    7. Incorporate jurisdiction/agency-specific activities and 
exercises--This immediately enhances prevention and response 
capability, and contributes long- term to the community's development 
of a viable and effective response plan.

                               Challenges

    The National Sheriffs' Association recognizes the following 
challenges in future years. These include:

    1. Ensuring that sufficient federal funding is continued, thereby 
allowing training of law enforcement agencies, response agencies, and 
the training of citizens across the nation, to continue uninterrupted.

    2. Reflect the current federal governments drive to develop methods 
and approaches that encourage agencies to train, plan and work 
together. The NSA will continue to explore means by which it might 
continue to foster combined NSA training of such agencies as the Secret 
Service and military with law enforcement personnel.

    3. Maintaining and strengthening the partnership between the 
Department of Homeland Security and the Office of Domestic 
Preparedness, and the National Sheriffs' Association. To date, this 
partnership has led to the development and implementation of crucial 
training in jurisdictions across the country, with the end result being 
communities today are better prepared to prevent or respond to an all-
hazards event or a terrorist attack.

                               Conclusion

    The National Sheriffs' Association has taken a lead role in 
providing training for its own member sheriffs across the country. 
However, sheriffs' offices have served as a center from which NSA 
programs have been delivered to a wider audience consisting of other 
(local, state, and federal) law enforcement agencies, other first 
responder agencies (such as fire departments and EMS Services), state 
and federal agencies, the military, and our civilian population.
    NSA's Weapons of Mass Destruction Committee in cooperation with the 
NSA Training Division have identified specific flaws in the nation's 
existing training infrastructure Where train-the-trainer was not 
appropriate, the NSA's focus upon establishment of long-term projects 
directed towards better preparing agencies and communities to respond 
to an all-hazard event provided a powerful model for future course 
development.
    The effectiveness of NSA training initiatives to date can be 
clearly seen in course evaluation data. A further demonstration of the 
relevance of NSA training programs may be verified in the current 
demand for training programs being delivered across the country. The 
level of interest shown by agencies and organizations both within the 
United States, and from the international community, furthers confirms 
our success.

    Mr. King. Mr. McGowan, thank you for your testimony and for 
your service.
    The Chair now recognizes Captain Jack Reall of the National 
Fire Academy Board of Visitors. Captain Reall?

                    STATEMENT OF JACK REALL

    Captain Reall. Thank you, Mr. Chairman, committee members.
    I am Jack Reall, Captain of the Columbus, Ohio Fire 
Division and President of the Columbus Firefighters Union. I am 
a member of the National Fire Academy Board of Visitors. I have 
also instructed first responders in every jurisdiction 
represented by these two committees.
    I am here before you today to offer testimony on the status 
of homeland security training and its impact on my members and 
colleagues. DHS funding provides opportunities all over the 
country in a variety of formats. However, it is generally 
divided into two specific areas: national training facilities 
and state and local grants. National training facilities 
provide high-quality and high-impact training opportunities, 
but they have some efficiency issues. The Noble Training 
Facility in Anniston, Alabama offers a unique training 
environment utilizing chemical-bioterror live agents. The 
Nevada test site utilizes radiological facilities to create 
real-world scenario-based environments that would be unfamiliar 
to most first responders. The Tunnel in West Virginia also 
offers environmental issues that have only been experienced at 
the World Trade Center and are usually not able to be recreated 
for training.
    Although each of these facilities and the others I did not 
mention have benefits to first responders, their impact is 
minimal. Why? Because most of the first responders do not have 
access to these facilities. Staffing concerns at home inhibit 
our ability to attend these worthwhile sessions. Even though 
these programs are free, they cause considerable costs to our 
jurisdictions that eliminate opportunities. Even if our 
firefighters and paramedics took their own vacation time to 
attend these facilities, many localities would be hard-pressed 
to allow for the leave due to the increased cost of staffing. 
Less than .05 percent of my members has participated in 
training at any of the national facilities.
    The National Fire Academy is another story. They have a 
longstanding relationship with the state and local training 
academies and stretch the dollars as far they possibly can. 
They have the added benefits of being able to share training 
development initiatives with local training academies and give 
a synergistic effect to every dollar being spent.
    However, even the National Fire Academy has drawbacks. 
Again, they have the same staffing issues as the other national 
facilities. They also focus much of their impact on the 
management aspect of the Fire Service. Not that this is bad. We 
are all well aware that effective management will result in 
better performance even at the lowest level. However, our 
firefighters responding every day to tens of thousands of 
emergencies nationwide need to be directly impacted by homeland 
security dollars. The National Fire Academy offers a cost-
effective and useful indirect impact of these monies.
    State and local grants to provide training are also an 
opportunity for many of our first responders. However, they are 
not consistent in quality or in curriculum. Many of these 
courses do not meet nationally accepted criteria or consensus-
based standards. Additionally, many of these grants are 
misadministered by state agencies, and without adequate 
intervention by the Office of Domestic Preparedness 
inconsistencies arise that inhibit training.
    As an example, I have instructed structural collapse rescue 
techniques to first responders throughout the nation and 
overseas. I have developed the curriculum and mechanism for 
training Ohio's first responders. I utilized the same exact 
program for another state. Inconsistencies with administration 
of ODP and DHS funding mechanisms have caused Ohio's state 
agency administering these funds to deny the training to first 
responders, while the other state has funded eight classes in 
90 days. These inefficiencies lead most firefighters to believe 
there is no overall strategy for the effective utilization of 
these funds.
    It is apparent to me that the over-emphasis on grant 
processes and guidelines has caused us to get the process 
right, but yet lose the progress. My observations are that 
regardless of the mechanism, too little training is making its 
way to the frontline firefighters and first responders. Too 
much emphasis is placed on special retraining programs and 
niche opportunities, while tens of thousands of firefighters 
continue to put their lives on the line every day with little 
or no additional training on homeland security issues.
    Quality and consistency of those training programs that are 
offered and provided through a federal funding mechanism are 
across the spectrum. Much of the state and local grants, state 
pass-through funding and UASI grants are over-utilized for 
everyday law enforcement operations, with little left over for 
other members of the first responder community.
    As a union president, I make an attempt to absolve the 
stereotype of just being the naysayer who identifies problems. 
I try to offer solutions to every problem. My recommendations 
are based on what I feel has worked for my members. The last 
WMD training that all of our firefighters participated in was 
the 120 Cities Training Program provided as part of the Nunn-
Lugar-Domenici Act. Since then, we have had sporadic 
participation in WMD training for first responders. I felt this 
program worked because it brought quality, consistent, high-
impact training to us. Our staffing impact was minimized due to 
the fact that our firefighters were still available should a 
catastrophic event occur. We also did not have to backfill for 
travel days and allocate resources for shift changes to allow 
for out-of-town training.
    This was the most effective type of training for the 
dollars spent. It is much more effective to pay for travel and 
lodging of a few instructors versus the travel and lodging of 
many students. Most businesses have utilized this method for 
training employees for years. This training should be 
administered nationally and delivered locally. This assures 
consistency in quality. It also allows for a broad overview of 
effectiveness of the training.
    Firefighters and other first responders nationwide would be 
able to be evaluated on the effectiveness of the training every 
day, rather than just an annual exercise in one area of the 
country involving a few hundred responders. By utilizing this 
method of training for the majority of the programs and 
opportunities also allows for a more quick, concise and 
accurate determination that funding is being provided to the 
first responder groups that need it most.
    I ask that you consider my thoughts and recommendations 
when providing direction for future funding of national 
training programs through the use of taxpayer money. Every 
taxpayer in the nation contribute to this revenue source. 
Therefore, every responder to those taxpayers should be 
afforded the training programs.
    Just as a side note, my state program is one of the 115 
institutionalized courses that have not been approved. It has 
been waiting for quite some time.
    I appreciate the opportunity to speak to all of you. Thank 
you.
    [The statement of Mr. Reall follows:]

                    Prepared Statement of Jack Reall

    Good Morning Gentleman and Gentle ladies,
    I am Jack Reall, Captain in the Columbus, Ohio, Fire Division and 
President of the Columbus Fire Fighters Union.
    I am here before you today to offer testimony on the status of 
Homeland Security Training and its impact on my members and colleagues. 
DHS Funding provides opportunities all over the country in a variety of 
formats. However, it is generally divided into two specific areas; 
National Training Facilities and State and Local Grants.
    National Training Facilities provided high quality and high impact 
training opportunities, but they have some efficiency issues. The Noble 
Training Facility in Anniston, Alabama offers a unique training 
environment utilizing chem-bio terrorist live agents. The Nevada Test 
Site utilizes radiological facilities to create a real-world scenario-
based environment that would be unfamiliar to most first responders. 
The Tunnel in West Virginia also offers environmental issues that have 
only been experienced at the World Trade Center and are usually not 
able to be recreated for training. Although each of these facilities, 
and the others I did not mention, has benefits to first-responders, 
their impact is minimal. Why?. . .because most of our first responders 
do not have access to these facilities. Staffing concerns at home 
inhibit our ability to attend these worthwhile sessions. Even though 
these programs are free, they cause considerable costs to our 
jurisdictions that eliminate opportunities. Even if our fire fighters 
took their own vacation time to attend these facilities, many 
localities would be hard pressed to allow for the leave due to 
increased costs of staffing. Less than one-half of one percent of my 
members has participated in training at any of the national facilities.
    The National Fire Academy is another story. They have a long-
standing relationship with State and Local Training Academies and 
stretch the dollars are far as they possibly can. They have added 
benefits of being able to share training development initiatives with 
local training academies and give a synergistic effect to every dollar 
being spent. However, even the National Fire Academy has drawbacks. 
Again, they have the same staffing issues as the other National 
Facilities. They also focus much of their impact on the management 
aspect of the Fire Service. Not that this is bad. We all are aware that 
effective management will result in better performance at even the 
lowest level. However, our firefighters responding every day to tens of 
thousands of emergencies nationwide need to be directly impacted by our 
Homeland Security dollars. The National Fire Academy offers a cost-
effective and useful indirect impact of these monies.
    State and Local Grants to provide training are also an opportunity 
for many of our First Responders. However, they are not consistent in 
quality and in curriculum. Many of these courses do not meet nationally 
accepted criteria or consensus-based standards. Additionally, many of 
these grants are mis-administered by State Agencies and without 
adequate intervention by the Office of Domestic Preparedness, 
inconsistencies arise that inhibit training. As an example, I have 
instructed Structural Collapse Rescue techniques to first responders 
throughout the Nation. I developed the curriculum and mechanism for 
training Ohio's First Responders. I utilized the same exact program for 
another state. Inconsistencies with administration of ODP and DHS 
funding mechanisms have caused Ohio's State Agency administrating these 
funds to deny the training to First Responders while the other state 
has funded 8 classes in 90 days. These inefficiencies lead most 
firefighters to believe that there is no overall strategy for the 
effective utilization of these funds.
    ``It is apparent to me that the overemphasis on grant processes and 
guidelines has caused us to ``get the process right, yet lose the 
progress.''
    My observations are that, regardless of the mechanism, too little 
training is making its way to the frontline firefighters and first 
responders. Too much emphasis is placed on specialty training programs 
and niche opportunities, while our tens of thousands of firefighters 
continue to put their lives on the line everyday with little or no 
additional training on Homeland Security Issues. Quality and 
consistency of those training programs that are offered and provided 
through our Federal Funding mechanism are across the spectrum. Much of 
the State and Local Grants, State ``pass-through'' funding and UASI 
grants are over utilized for everyday law enforcement operations with 
little left over for other members of the first responder community.
    As a Union President, I make an attempt to absolve the stereotype 
of just being the naysayer who identifies problems. I try to offer 
solutions to every problem. My recommendations are based on what I feel 
has worked for my members. The last WMD training that all of our 
firefighters participated in was the 120 Cities training provided as a 
part of the Nunn-Luger-Dominici Act. Since then, we have had sporadic 
participation in WMD training for first responders. I felt this program 
worked because it brought quality, consistent, high-impact training to 
us. Our staffing impact was minimized due to the fact that our 
firefighters were still available should a catastrophic event occur. We 
also did not have to backfill for travel days and allocate resources 
for shift changes to allow for out of town training. This was the most 
effective type of training for the dollar spent. It is much more 
effective to pay for the travel and lodging of a few instructors versus 
the travel and lodging of many students. Most businesses have utilized 
this method for training employees for years. This training should be 
administered nationally and delivered locally. This assures consistency 
and quality. It also allows for a broad overview of the effectiveness 
of the training. Firefighters and other first responders nationwide 
would be able to be evaluated on the effectiveness of the training 
everyday, rather than just with an annual exercise in one area of the 
country involving a few hundred responders. By utilizing this method of 
training for the majority of the programs and opportunities also allows 
for a more quick, concise, and accurate determination that funding is 
being provided to the first responder groups that need it most.
    I ask that you consider my thoughts and recommendations when 
providing direction for future funding of National Training Programs 
through the use of taxpayer money. Every taxpayer in the Nation 
contributes to this revenue source, therefore every first responder to 
those taxpayers should be afforded these training programs. Thank you.

    Mr. King. Thank you very much, Captain Reall.
    And now for the purpose of introducing our next witness, I 
recognize the gentleman from New Mexico, Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Chairman. I request unanimous 
consent to introduce Dr. Romero.
    Mr. King. Without objection.
    Mr. Pearce. I would like to introduce Dr. Romero, who is 
Vice President for Research and Economic Development at the New 
Mexico Institute for Mining and Technology. It is one of the 
leading scientific institutions in the nation and is located in 
the Second District of New Mexico, which makes it even better.
    In his capacity as Vice President, Dr. Romero oversees the 
university's homeland security programs, including the Playas 
Training Center, the International Law Enforcement Academy, and 
the Antiterrorism Assistance Program. Dr. Romeo also leads the 
university's research on explosions and incendiary devices, 
which explains why he has trouble getting on airlines these 
days.
    Dr. Romero is also the immediate past Chairman of the 
National Domestic Preparedness Consortium that coordinates 
first responder training in the area of weapons of mass 
destruction. The Playas Training Center was simply just a 
concept that Dr. Romeo was integrally involved in. It is a 
mining town that had been vacated. It has all the components of 
a regular town.
    Mr. Romero several years ago saw the potential and 
encouraged New Mexico Tech to buy that town from the mining 
company. Now, we are holding homeland security training 
exercises there. Just during Memorial Day, I had an interesting 
visit and watched a full-scale project there. Dr. Romero's 
leadership in coordinating university expertise with the 
Department of Homeland Security has contributed greatly to our 
first federal first responder training programs. We look 
forward to hearing Dr. Romero's testimony.
    Thank you, Mr. Chairman.
    Mr. King. Dr. Romero?

                    STATEMENT OF VAN ROMERO

    Mr. Romero. Mr. Chairman and Mr. Pearce, thank you very 
much.
    Mr. Chairman, Ranking Members, members of the committee and 
my fellow colleagues, I testify before this panel today as a 
member of the community that played an active role in homeland 
defense issues well before there was a Department of Homeland 
Security. I currently serve as the Research Vice President at 
New Mexico Tech, which is one of our nation's leading explosive 
research institutes. Prior to becoming Vice President, I was 
the Director of the University Explosives Research Program. 
During that time, I worked with others to initiate the National 
Domestic Preparedness Consortium, NDPC, to coordinate first 
responder training in the area of weapons of mass destruction 
and served as the Chairman of the Consortium from 2001 to 2005.
    As a result of the Oklahoma City bombing, the NDPC was 
formally recognized by the administration and Congress. This 
tragic event illustrated that first responders needed 
additional preparedness to deal with WMD. NDPC was formed by 
incorporating the specific areas of expertise in WMD from each 
Consortium member. The Consortium gives the government the best 
and brightest researchers from top-notch research institutions.
    The concept of the NDPC is simple: train the trainer. The 
Consortium enhances and underpins training programs at our 
nation's state and local levels to prepare for and respond to 
events of terrorism involving weapons of mass destruction.
    The first step taken by NDPC was to develop courses to 
augment the basic training received by first responders. Next, 
the Consortium began to deliver these courses to first 
responder communities, both on our campus and in their home 
cities. In fact since 1998, the Consortium is responsible for 
risk-based training being delivered to over 600,000 first 
responders from all 50 states, the District of Columbia and our 
four U.S. territories.
    These courses were developed and reviewed in coordination 
with other federal agencies including the Center for Disease 
Control and Prevention, the Department of Energy, the 
Department of Management Institution, the Environmental 
Protection Agency, the Federal Bureau of Investigations, the 
Federal Emergency Management Agency, the National Fire Academy 
and the Public Health Service, among others, all selected by 
the Office of Domestic Preparedness. This has resulted in 
courses that consistently receive strong positive reviews from 
the first responder community.
    Having been active for the past eight years, we have 
learned a number of important lessons. I would like to discuss 
with you a few of the lessons that we have learned since the 
formation of the NDPC.
    The first lesson to be learned is that education is an 
important component of training. This is vastly different from 
military training that is designed to prepare warfighters for 
known threats and relies on predetermined courses of action. 
Enemy actions are anticipated and countermeasures are practiced 
during training. We must avoid the shortcoming of training of 
first responders by only training them to respond to the last 
attack. Today's threats require more education than training. 
If the first responders are educated to understand the possible 
threats and the ability of existing technology to deal with 
these threats, they have a better chance to modify their 
actions to address unforeseen attacks.
    Further, the time available for the training of first 
responders is limited compared to that of the warfighter. 
Currently, it is estimated that there are five million first 
responders that require various levels of counterterrorism 
education. The vast majority of these students require only a 
short awareness course that can be provided at their workplace. 
The NDPC has developed and instituted a model that can be 
scaled up to address the need to train five million first 
responders and meet the challenge.
    Second, first responder programs need to focus on 
prevention as well as response, as you have heard today. 
Because of events like 9/11 and Oklahoma City, we tend to 
fixate on preparing first responders to respond to an event. 
While this is an important mission for these programs, it 
should not be the only mission. First responders are in the 
community every day and if properly trained they have the 
ability to recognize potential terrorist activity.
    For example, one first responder, a fireman, that attended 
an NDPC course on explosive devices recognized the ingredients 
of a bomb during a routine call in New Jersey. Based on his 
findings, the FBI was called in and the tenant of the apartment 
was taken into custody. This simple act may have stopped a 
terrorism attack. First responders learn these with hands-on 
training of the type that they receive today from the National 
Domestic Preparedness Consortium. I believe that through 
education, other examples of interdiction have occurred and 
occur every day at our ports, our borders and within our cities 
and countryside.
    Third, we must have consistent training in standards to 
address our nation's training needs. It is vitally important 
that our first responders in Miami have the same basic 
knowledge as our first responders in Seattle. As we develop 
solutions to WMD problems, it is essential that the entire 
country benefit. Firemen, policemen and EMS personnel need to 
have the same basic knowledge skills. First responders need to 
plan and train together because they will respond together. 
Consistency is best achieved via a single source of training.
    Fourth, most of the training needed is at the awareness 
level and can fit into current training programs that exist for 
the first responder community as exemplified by those who 
testified with me today. The vast number of existing delivery 
mechanisms for this group dictates that a large number of 
courses are best suited to deliver the required training, hence 
the dilemma. To be effective, you need to have one consistent 
message, and to be efficient you need to have multiple sources 
to deliver the message.
    The Office of Domestic Preparedness, in conjunction with 
the National Domestic Preparedness Consortium, has developed a 
system that addresses this dilemma. NDPC courses are developed 
via a rigorous review process and are required to meet 
standards. Instructors also are reviewed and meet the NDPC 
standards. Technical-level courses are delivered by subject 
matter experts and on a train-the-trainer basis. Courses at the 
awareness level are designed to be delivered in the field by 
personnel that have taken the technical-level courses. This 
ensures consistency, while providing multiple delivery sources.
    In my opinion, the nation can achieve first responder 
training that is both effective and efficient by establishing 
national standards, focusing training on response as well as 
prevention, minimizing the number of delivery sources for 
technical-level training, and maximizing the number of delivery 
sources for awareness-level training. At New Mexico Tech, we 
have been involved in supporting our nation's defense since 
World War II. At that time, we developed a proximity fuse which 
was used to defeat suicide bombers that were attacking our 
Pacific Fleet. We used technology to beat suicide bombers 50 
years ago and I am convinced that we can use technology to 
defeat them now.
    But developing the technology is only the first step. The 
technology will be useless if first responders are not trained 
to use it. An effective and efficient antiterrorism assistance 
program for first responders will ensure that we maximize our 
country's resources to defend our homeland.
    Thank you, and I will be happy to answer any questions.
    [The statement of Mr. Romero follows:]

                  Prepared Statement of Dr. Van Romero

    Mr. Chairmen, Ranking Members, Members of the Committee and my 
fellow colleagues:
    I testify before this panel today as a member of the community who 
has played an active role in homeland defense issues well before there 
was a Department of Homeland Security. I currently serve as the 
Research Vice President at New Mexico Tech, which is one of our 
nation's leading explosives research institutions. Prior to becoming 
the Research Vice President, I was the Director of the University's 
Explosives Research Programs. During that time, I worked with others to 
initiate the National Domestic Preparedness Consortium (NDPC) to 
coordinate First Responder Training in the area of weapons of mass 
destruction (WMD) and served as the chairman of the consortium from 
2001 to 2005.
    As a result of the Oklahoma City bombing, the NDPC was formerly 
recognized by the Administration and the Congress. This tragic event 
illustrated that first responders need additional preparation to deal 
with WMD. The NDPC was founded by incorporating the specific area of 
expertise in WMD of each member in the consortium. The consortium gives 
the government the best and brightest researchers from these top-notch 
research institutions.
    The concept of the NDPC is simple: train the trainers. The 
Consortium enhances and underpins training programs at the national, 
state and local levels to prepare for and respond to events of 
terrorism involving weapons of mass destruction, including Biological, 
Nuclear/Radiological, Incendiary, Chemical and Explosive (BNICE) 
devices.
    The first step taken by the NDPC was to develop courses to augment 
the basic training received by First Responders. Next the Consortium 
began to deliver these courses to the First Responder community, both 
on our campuses and in their home cities. In fact, since 1998 the 
Consortium has provided risk-based training to over 600 hundred 
thousand First Responders from all 50 States, the District of Columbia 
and the four US territories.
    These courses were developed and reviewed in coordination with 
other federal agencies including the Center for Disease Control and 
Prevention (CDC), the Department of Energy (DOE), the Emergency 
Management Institute (EMI), the Environmental Protection Agency (EPA), 
the Federal Bureau of Investigation (FBI), the Federal Emergency 
Management Agency (FEMA), the National Fire Academy (NFA) and the 
Public Health Service (PHS), among others, all selected by the Office 
of Domestic Preparedness (ODP). This has resulted in courses that 
consistently receive strong, positive reviews from the First Responder 
Community.
    Having been active over the past eight years, we have learned a 
number of important lessons, and I would like to discuss with you a few 
of our ``lessons learned'' since the formation of the NDPC.
    The first lesson to be learned is that education is an important 
component of training. This is vastly different from military training 
that is designed to prepare war fighters for known threats and relies 
on predetermined courses of action. Enemy actions are anticipated and 
counter-measures are practiced during training. We must avoid a 
shortcoming of training for first responders by only training them to 
respond to the last attack. Today's threats require more education than 
training. If first responders are educated to understand the possible 
threats and the ability of existing technology to deal with the 
threats, they have a better chance to modify their actions to address 
unforeseen attacks.
    Further, the time available for the training of first responders is 
limited compared to that for war fighters. Currently, it is estimated 
that there are five million first responders that require various 
levels of counter-terrorist education. The vast majority of these 
students require only a short awareness course that can be provided at 
their place of work. The NDPC has developed and instituted a model that 
can be scaled up to address the need to train five million first 
responders and meet that challenge.
    Second, First Responder programs need to focus on prevention, as 
well as response. Because of events like 9/11 and Oklahoma City, we 
tend to fixate on preparing First Responders to respond to an event. 
While this is an important mission for these programs, it should not be 
the only mission. First Responders are in the community every day and, 
if properly trained, have the ability to recognize potential terrorist 
activity. For example one First Responder that attended an NDPC course 
on explosive devices recognized the ingredients of a bomb during a 
routine call in New Jersey. Based on his findings, the FBI was called 
in and the tenant of the apartment was taken into custody. This simple 
act may have stopped a terrorist attack. First responders learn these 
things with hands-on training of the type they receive today from the 
NDPC. I believe that through education, other examples of interdiction 
have occurred and occur every day--at our ports, borders, within our 
cities and countryside.
    Third, we must have consistent training standards to address our 
national training needs. It is vitally important that our First 
Responders in Miami have the same basic knowledge as our First 
Responders in Seattle. As we develop solutions to WMD problems it is 
essential that the entire country benefit. Firemen, police and EMS 
personnel need to have the same basic knowledge. First Responders need 
to plan and train together because they will be responding together. 
Consistency is best achieved via a single source of training.
    Fourth, most of the training need is at the awareness level and can 
fit into current training programs that exist for the First Responder 
community as exemplified by those testifying with me today. The vast 
numbers and existing delivery mechanism for this group dictates that a 
large number of sources are best suited to deliver the required 
training. Hence the dilemma, to be effective you need to have one 
consistent message and to be efficient you need to have multiple 
sources delivering the message.
    The Office ODP in conjunction with the NDPC, has developed a system 
that addresses this dilemma. NDPC courses are developed via a rigorous 
review process and are required to meet standards. Instructors are also 
reviewed and must meet the NPDC standards. Technical level courses are 
delivered by subject matter experts and train the trainer based. 
Courses at the awareness level are designed to be delivered in the 
field by the personnel that have taken the Technical level courses. 
This insures consistency while providing for multiple delivery sources.
    It is my opinion the Nation can achieve First Responder training 
that is both effective and efficient by:
        (1) Establishing National standards for all First Responder 
        programs;
        (2) Focusing training programs on both response and prevention;
        (3) Minimizing the number of delivery sources for technical 
        level training; and
        (4) Maximizing the number of delivery sources for awareness 
        level training.
    At New Mexico Tech, we have been involved in supporting our 
nation's defense since World War II. At that time we helped develop the 
proximity fuse, which was used to defeat suicide bombers that were 
attacking our Pacific Fleet. We used technology to defeat suicide 
bombers 50 years ago and I am convinced that we can use technology to 
defeat them now. But developing the technology is only the first step. 
The technology will be useless if First Responders are not trained to 
use it. An efficient and effective anti-terrorism training program for 
First Responders will ensure that we maximize our country's resources 
to defend our homeland.
    Thank you, I would be happy to address any questions the members 
may have on this important issue.

    Mr. King. Thank you, Dr. Romero.
    Before we start the questions, without objection I would 
ask that the charts of Mr. Reese be made a permanent part of 
the record.
    Mr. Meek?
    Mr. Meek. Very quickly, because I know that we are under 
time restraints, I just want to tell our panelists we 
appreciate your testimony here today and that all of the 
information will be placed into the record. Like our first 
panel, we know that we have, some people say in the country we 
have New York City and then we have the rest of the 
environment. Through unfortunately sacrifice and loss of life, 
New York City has gone through an experience like no other 
city. What I was speaking to in the first panel, my questions 
were mainly along the lines of what is happening in the rest of 
the universe? What is happening with all of the first 
responders? And how can you move towards uniformity?
    I have had an opportunity to go over your testimony and I 
heard you, I was in the anteroom there for a minute, when you 
all were talking about how we do need to come together. So I 
want to let you know that it did not fall on deaf ears. We have 
the subcommittees here that will have to carry out action. We 
have already in H.R. 1544, but we have to do more. That is just 
the beginning. The more we find duplication, prioritized money 
that is being spent in other areas of training, it will help us 
to be able to have the resources to do what we need to do to 
resolve some of the issues that many of you have brought to our 
attention.
    Mr. Chairman, thank you.
    Mr. King. Thank you, Mr. Meek.
    I think it is really a point well taken. The more we look 
into these issues, we realize how different parts of the 
country have different problems. The last thing we need is 
duplication because every dollar that is spent the wrong way is 
really a dollar wasted and a dollar that could be used to save 
human life.
    With that, Chairman Rogers?
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Edwards, I start with you, speaking of duplication. You 
made reference in your remarks to 50 different state programs 
that you are having to deal with. What did you mean? I did not 
understand exactly what you were making reference to.
    Mr. Edwards. Each state has a state fire training 
organization. Some are attached to universities and colleges. 
Some are part of state government. Some are a freestanding 
board or commission and may work directly for the Governor's 
office. But each state has a state fire training organization 
that coordinates and works with the local fire departments in 
that state to provide training. Collectively, the 50 states are 
training about 800,000 students per year.
    Mr. Rogers. This is separate and apart from first responder 
training that we are providing in the Consortium of schools or 
Consortium of institutions like the Center for Domestic 
Preparedness? This is separate and apart from that?
    Mr. Edwards. Yes. These are state agencies in most cases. 
What our issue is, we would like to be able to work more 
closely with ODP and take advantage of some of that curriculum. 
The Consortium schools do a great job. There is no question 
about that. We use them in our state. The problem is one of 
capacity in the system. You cannot have five schools train the 
nation's 1.2 million firefighters.
    Mr. Rogers. That brings me to the second thing I wanted to 
visit. I represent a very rural, relatively poor congressional 
district. Most of the fire protection that we have, and for 
that matter first responder protection, is volunteer units. It 
is not practical for many of these people to leave their jobs 
and go away for a week or two weeks of training at CDP. And 
this goes also to Mr. Reall's comments.
    If we were to provide funding that allowed for backfill of 
these employees, not only within sheriffs' departments and 
police departments, but for other employers, do you think this 
would be a practical way to make sure that training is extended 
to these volunteer units? Or do we need to look at more 
aggressive outreach programs where we are sending trainers out 
to these volunteer units? Or is it the train-the-trainer 
concept?
    I am looking at both of you to give me a response.
    Mr. Edwards. Just some comments on that. I think in most 
states the system is there. We are training, and I am speaking 
for states with a fire and rescue service, not law enforcement 
and others, but the system is already there. The system has 
been in place for decades. The problem is there is no 
communication and there is no working relationship with ODP in 
the state and fire training academies. If there was, and like I 
say, we requested to share in the curriculum to be able to use 
their already-developed curriculum that has been paid for by 
the federal dollar and for work with ODP to tell us what 
instructor requirements will be necessary, what course 
requirements and how we could deliver that. We were turned out. 
I do not understand that at all.
    Mr. Rogers. The state training programs you are making 
reference to are paid for with Federal dollars?
    Mr. Edwards. Paid for with what?
    Mr. Rogers. Did you say the state training programs are 
paid for with Federal dollars?
    Mr. Edwards. No, the training courses that are developed by 
the Consortium are paid for with federal dollars. We just want 
to have access to them so we can deliver within our system and 
deliver training where the firefighters live and work. 
Particularly with volunteers, they cannot travel large 
distances to receive training programs. In the State of 
Maryland, we operate six regional training centers that are 
fully staffed regional training center to provide training out 
where the firefighters are at.
    We just need help with the curriculum. I have not even 
asked for any money. All I want is to be able to share the 
curriculum, to know what the requirements are, to train fire 
and rescue personnel and report that back to DHS. As an 
example, the National Fire Academy, EMI, and the NIMS 
curriculum, when they develop a course it is immediately 
handed-off to state and local fire handed off to state and 
local fire training academies and they teach it. They assist in 
teaching it. With ODP, they do not allow state fire academies 
to teach their curriculum. That has caused a huge problem.
    Mr. Rogers. Captain Reall, what is the best way for us to 
go about this? Is it to backfill resources or is it more 
aggressive outreach and communication--the kind of 
communication Mr. Edwards is making reference to?
    Captain Reall. I think that there is a combination of best 
ways. If you are looking for the cheapest way, if you are 
looking for the most effective way in terms of retention, there 
are combinations of ways depending on what you consider the 
best way. I would say that a combination of those two things. A 
more aggressive outreach, like the Doctor said, a more 
aggressive outreach for those lower-level courses has got to be 
done. We are not getting that out there. But backfill costs to 
allow people to attend those special opportunities that are 
great, like the CDP.
    Mr. Rogers. How effective is the train-the-trainer 
component of what we do?
    Captain Reall. It has been very effective for at least fire 
and EMS education for decades. I guess from my perspective, I 
am looking to fix this program for my next 15 years of my 
career. I am not at the end of it. I am in the middle of it. I 
have to get this fixed so that I do not have a problem for the 
rest of my career.
    Mr. Rogers. And your number one fix would be what? What 
would you want this committee to take away from your comments?
    Captain Reall. I would like to have more cooperation 
between ODP and the training mechanisms that are out there 
right now, whether you consider it self-certification or 
whatever it might be, but I think we are all saying the same 
thing. We have to get that stuff out there to our first 
responders.
    Mr. Rogers. Thank you.
    Thank you, Mr. Chairman.
    Mr. King. Congressman Pearce?
    Mr. Pearce. Thank you, Mr. Chairman.
    Mr. Romero, you discussed awareness training versus the 
maximizing of awareness training and minimizing technical 
training. Mr. Edwards is saying that we ignoring state and 
local programs. Can you discuss the relationship between those 
two concepts and ODP's choices?
    Mr. Romero. Yes, Mr. Pearce, Mr. Chairman.
    There is, as I stated, a need to get out into the community 
and deliver at the local level the awareness-level training, 
but you need to have experts delivering that training. All of 
us know that first responders have very specific, very tough 
questions when they attend these classes. If we do not have 
people who are very knowledgeable in the training that they are 
delivering, they will not be listened to. So from the 
Consortium's standpoint, we look to bring people from the 
various training academies to the Consortium classes and give 
them that expertise so that they can go back home and deliver a 
consistent message.
    Again, we have point sources for the very technical-level 
training, like the Center for Domestic Preparedness where you 
are actually exposed to real live agents. That does not occur 
anywhere in the country. So take people there, make them 
experts, and then let them go back to their home jurisdictions 
and train as many people as they can.
    Mr. Pearce. How do you avoid other duplicities in the 
Consortium and its approach?
    Mr. Romero. The Consortium was formed to span the 
waterfront if you will with WMD. We have heard today that 
Nevada Test Site focuses on radiological and nuclear. New 
Mexico Tech focuses specifically on explosive devices because 
we are the explosive experts. At the Center for Domestic 
Preparedness, it is the chemical aspect of WMD. At LSU, they 
focus on the biological and at Texas A&M they focus on the 
coordination, command and control.
    So the Consortium members themselves span the waterfront to 
try and cover all aspects of WMD so that people who come to the 
courses then have all of that expertise, and again can go home 
and be the local expert.
    Mr. Pearce. And that is the concept you are referring to, 
education versus training. We educate them; they then go and 
train. Is that correct?
    Mr. Romero. That is correct, Mr. Pearce. We make them the 
experts and then they go home. At New Mexico Tech when a 
student takes our course, they can actually receive two hours 
of college credit in chemical engineering that can be 
transferred to any university in this nation. That is the level 
of education that we are providing them.
    Mr. Pearce. Tell me a little bit about how many people you 
all have trained at New Mexico Tech and basically how that then 
has filtered out through the nation.
    Mr. Romero. We currently train on the order of about 400 
students a week in our courses. To date, we have trained 13,000 
trainers. Those trainers in turn have gone out and trained an 
additional 130,000 first responders from across the nation. So 
we are currently betting a multiplying factor of about 10 to 1. 
There is a little bit of a lag because as we train more and 
more people, it takes a while before their numbers start coming 
back to us.
    Mr. Pearce. Mr. Edwards, do you have any comments on this 
whole line of thought we have been talking about here?
    Mr. Edwards. A couple of comments. One is the concept of 
training the trainer is very good as long as they work within a 
system. Individuals attend the Consortium classes at the school 
sites. Then they come back and we do not know who they are 
training. I maintain all the training records for the State of 
Maryland fire and rescue personnel and historical database. We 
have over 600,000 student records. You cannot just send someone 
to a 2-week course and send them back and have them just start 
training ad hoc within the existing system.
    That is why I am saying there needs to be better 
coordination at the state and local level with ODP to develop a 
partnership and develop a system that works for everybody, not 
just sending people to a school for 2 weeks and going back and 
saying they are an expert. They are most likely not an expert 
in that regard, and they need to work within a system to 
provide that training so it is structured and it is what the 
departments need and it is done in a timely and cost-effective 
manner.
    Mr. Pearce. If they are not coming home as experts, are 
they capable at least of creating the awareness, that is the 
awareness that Dr. Romero mentioned? And is that such a big 
deal in your eyes, simply the awareness of how short we are of 
skills?
    Mr. Edwards. I guess some of them are and some of them are 
not. I know in our state, we have state statutes that you have 
to be certified to be an emergency services instructor. A lot 
of people who attend these Consortium schools are not 
recognized as instructors in the State of Maryland, so they can 
go to these courses and come back, but due to state law they 
are not allowed to teach in the fire and rescue environment. 
That is what I mean by having these systems work together and 
have the synergy of all the systems for the betterment of the 
fire and rescue service as one system, not a bunch of separate 
systems spread out all over the country.
    Mr. Pearce. Thank you, Mr. Chairman. My time has expired. I 
thank you.
    Mr. King. Mr. Reichert?
    Mr. Reichert. Thank you, Mr. Chairman.
    First, I would like to take this opportunity to welcome my 
good friend Sheriff McGowan from Minnesota, actually the 
President of the major country sheriffs' association at one 
time, and he and I were members of that organization up until 
last year, the National Sheriffs' Association. So welcome, 
Sheriff.
    I agree with my colleague from Florida. We need to do a lot 
more. We passed the first responders bill last month, I think 
it was. The purpose of that is to un-jam the logjam of monies 
that have been held up for training and equipment. The training 
and equipment is all well and good, and you have talked about 
some of the pitfalls and some of the weaknesses in the training 
across the country. But there are other costs I would guess 
that are associated with the training that we have not even 
really touched on.
    I wonder, Sheriff, first if you could comment on just 
around the homeland security issue and training and the 
management of training, what are the costs to your agency?
    Sheriff McGowan. First off, every time you send somebody 
out to go to training, as was mentioned before by Commissioner 
Kelly, you have to take that person off the street. If they are 
holding a critical job or they are in a critical position, 
somebody has to be hired to backfill them. And when you 
backfill a person, you are taking him normally off of a day off 
for somewhere like that and you are paying him time-and-a-half. 
So you are actually spending in one day of training three times 
of what your costs are.
    Also, once we train people, I think Representative, one of 
the things that we fail to realize is how do we make use of 
that training when it comes back to us? That is the critical 
component. How do we make use of that? How is it going to 
protect our country? How is it going to make us safer and more 
responsive? That is where I come to is if I could ask you 
ladies and gentlemen for any assistance, please let us use 
money to backfill our positions where we are providing 
assistance at a federal level to help.
    I have personnel signed up to the terrorism task forces. I 
do not get reimbursement for that. That means we go without a 
position. I go without somebody to answer a rape call or a 
robbery call, a murder call, a person that is in distress. From 
major county sheriffs and major city chiefs, National 
Sheriffs', I am sure the firefighters are the same way. Please 
allow us to backfill where we have given people to supplement 
the national effort. That is absolutely critical for us.
    Mr. Reichert. I thought that might be your answer.
    Would anyone else on the panel like to address that 
question? I would assume that in the fire business, you would 
have the same experience.
    Captain Reall. I would agree with that. We are often asked 
how much of our budget goes towards homeland security. I would 
say all of it because that is what we do. It does matter if it 
is a fire caused by terrorist activity or natural disaster or 
whatever, we are doing it every day. We are providing 
intelligence to our partners in law enforcement. We have for 
years.
    I was a little bit distressed to find out that we only get 
intelligence back from the police commissioner when it is 
deemed appropriate. From our perspective, how many drug labs 
are shut down from intervention from paramedics or firefighters 
when they go to an emergency call because somebody is having 
trouble breathing, and then they notify the law enforcement 
agency. We need that kind of communication going back and 
forth.
    Mr. Reichert. It certainly has to be a team effort.
    Just again to touch on some of the other issues associated 
with this topic, you can be trained, and I think someone made 
this statement, but when you come back is it worthwhile and 
does it apply. But you can also be trained and then you need to 
be retrained and you need to be updated in training. How do you 
manage that within your organizations? You have to manage the 
training records of your employees. Does that take additional 
resources and personnel? Anyone on the panel.
    Mr. Edwards. If I can just comment on that. That is a very 
serious issue. We train about 30,000 students a year at the 
Maryland Fire and Rescue Institute, University of Maryland. A 
lot of that training is training people who need 
recertification. They need to be kept current with skills. That 
is a very expensive part of our training program. In addition 
to that, with volunteer service, you have a lot of people who 
enter and leave the service, so you are constantly training and 
retraining people because you have attrition. The same is in 
the career service as individuals retire and you have to train 
new employees to take their place.
    The ability to train, that is why I believe their needs to 
be a national training strategy developed. There needs to be 
standard national training objectives that we can work toward. 
And then that system needs to be put out in the state and local 
departments for the training to take place in thousands of 
points throughout this country, with the results reported back 
in a way of not only having the initial training, but the 
recertification training with that so we know we are training 
to a certain standard and we are not just developing our own 
standard or each state having their own separate standard. We 
need a national standard program.
    Mr. Reichert. Thank you, Mr. Chairman.
    Mr. King. Thank you, Mr. Reichert.
    Our lease on this room is about to expire. Fortunately, 
everyone has had a chance to ask their questions. I really want 
to thank all the members of the panel for your testimony.
    I would just mention to Sheriff McGowan that my 
understanding of H.R. 1534, the legislation we passed last 
month, does allow reimbursement for backfilling. It still has 
to work its way through the Senate.
    Sheriff McGowan. Mr. Chairman, may I ask, is that going to 
be for personnel that we put into terrorism task forces? Is 
that going to allow me to backfill my position? Because, Mr. 
Chairman, everything that we go to today, what Commissioner 
Kelly talked about which you spent a lot of time on, it all 
starts with information. You talked a lot about prevention 
earlier. Prevention starts from information. That information 
does not come from across the pond somewhere else to us. It 
comes from within a local community. It is local officers 
establishing and knowing what is going on in their communities.
    We become part of an intelligence center, but for me to put 
people over there to ensure that we have coordination not only 
with my agency, but with other police departments, with federal 
agencies, with state law enforcement, we need to have that 
information center or intelligence center. If we cannot put 
people over there and get the money back for them, it is going 
to come to, because I will explain to you in my agency.
    I have about 800 men and women that work for me. I only get 
funded to 95 percent. So at any given time to meet my budget, I 
have to keep 40 vacancies. When I start subtracting out bodies 
going to different places, that is an additional vacancy that I 
do not have a man or woman to answer a call, to investigate a 
crime, to work on a prevention program at a local level. That 
is why, please, it is so critical. And from everywhere that I 
have been involved in at the national level, this is the number 
one concern that I hear from colleagues of mine around the 
country.
    Mr. King. We have to end on that because of the time. It is 
my understanding of H.R. 1544 that is applies to terrorism 
prevention. Again, we will have to work that through and work 
closely with you on it as it is interpreted.
    With that, on behalf of Chairman Rogers, I want to thank 
all the members. I thank all the panelists. I especially want 
to thank the Ranking Members for their cooperation in putting 
this together.
    The members of the committees may have some additional 
questions for the witnesses. We would ask if you would respond 
to those in writing. The hearing record will be held open for 
10 days.
    Without objection, the committee stands adjourned.
    Thank you very much.
    [Whereupon, at 12:57 p.m., the subcommittee was adjourned.]

                             For the Record

                 ADDITIONAL QUESTIONS TO THE WITNESSES

                 Dr. Van Romero Responses to Questions

    Congressman Pearce: We heard a lot of discussion regarding the need 
for ODP to increase its cooperation with the local jurisdictions during 
the testimony. From the Consortium view point, will this solve the 
problems that were discussed?
    Response from Dr. Van Romero:
    Increased cooperation and communication is always a good idea, but 
both cooperation and communication are two way processes. A number of 
the problems discussed have been addressed by ODP via the State Point 
of Contacts. It appears to me that there is a break between the state 
and local jurisdictions. For example, there was a lot of discussion 
about the lack of funds to pay for overtime when a First Responder is 
away at training. This is simply not true. ODP has authorized states to 
provide funds to local jurisdictions for overtime to backfill positions 
that are vacated due to training out of the funds ODP provides to the 
state. Obviously, the state and local jurisdictions are not coordinated 
on this issue.
    A concern was expressed that students that return from the 
Consortium courses do not train others. Very meticulous records are 
kept on the number of First Responders that are trained by participants 
in the Consortium courses. Some participants have trained over 1000 
fellow First Responders in their home jurisdictions. However, it is 
true that there are a number of participants that never train their 
colleagues. These participants should not be sent to the Consortium 
courses. The selection criterion however, is between the local 
jurisdiction and the State Point of Contacts. They need to do a better 
job of selecting the participants for the courses.
    It was also stated that ``Unfortunately for the hundreds of 
thousands of volunteers who need to be trained, the ODP consortium 
teaches their programs Monday to Friday during normal work hours''. 
This again is not true. Consortium courses that are delivered in local 
jurisdictions are routinely delivered during off hours and on week-
ends. The Consortium works with the State Point of Contacts to deliver 
the courses to their specification. If a jurisdiction wants a course 
delivered during off hours, all they have to do is work with the State 
Point of Contact to arrange it with the Consortium.
    I could point out other misconceptions, but that would simply be 
``piling on''. The point is yes, there needs to be better cooperation 
and communication, but it appears that the link that most needs 
improvement is the link between local jurisdictions and the State Point 
of Contact.
    In reference to your letter dated July 8, 2005, below are answers 
to your questions regarding my testimony to the Subcommittee on 
Emergency Preparedness, Science and Technology and the Subcommittee on 
Management, Integration and Oversight joint oversight hearing entitled 
``The National Training Program: Is Anti-Terrorism Training for First 
Responders Efficient and Effective?'' on Thursday, June 23, 2005. 
Please let me know if you require additional information.

    (1) What is the role of the National Domestic Preparedness 
Consortium members in the Office for Domestic Preparedness process for 
approving requests from States and Urban Areas to provide terrorism 
preparedness training to their personnel using homeland security grant 
funding?
    Response: Training allocations for resident and mobile training 
courses are established by ODP for each State/Territory based upon 
risk. The specific choice/approval of participants for resident courses 
and venues for mobile training is determined by the State/Territory 
training point of contact within the state administrative agency. If a 
participant cancels prior to a scheduled course, a replacement is 
chosen from a list that is pre-approved by the State/Territory training 
point of contact.

    (2) Of fiscal year 2004 funding from the Office for Domestic 
Preparedness, what percentage has been spent by the Energetic Materials 
Research and Testing Center (EMRTC) at the New Mexico Institute of 
Mining and Technology on course materials, instructor salaries: travel 
costs, lodging, meals, administrative costs, overhead, and other costs?
    Response: Fiscal year 2004 funding was awarded effective October 1, 
2004 and will run through September 30, 2005. Therefore, we only have 
actual expenditures for FY 2004 funds through June 2005. Below is a 
breakdown of these expended funds as requested.




10/01/2004--06/30/2005 (present)..
Description.......................             Actual   Percent of Total
Course Materials & Training             $2,657,918.66             25.58%
 Support..........................
Instructor Costs..................       3,845,371.08             37.01%
Participant Lodging, Meals, & Air        3,169,019.91             30.50%
 Fare.............................
Administrative Costs..............         101,963.14              0.98%
Overhead..........................         564,811.58              5.44%
Equipment.........................          50,150.82              0.48%

Total.............................     $10,389,235.19            100.00%


    (3) What types of off-site training courses does EMR TC provide 
within the State and local jurisdictions, and to what extent are State, 
local, or private entities utilized by EMRTC to provide such mobile 
training?
    Response: The current ODP Homeland Security training strategy 
designates the State/Territory as the source for awareness level 
training. This capability is promulgated to the States/Territories via 
train-the-trainer programs for execution at State/Territory designated 
training academies and established training venues. Trainers that have 
been to train-the-trainer Consortium courses are provided support 
material so they can deliver the course in their home jurisdiction 
utilizing local infrastructure and capabilities.
    Specialty and advanced ODP/NDPC training which requires specific 
equipment and/or facilities are delivered by NDPC instructors to the 
State/Territory at their request. Specifically, EMRTC instructors 
deliver specialized, advanced ``mobile'' training at the request of the 
State/Territory training point of contact within the state 
administrative agency. These courses are delivered at the locations 
specified by the State/Territory training point of contact.

                Raymond W. Kelly Responses to Questions

    Question 1.: Is the New York City Police Department expected to 
provide National Incident Management System (NIMS) training to its 
personnel in time to meet the implementation deadlines during fiscal 
years 2005 through 2007? How have the National Training Program and 
homeland security grant assistance helped in meeting NIMS requirements? 
What are the obstacles and potential solutions to training law 
enforcement personnel on new incident command procedures?
    The NYC Office of Emergency Management, with the approval of the 
Department of Homeland Security, created the Citywide Incident 
Management System (CIMS) for use by New York City in place of the 
National Incident Management System (NIMS). This system is fully 
compliant with the NIMS incident command structure in terms of roles, 
responsibilities, terminology and procedures. CIMS will enable New York 
City emergency response agencies to coordinate activities with federal, 
state and local agencies. In addition, CIMS recognizes the unique size, 
structure, needs and capabilities of New York City's emergency response 
agencies and incorporates them into the CIMS protocol. All uniformed 
members of the NYPD from the rank of Police Officer through Bureau 
Chief have received one-day of CIMS training and NYPD will provide this 
training to future hires. This will meet the implementation deadlines 
for fiscal years 2005 and 2007. DHS grant assistance has enabled the 
City to conduct this training without impacting the Department's daily 
patrol strength.

    Question 2.: How may terrorism prevention, preparedness, and 
response training provided by the Department of Homeland Security be 
better designed and delivered to account for the unique needs of the 
New York City Police Department?
    Terrorism prevention, preparedness and response training provided 
by DHS has increased readiness to respond to terrorist incidents, 
particularly those involving a component. For example, NYPD has worked 
with the Center for Domestic Preparedness (CDP) to create two key 
training courses: The Law Enforcement Protective Measures (LEPM) 
course, which was utilized to provide Chemical, Ordinance, Biological 
and Radiological (COBRA) Operations-level training to approximately 
12,000 members of the NYPD and the WMD Law Enforcement Threat, Hazard 
Recognition and Emergency Actions Training (THREAT), a course that 
enables all NYPD COBRA-trained personnel to meet the annual training 
standards mandated by the Occupational Safety and health Administration 
(OSHA). The development of these courses was expedited by the full-
time, on-site assignment of a CDP representative directly to NYPD. This 
CDP representative was instrumental in obtaining DHS certification for 
these courses, a requirement under grant funding rules. There is a need 
for a representative from the DHS Office of Domestic Preparedness (DHS/
ODP) Urban Area Security Initiative Working Group to be based in New 
York City to serve in the same role. This would enhance the ability of 
NYPD to develop and certify courses in disciplines under the control of 
ODP in a timely manner. It is important that training development 
process has the flexibility to respond quickly to evolving terrorist 
tactics and technological developments. The presence of DHS/ODP 
representatives capable of assisting NYPD in the self-certification of 
training courses will serve this important goal.
    The partners in the DHS training consortium have tremendous 
expertise in first responder training. In addition to first responder 
training, however, the focus of NYPD continues to be the development of 
the skill sets required to become effective ``first preventers.'' NYPD 
seeks to train our personnel to identify and apprehend terrorist 
operatives prior to an attack, during the surveillance, planning and 
preparation phases. Therefore, greater focus must be placed on the 
development and implementation of training in disciplines such as 
surveillance and counter-surveillance techniques, the development and 
utilization of confidential informants, and intelligence analysis and 
analytical writing.

    Question 3.: Which types of terrorism preparedness courses are most 
appropriately provided at Department of Homeland Security training 
centers as opposed to NYPD facilities?
    DHS provides many specialized training courses across the country 
that have been attended by NYPD personnel. Some of these courses are 
best delivered at their present locations. For example, the ``WMD 
Technical Emergency Response Training'' course provided at the Center 
for Domestic Preparedness, located in Anniston, Alabama, and the 
``Response to Terrorist Bombing'' and ``Prevention and Response to 
Suicide Terrorism'' courses provided at the Energetic Material Research 
and Testing Center, located in Socorro, New Mexico, cannot be 
duplicated at NYPD facilities. The ability to expose the student, in a 
controlled, tactically sound and intrinsically safe learning 
environment, to weaponized chemical agents and high yield explosive 
devices make the training experience unique to these facilities. It 
simply would not be practical to conduct this type of training within 
the confines of New York City.
    Training courses that are not site specific, however, could be 
exported to an NYPD facility through the ``train the trainer'' concept. 
Qualified NYPD instructors can be trained by DHS personnel at an NYPD 
facility. The NYPD instructors obtain certification and required 
training material from DHS and can then act as force multipliers by 
delivering the training to the general NYPD training population at an 
NYPD facility. This method has been used in the past with instructors 
and courses from the Center for Domestic Preparedness, the Bechtel 
Nevada WMD Training Program and LSU National Center for Biologic of 
Counter Terrorism Education. This system produces savings, not only in 
travel expenses, but also in travel time. This directly impacts 
readiness, since more members can be trained at a cost of fewer days 
off patrol. This is more cost effective and efficient and produces the 
ability to train large numbers of NYPD personnel. All DHS training 
courses that are not site-specific should be made available to NYPD in 
this manner. The on-site presence of representatives would further 
enhance the process and would enable the Department to rapidly certify 
the courses and meet the parameters and standards required to utilize 
DHS grant funding to deliver the training.

                                 <all>

</pre></body></html>
